<html>
<title> - THE ROLE OF THE NATIONAL SCIENCE FOUNDATION IN K-12 SCIENCE AND MATH EDUCATION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                    THE ROLE OF THE NATIONAL SCIENCE
                           FOUNDATION IN K-12
                       SCIENCE AND MATH EDUCATION

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 3, 2006

                               __________

                           Serial No. 109-46

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



                    U.S. GOVERNMENT PRINTING OFFICE
27-255                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               SHEILA JACKSON LEE, Texas
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
J. RANDY FORBES, Virginia            BRIAN BAIRD, Washington
JO BONNER, Alabama                   JIM MATHESON, Utah
TOM FEENEY, Florida                  JIM COSTA, California
RANDY NEUGEBAUER, Texas              AL GREEN, Texas
BOB INGLIS, South Carolina           CHARLIE MELANCON, Louisiana
DAVE G. REICHERT, Washington         DENNIS MOORE, Kansas
MICHAEL E. SODREL, Indiana           DORIS MATSUI, California
JOHN J.H. ``JOE'' SCHWARZ, Michigan
MICHAEL T. MCCAUL, Texas
MARIO DIAZ-BALART, Florida


                            C O N T E N T S

                              May 3, 2006

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bob Inglis, Presiding Chairman, 
  Committee on Science, U.S. House of Representatives............    14
    Written Statement............................................    15

Statement by Representative Bart Gordon, Minority Ranking Member, 
  Committee on Science, U.S. House of Representatives............    16
    Written Statement............................................    17

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    18

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science, U.S. House of Representatives....    19

Prepared Statement by Representative Michael M. Honda, Member, 
  Committee on Science, U.S. House of Representatives............    19

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Committee on Science, U.S. House of Representatives............    20

                               Witnesses:

Dr. Dennis M. Bartels, Executive Director, The Exploratorium
    Oral Statement...............................................    22
    Written Statement............................................    25
    Biography....................................................    30
    Financial Disclosure.........................................    32

Dr. Joseph A. Heppert, Chair, Department of Chemistry, University 
  of Kansas; Chair, Committee on Education, American Chemical 
  Society
    Oral Statement...............................................    33
    Written Statement............................................    35
    Biography....................................................    38
    Financial Disclosure.........................................    41

Ms. Rebecca Pringle, Physical Science Teacher, Susquehanna 
  Township Middle School; Member, Executive Board, National 
  Education Association
    Oral Statement...............................................    42
    Written Statement............................................    44
    Biography....................................................    50
    Financial Disclosure.........................................    51

Ms. Judy D. Snyder, Mathematics Teacher, Eastside High School, 
  Taylors, South Carolina
    Oral Statement...............................................    52
    Written Statement............................................    53
    Biography....................................................    55
    Financial Disclosure.........................................    56

Discussion.......................................................    56

             Appendix 1: Answers to Post-Hearing Questions

Dr. Dennis M. Bartels, Executive Director, The Exploratorium.....    84

Dr. Joseph A. Heppert, Chair, Department of Chemistry, University 
  of Kansas; Chair, Committee on Education, American Chemical 
  Society........................................................    85

Ms. Rebecca Pringle, Physical Science Teacher, Susquehanna 
  Township Middle School; Member, Executive Board, National 
  Education Association..........................................    87

Ms. Judy D. Snyder, Mathematics Teacher, Eastside High School, 
  Taylors, South Carolina........................................    88

             Appendix 2: Additional Material for the Record

Statement of Niel Tebbano, Vice President, Project Lead The Way..    90

``Science Education Policies for Sustainable Reform,'' American 
  Chemical Society...............................................    95


 THE ROLE OF THE NATIONAL SCIENCE FOUNDATION IN K-12 SCIENCE AND MATH 
                               EDUCATION

                              ----------                              


                         WEDNESDAY, MAY 3, 2006

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:05 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bob Inglis 
[Acting Chairman of the Committee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                    The Role of the National Science

                           Foundation in K-12

                       Science and Math Education

                         wednesday, may 3, 2006
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Wednesday, May 3, 2006, the Committee on Science of the U.S. 
House of Representatives will hold a hearing to review the 
effectiveness and value of the National Science Foundation's (NSF's) 
past and present programs in support of improvement of K-12 science and 
math education and to examine what role the Foundation should play in 
future federal initiatives for strengthening K-12 science and math 
education.
    This hearing follows up on the March 30 Science Committee hearing 
entitled, ``K-12 Science and Math Education Across the Federal 
Agencies,'' which featured Secretary of Education Margaret Spellings, 
NSF Director Arden Bement, and representatives from the National 
Aeronautics and Space Administration, the National Oceanographic and 
Atmospheric Administration, and the Department of Energy. The officials 
outlined their individual agencies' activities to improve K-12 science 
and math education and described interagency coordination efforts. The 
charter for that hearing is attached (Appendix I).
    The 2005 Presidential Awards for Excellence in Mathematics and 
Science Teaching will be announced the week of May 1, and a number of 
the awardees will be present at the Science Committee hearing. 
Immediately following the hearing, the Chairman will invite the 
awardees to participate in a question-and-answer session with Science 
Committee Members to discuss the teachers' experience with K-12 science 
and math education and NSF.

2. Witnesses

Dr. Dennis Bartels is the Executive Director of The Exploratorium 
science museum in San Francisco. Before joining the Exploratorium in 
May 2006, he was the President of TERC, a Massachusetts-based not-for-
profit education research and development organization dedicated to 
improving science, math, and technology teaching and learning.

Dr. Joseph Heppert is a Professor and Chair of Chemistry and Director 
of the Center for Science Education at the University of Kansas. He 
also chairs the American Chemical Society Committee on Education.

Ms. Rebecca Pringle is a physical science teacher at Susquehanna 
Township Middle School in Harrisburg, Pennsylvania. She serves on the 
Executive Board of the National Education Association.

Ms. Judy Snyder is a math teacher at Eastside High School in Taylors, 
South Carolina. She is a winner of a 2005 Presidential Award for 
Excellence in Mathematics and Science Teaching.

3. Overarching Questions

        <bullet>  What unique contributions does NSF make to K-12 
        science and math education programs? What types of programs 
        should NSF sponsor to have the greatest impact on improving the 
        capabilities of science and math teachers? To what extent are 
        these types of programs currently being supported by NSF, and 
        where is there room for improvement?

        <bullet>  Among existing mechanisms for improving K-12 science 
        and math education, what is the correct level of priority to 
        give to providing increased professional development 
        opportunities to improve the subject matter knowledge of 
        science and math teachers? What is the correct level of 
        priority to give to improving pedagogical skills?

        <bullet>  What types of education programs is NSF best suited 
        to sponsor? What are the relative roles of NSF and the 
        Department of Education in improving K-12 science and math 
        education, and what opportunities exist for collaboration 
        between the two agencies?

4. Brief Overview

        <bullet>  The National Academy of Sciences' report Rising Above 
        the Gathering Storm\1\ pointed to the relatively poor 
        performance of U.S. students in science and math as a threat to 
        the Nation's long-term economic health. The report's 
        recommendations included attracting new science and math 
        teachers through the use of scholarships and bolstering the 
        skills of the existing science and math teaching corps through 
        extensive professional development opportunities.
---------------------------------------------------------------------------
    \1\ Rising Above the Gathering Storm: Energizing and Employing 
America for a Brighter Economic Future, National Academies Press, 
Washington, D.C. (2006).

        <bullet>  Historically, NSF's mission has included supporting 
        and strengthening science and math education programs at all 
        levels. In the area of K-12, NSF carries out its mission by 
        funding a variety of science and math education activities, 
        including teacher training (both in-service and pre-service), 
        curriculum development, education research, and informal 
---------------------------------------------------------------------------
        education at museums and science centers.

        <bullet>  NSF also is the primary federal agency with programs 
        focused on improving science and math education at the 
        undergraduate level. At a Science Committee hearing earlier 
        this year, Nobel Prize-winning physicist Carl Wieman emphasized 
        that improving instruction in K-12 science and math education 
        depends on improving the science and math training of the 
        undergraduates who become K-12 teachers. NSF sponsors a number 
        of programs to bolster the science and math skills of the 
        Nation's future teaching corps, including the Robert Noyce 
        Scholarship Program, which provides scholarships to students 
        majoring in science and math fields in exchange for them 
        serving as teachers after graduation.

        <bullet>  In the past few years, funding for NSF education 
        programs, including K-12 and undergraduate programs, has 
        declined. Most NSF education programs are housed in the 
        Education and Human Resources (EHR) Directorate, and the 
        President's budget proposes $816 million for EHR in fiscal year 
        2007 (FY07), a level that only begins to restore cuts EHR 
        experienced in previous years (dropping from $944 million in 
        FY04 to $797 million in FY06).

        <bullet>  In his State of the Union Address in 2006, President 
        Bush announced an American Competitiveness Initiative, which 
        includes the creation and expansion of a number of programs 
        specifically targeted at improving K-12 science and math 
        education. The President's FY07 budget proposes $380 million in 
        new funding for these programs, all based at the Department of 
        Education.

        <bullet>  In February 2006, Congress created the Academic 
        Competitiveness Council (ACC), a cabinet-level group tasked 
        with coordinating and evaluating federal activities in science 
        and math education. On March 30, 2006, the Science Committee 
        held a hearing in which the Secretary of Education, the 
        Director of the National Science Foundation, and 
        representatives from the National Aeronautics and Space 
        Administration, the National Oceanic and Atmospheric 
        Administration, and the Department of Energy discussed their 
        efforts to strengthen K-12 science and math education.

5. Background

K-12 Science and Math Education at the National Science Foundation
    Science and math education is a cornerstone of the historic mission 
of the National Science Foundation. The National Science Foundation Act 
of 1950, which established NSF, directed NSF to support and strengthen 
science and math education programs at all levels. NSF carries out its 
K-12 mission by supporting a variety of science and math education 
activities, including teacher training (both in-service and pre-
service), curriculum development, education research, and informal 
education at museums and science centers.
    Examples of NSF programs designed to improve teacher performance, 
enhance understanding of student retention of scientific content, and 
develop and assess curricula include the Centers for Learning and 
Teaching, which provide professional development opportunities for K-12 
teachers; the Advanced Learning Technologies program, which supports 
cognitive science research on the use of technology to enhance learning 
and teaching; and the Instructional Materials Development program, 
which supports the development of curriculum as well as research into 
the most effective means of teaching math and science material.
    In addition to these programs, other NSF education programs focused 
on improving K-12 education include the Math and Science Partnership 
Program and the Robert Noyce Scholarship Program, both authorized as 
part of the NSF Authorization Act of 2002 (Public Law 107-368). The 
Math and Science Partnership Program funds partnerships between 
universities and local school districts to strengthen the science and 
math content knowledge of K-12 schoolteachers. The grants are awarded 
to support the creation of innovative reform programs that could be 
expanded to the state level if successful. The Robert Noyce Scholarship 
Program is designed to help recruit highly-qualified science and math 
teachers through grants to college and universities to give 
scholarships to science and math majors in return for their commitment 
to teach at the elementary or secondary school level.
    Additionally, a number of programs exist at NSF to improve the 
content knowledge of undergraduate science and math majors, including 
those who may go on to become K-12 teachers. Examples include the 
Science, Technology, Engineering, and Mathematics Talent Expansion 
Program, which provides funding to colleges and universities to develop 
recruitment and retention strategies to increase the number of students 
majoring in science, mathematics, and engineering, and the Course, 
Curriculum and Laboratory Improvement Program, which supports efforts 
to create new learning materials and teaching strategies for science, 
mathematics, and engineering courses and conduct research on teaching 
and learning in those fields.
    Most NSF education programs are housed in the Education and Human 
Resources (EHR) Directorate. The President's budget proposes $816 
million for EHR in FY07, a level that only begins to restore cuts EHR 
experienced in previous years (dropping from $944 million in FY04 to 
$797 million in FY06). Funding for the K-12 programs within EHR 
experienced similar declines in that period, with ``formal'' K-12 
programs\2\ going from $118 million in FY04 to $93 million in FY06 and 
the NSF's Math and Science Partnership Program (NSF MSP) dropping from 
$139 million in FY04 to $63 million in FY06.
---------------------------------------------------------------------------
    \2\ The ``formal K-12 programs'' are the Instructional Materials 
Development Program, the Teacher Professional Continuum Program, and 
the Centers for Learning and Teaching Program, which were combined to 
form the Discovery Research K-12 program in the recent reorganization 
of NSF EHR.
---------------------------------------------------------------------------
Presidential Awards for Excellence in Mathematics and Science Teaching
    As part of its mission to support outstanding classroom science and 
math instruction, NSF administers the Presidential Awards for 
Excellence in Mathematics and Science Teaching (PAEMST). Up to two K-12 
science or math teachers from each of the U.S. states and territories 
are recognized each year for their contributions in the classroom and 
to the teaching profession. The Foundation provides each PAEMST 
recipient with a $10,000 award and professional development 
opportunities while recognizing them as leaders in education and 
inspiration to their colleagues. The award was established by Congress 
in 1983.
    The 2005 awardees, all 7th through 12th grade science or math 
teachers,\3\ have been invited to attend this hearing and to speak at a 
post-hearing open session about their experiences in science and math 
education and with NSF in particular. Ms. Judy Snyder, who is 
testifying at the hearing, is the 2005 awardee in math teaching from 
South Carolina. The full list of PAEMST awardees will be available at 
http://www.paemst.org.
---------------------------------------------------------------------------
    \3\ In even-numbered years, the award is given to elementary 
teachers (grades K-6); in odd-numbered years, secondary teachers 
(grades 7-12) are recognized.
---------------------------------------------------------------------------

6. Questions for Witnesses

    The witnesses were each asked to address the following questions in 
their testimony before the Committee:

        <bullet>  To what extent could your programs have been created 
        or operated without NSF? In what ways did NSF programs 
        contribute to the way you decided to shape your programs? To 
        what extent has NSF affected the way you are evaluating your 
        programs? To what extent did NSF's competitive, peer reviewed 
        proposal process affect the way you designed and executed your 
        programs?

        <bullet>  Among existing mechanisms for improving K-12 science 
        and math education, what level of priority would you give to 
        providing increased professional development opportunities to 
        improve the subject matter knowledge of science and math 
        teachers? What level of priority would you give to improving 
        pedagogical skills? What types of programs should NSF sponsor 
        to have the greatest impact on improving the capabilities of 
        science and math teachers? To what extent are these types of 
        programs currently being supported by NSF? What suggestions do 
        you have for improving NSF education programs?

        <bullet>  What types of education programs is NSF best suited 
        to sponsor? What do you see as the relative roles of NSF and 
        the Department of Education in improving K-12 science and math 
        education, and what opportunities exist for collaboration 
        between the two agencies?

APPENDIX I

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                    K-12 Science and Math Education

                      Across the Federal Agencies

                        thursday, march 30, 2006
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Thursday, March 30, 2006, the Committee on Science of the U.S. 
House of Representatives will hold a hearing to examine how federal 
agencies can improve their individual and collective efforts to 
strengthen K-12 science and math education.

2. Witnesses

Ms. Margaret Spellings is the Secretary of the U.S. Department of 
Education (ED).

Dr. Arden L. Bement is the Director of the National Science Foundation 
(NSF).

Ms. Shana Dale is the Deputy Administrator of the National Aeronautics 
and Space Administration (NASA).

Brigadier General John J. Kelly (ret.) is the Deputy Undersecretary of 
Commerce for Oceans and Atmosphere of the National Oceanic and 
Atmospheric Administration (NOAA).

Dr. James Decker is the Principal Deputy Director of the Office of 
Science at the U.S. Department of Energy (DOE).

3. Overarching Questions

        <bullet>  To what extent and how are the federal agencies 
        involved in K-12 math and science education coordinating their 
        efforts? What are their individual roles? To what extent and 
        how do they ensure that their individual programs are 
        complementary?

        <bullet>  Are there uniform evaluation tools that agencies do 
        or could use to determine the effectiveness of their programs?

        <bullet>  How do individual federal agencies strike a balance 
        in their portfolios among K-12 math and science programs that 
        are designed to encourage students who show great promise and 
        interest, programs that are designed to help students who are 
        struggling academically, and programs that are designed to 
        attract girls, under-represented minorities or students from 
        low-income families? Should every federal agency administer 
        programs for each subgroup of students or are some agencies 
        better served by targeting specific populations, such as those 
        who are academically promising and/or under-represented?

4. Background

Brief Overview
    The quality of K-12 math and science education has been a growing 
national concern. Most recently, the National Academy of Sciences' 
report Rising Above the Gathering Storm pointed to the relatively poor 
performance of U.S. students in math and science as a threat to the 
Nation's long-term economic health. Numerous reports in recent years, 
including the Academy report, have called for renewed efforts to 
improve K-12 education, particularly by attracting top students into 
teaching and improving the training of both current and future teachers 
to deepen their understanding of, and comfort with, math and science 
content. Prompted by such recommendations, the Science Committee has 
pushed for years to enhance federal K-12 math and science education 
efforts, particularly at NSF.
    NSF and ED are the two primary federal agencies with responsibility 
to improve K-12 math and science education. Other federal agencies have 
also run a variety of programs to improve and promote math and science 
education, often because they have scientists and research facilities 
that can be tapped for such activities. Those agencies, including DOE 
and the NOAA, also feel a commitment to keeping science strong in the 
U.S. since performing research is part of their missions. In addition, 
Congress has earmarked funds for education programs and grants in some 
of the agencies, particularly NOAA and NASA.
    The range of education programs across the agencies can be seen as 
a strength--allowing program diversity and ensuring that all available 
federal science resources are contributing to K-12 education. But that 
diversity has also provoked concerns periodically that the federal 
efforts are uncoordinated and include many programs that are too small 
to make a difference or are otherwise ineffective and that the 
education programs are a distraction from agencies' primary missions. A 
report released by the Government Accountability Office (GAO) in 
October 2005 found that at least 13 agencies conduct programs designed 
to strengthen math and science education and raised questions about the 
lack of evaluation of a number of the programs. In February 2006, 
Congress created the Academic Competitiveness Council (ACC), a cabinet-
level group tasked with coordinating and evaluating the federal role in 
math and science education.
    Coordination could provoke a different set of concerns if it leads 
to all federal programs fitting a single mold, dominated by No Child 
Left Behind, which some critics charge has led to a reduced focus on 
science education in the schools. For example, a survey released this 
week by the Center on Education Policy found that most schools are 
increasing their focus on reading and math by reducing instruction in 
other areas, including science. However, others point out that 
proficiency in math is needed to progress in science so that the 
emphasis on math skills hardly detracts from the effort to improve 
science achievement. Moreover, testing in science under the No Child 
Left Behind Act will begin in 2007, and the preparation for these 
assessments should place a renewed emphasis on science, as seen in the 
design of new science tests and the reform of science courses to align 
them to state standards.

GAO Report
    In October 2005, the Government Accountability Office (GAO), at the 
request of Rules Committee Chairman David Dreier, attempted to 
inventory the federal programs that were designed to increase the 
number of students or graduates in science, technology, engineering and 
mathematics (STEM) fields or to improve the quality of education in 
those areas. The GAO report examined education programs at all levels, 
from kindergarten to graduate school, not just the K-12 fields that are 
the focus of this hearing. Among other things, GAO found the following:

        <bullet>  In fiscal year 2004 (FY04), 13 agencies\4\ spent a 
        total of $2.8 billion for 207 programs that were designed to 
        increase the number of students and graduates or to improve 
        educational programs in STEM fields.
---------------------------------------------------------------------------
    \4\ The 13 federal agencies are as follows--National Science 
Foundation, Department of Energy, National Aeronautics and Space 
Administration, Department of Commerce, Department of Education, 
Environmental Protection Agency, National Institutes of Health, 
Department of Agriculture, Department of the Interior, Department of 
Homeland Security, Department of Transportation, Indian Health Service, 
and Health Resources and Services Administration. The Department of 
Defense, while identified by GAO as having STEM programs, did not 
participate.

        <bullet>  Of the 207 programs, 103 had not been evaluated, 
        including 17 programs that had been operating for more than 15 
---------------------------------------------------------------------------
        years.

        <bullet>  94 of the programs identified were funded at less 
        than $1 million and 51 were funded between $1 and $5 million.

        <bullet>  Six federal agencies spent the bulk (about $2.6 
        billion) of the reported funding for STEM education. The 
        largest amount of funding was at the National Institutes of 
        Health, followed by NSF, NASA, ED, the Environmental Protection 
        Agency, and the Health Resources and Services Administration 
        (within the Department of Health and Human Services). The 
        remaining agencies spent a combined total of $154 million.

    According to GAO, the report took one year to complete due, in 
large part, to the amount of time agencies took to provide GAO with 
comprehensive information on their education programs. Also, since GAO 
relied primarily on self-reporting by agencies, the inventory is not a 
definitive list of STEM education programs or activities. (For example, 
the Science Committee is aware of programs that were not included in 
the survey, including several programs at NASA and the Department of 
Defense.)

Academic Competitiveness Council
    Partly in response to the GAO report, Congress established the 
Academic Competitiveness Council (ACC), a cabinet-level group tasked 
with coordinating and evaluating the federal role in math and science 
education. Established in the Budget Deficit Reduction Act (Public Law 
109-171), the ACC is chaired by the Secretary of Education and includes 
``officials from federal agencies with responsibilities for managing 
existing federal programs that promote mathematics and science.'' ACC 
is responsible, within a year, for (1) identifying all federal programs 
with a mathematics or science focus; (2) identifying the target 
populations being served by such programs; (3) determining the 
effectiveness of such programs; (4) identifying areas of overlap or 
duplication in such programs; and (5) recommending ways to efficiently 
integrate and coordinate such programs.
    The ACC met for the first time on March 6, 2006, about a month 
after the Act creating it was signed into law. The ACC, in conjunction 
with the Office of Management and Budget, will inventory existing 
federal math and science education programs, sort these programs by 
program focus or goals, and then evaluate the effectiveness of the 
programs. Within one year, the ACC is required to submit to each 
Congressional committee with jurisdiction over a federal program 
identified as promoting math and science education a report detailing 
the ACC findings and recommendations, including recommendations for 
legislative or administrative action. The Budget Deficit Reduction Act 
provided ED with $50,000 to support the ACC's activities.
    Prior to the creation of the ACC, there was already an existing 
mechanism for coordinating math and science education, established by 
Executive Order. The National Science and Technology Council (NSTC) is 
a cabinet-level council, overseen by the White House Office of Science 
and Technology Policy (OSTP), which serves as the principal means to 
coordinate the federal research and development enterprise. NSTC 
established a subcommittee on education in 2003, but it has been 
relatively dormant.

American Competitiveness Initiative
    In addition to proposing the doubling of the combined budgets of 
the NSF, the National Institute of Standards and Technology, and DOE's 
Office of Science over the next 10 years, President Bush's American 
Competitiveness Initiative (ACI), proposes the creation and expansion 
of a number of programs specifically targeted at improving K-12 math 
and science education. To implement ACI, the President's budget request 
proposes $380 million for programs at ED, including:

        <bullet>  expansion of the Advanced Placement/International 
        Baccalaureate (AP/IB) program to support an additional 70,000 
        AP/IB math and science teachers;

        <bullet>  creation of an Adjunct Teachers Corps to encourage up 
        to 30,000 math and science professionals to become adjunct high 
        school teachers;

        <bullet>  creation of ``Math Now for Elementary Students'' to 
        help elementary school teachers learn proven methods and 
        practices of math instruction; and,

        <bullet>  creation of ``Math Now for Secondary Students'' to 
        promote research-based instruction to improve upper level math 
        proficiency.

    ACI also provides for the evaluation of federal science, 
technology, engineering and math programs, and proposes an additional 
$5 million to support the ACC's evaluation efforts.

Key Federal Agencies
    NSF and ED are the two agencies of the Federal Government that 
share primary responsibility for programs in K-12 education. While ED 
is responsible for K-12 education across all disciplines and is 
experienced in addressing the systemic problems of education, including 
such varied challenges as student diversity (i.e., English language 
learners, students from low socioeconomic backgrounds and students with 
special needs) and school financing, NSF is specifically concerned with 
improving math and science education. Another key difference between 
the two agencies is that ED funding is generally distributed by 
statutory formulas (usually based on student population and income), 
while NSF funding is competed for nationally and projects are chosen by 
peer review.

            U.S. Department of Education
    ED currently administers a budget of about $88.9 billion per year 
(that covers more than K-12 programs)--$57.6 billion in discretionary 
appropriations and $31.3 billion in mandatory spending--and operates 
programs that touch on every area and level of education. ED's current 
programs strongly emphasize equitable educational opportunity for all, 
and most major K-12 spending programs are designed either to equalize 
available funding among schools or school districts or to help specific 
groups of students, such as English language learners or those with 
special needs. In addition, while some ED programs, such as Reading 
First, are subject-specific, the vast majority of ED's programs allow 
states and school districts flexibility in choosing what sorts of 
programs or disciplines federal funding will be used to support.
    The Math and Science Partnership at ED (ED MSP) is the one program 
that specifically seeks to increase the academic achievement of 
students in mathematics and science by enhancing the content knowledge 
and teaching skills of classroom teachers. Allowable uses of funding 
include professional development opportunities, recruitment bonuses and 
performance incentives for qualified math and science teachers, and 
scholarships for advanced course work in math and science. Funding for 
ED MSP ($182 million in FY06), is, like most ED programs, distributed 
from the Federal Government to all 50 states by a statutory formula, 
based on state factors such as population and poverty. The amount of 
funds awarded to the states in FY05 ranged from approximately $888,000 
for small states like Delaware to $24 million for large states like 
California. Each state then distributes the funding, on a competitive 
basis, to partnerships of school districts, schools, and an institution 
of higher education. According to Congressional Research Service 
analysis of ED awards, funding at the local level can range from 
$20,000 to $3.3 million, but it is not clear if this amount is for a 
single year or for a multi-year award.

            National Science Foundation
    The National Science Foundation Act of 1950, which established NSF, 
directs NSF to support and strengthen math and science education 
programs at all levels. Other statutes, notably the Education for 
Economic Security Act (Public Law 98-377, signed in 1984), have 
expanded this authority. Most recently, the Science Committee created 
additional education programs at NSF in the National Science Foundation 
Authorization Act of 2002 (Public Law 107-368).
    NSF carries out its K-12 mission by supporting a variety of math 
and science education activities, including teacher training (both in-
service and pre-service), curriculum development, education research, 
and informal education at museums and science centers. A recent 
reorganization of K-12 education has divided NSF's activities into 
three categories: the development of more effective tests in math and 
science, improving science teaching and learning, and translating the 
results of education and cognitive research into classroom practice.
    Like all NSF programs, funds for education projects are awarded 
through a national, competitive process that draws on a wide variety of 
experts from outside government for peer review of proposed activities. 
While most federal agencies make little effort to evaluate the 
effectiveness of their math and science education programs, NSF 
requires an evaluation component to be included in individual education 
projects, and also has commissioned evaluations of NSF's overall NSF 
education programs. NSF has sought outside advice on how to perform the 
evaluations. For example, a National Academy of Sciences committee in 
2004 provided recommendations to further improve program and project 
evaluations at NSF.
    Most NSF education programs are housed in the Education and Human 
Resources (EHR) Directorate. The President's budget proposes $816 
million for EHR in FY07, a level that only begins to restore cuts EHR 
experienced in previous years (dropping from $944 million in FY04 to 
$797 million in FY06). Funding for the K-12 programs within EHR 
experienced similar declines in that period, with ``formal'' K-12 
programs\5\ going from $118 million in FY04 to $93 million in FY06 and 
the NSF's Math and Science Partnership Program (NSF MSP) dropping from 
$139 million in FY04 to $63 million in FY06.
---------------------------------------------------------------------------
    \5\ The ``formal K-12 programs'' are the Instructional Materials 
Development Program, the Teacher Professional Continuum Program, and 
the Centers for Learning and Teaching Program, which were combined to 
form the Discovery Research K-12 program in the recent reorganization 
of NSF EHR.
---------------------------------------------------------------------------
    President Bush proposed the creation of the NSF MSP as part of his 
original No Child Left Behind initiative, and NSF MSP was authorized as 
part of the NSF Authorization Act of 2002. Congress then created a 
complementary (and similarly titled) program at ED as part of the No 
Child Left Behind Act. The NSF MSP program funds partnerships between 
universities and local school districts to strengthen the content 
knowledge of elementary and secondary schoolteachers. The grantees are 
expected to run innovative reform programs that, if successful, would 
be the key to large-scale reform at the State level. Unlike ED MSP, NSF 
MSP funds are competitively awarded at the national level, and the 
grants range from $2.5 million per year for up to five years for 
targeted programs to $7 million per year for comprehensive efforts to 
improve math and science teaching and learning across the K-12 
continuum.
    In addition to NSF MSP and the ``formal'' K-12 programs, NSF also 
runs the Robert Noyce Scholarship Program, created by the NSF 
Authorization Act of 2002. The Noyce program awards grants to colleges 
and universities to award scholarships to top math and science majors 
or minors in return for a commitment to teach at the elementary or 
secondary school level two years for each year of support received. 
Universities may also use the grant funds to support programs to help 
these prospective teachers obtain their certification and prosper in 
their new profession. In FY06, the program was funded at $9 million, 
and $10 million is requested for FY07.
    Outside of EHR, NSF supports education through its ``broader 
impacts'' criteria for all research grants awarded through its Research 
and Related Activities account. Applications for NSF research awards 
are reviewed not only to determine the merit of the proposed research 
activity, but also to determine how the activity will promote teaching, 
training and learning, broaden the participation of under-represented 
groups, and provide larger benefits to society.

Other Federal Agencies
            U.S. Department of Energy
    DOE runs its K-12 programs out of both headquarters and its 
National Laboratories, focusing primarily on supporting of mathematics, 
science and engineering education programs by using the personnel, 
facilities, equipment and resources of its laboratories to assist local 
schools, teachers and students. DOE's activities include providing 
research experiences for students intending to become math or science 
teachers, providing training for teachers who agree to become ``teacher 
leaders'' in math and science, and supporting academic competitions in 
science and math for high school students. The impetus for these 
programs often comes from individual National Labs, whose commitment to 
education often depends on the leadership at the lab. According to DOE, 
$86 million was spent on education activities at all levels in FY05, 
with $8 million specifically allocated for K-12 education.\6\
---------------------------------------------------------------------------
    \6\ Additional funding from DOE's undergraduate activities, funded 
at $40 million in FY05, may have supported teacher training in math and 
science but a breakdown of this funding was not available at the time 
of the charter.
---------------------------------------------------------------------------
    DOE's involvement in education, particularly at the graduate level, 
go back to its predecessor agency, the Atomic Energy Commission. 
Congressional support for DOE's educational programs has varied over 
time, with Congress sometimes encouraging these programs and sometimes 
discouraging them. In FY95, Congress appropriated $70 million to the 
DOE Office of Science Education and Technical Information for science 
education activities, including undergraduate research activities at 
DOE laboratories, graduate and faculty fellowships, teacher development 
programs and K-12 outreach. In FY96, Congress abolished the Office of 
Science Education and Technical Information, reduced funding for 
science education, and centralized the remaining education programs 
within the Office of Energy Research (now the Office of Science). In 
FY97, Congress eliminated all funding for university and science 
education programs at DOE but, in FY97 and FY98, required that line 
programs should sponsor the education programs. Most recently, the 
Energy Policy Act of 2005 included a set-aside of 0.3 percent of the 
applied energy program research and development funding to support DOE 
Office of Science education programs, and several new programs were 
created at the undergraduate and graduate levels, again affirming the 
role of the agency in education.

            National Aeronautics and Space Administration
    NASA's organic act, the National Aeronautics and Space Act of 1958, 
directs the agency to expand human knowledge about space. As part of 
this effort, NASA's K-12 education activities include workshops and 
internships for teachers and students offered by NASA's centers, 
professional development for science and math teachers, and providing 
materials and visiting astronauts to schools, museums and science 
centers. Specifically, NASA K-12 education programs include the 
Educator Astronaut Program, which selects three teachers to become 
members of the Astronaut Corps, and the NASA Explorer Schools program, 
which brings together teachers and administrators to improve STEM 
teaching and learning in low-income schools.
    In recent years, NASA education has been organized in a number of 
different ways, from being consolidated into an ``Enterprise'' on par 
with other NASA activities, such as space flight, to being spread out 
throughout the agency. Today, NASA education is centralized in the 
Office of Education, which contains five program areas,\7\ including 
one for Elementary and Secondary Education. Funding for Elementary and 
Secondary Education at NASA totaled $29 million in FY06. (Many NASA 
earmarks are focused on education activities; according to NASA, in 
FY06, 72 earmarks, totaling $82 million, were located within the $162 
million budget of the Office of Education.) The National Aeronautics 
and Space Administration Authorization Act of 2005 (Public Law 109-155) 
requires NASA to have the National Academy of Sciences conduct a review 
and evaluation of NASA's precollege science, technology, and 
mathematics education programs.
---------------------------------------------------------------------------
    \7\ The other program areas include Higher Education, e-Education, 
Informal Education and Minority University Research and Education.
---------------------------------------------------------------------------
    In addition to the activities funded through the Office of 
Education, NASA promotes education and outreach as an integral 
component of every major research and development mission, spending an 
additional $150 million on activities at all educational levels through 
its Mission Directorates. For instance, as part of the Materials 
International Space Station Experiment, NASA researchers worked with 
high school students to analyze the effects of low orbit on a variety 
of materials.

            National Oceanic and Atmospheric Administration
    NOAA's K-12 activities focus on improving understanding of Earth 
and ocean sciences through such activities as teacher training and the 
development of educational materials.
    NOAA's Office of Education serves as the primary point of contact 
for NOAA on education activities and coordinates the programs within 
the agency whose primary purpose is education. The FY06 budget for the 
Office was about $38 million, but there is no breakdown available for 
K-12 education. Historically, many of NOAA's education programs at the 
K-12 level have been funded through Congressional earmarks. The 
Administration believes that earmarks accounted for about half of the 
FY06 budget for the Office.
    Earmarked programs include the creation of a high school Earth 
system science laboratory course ($4 million in FY06), and several 
regional education and training programs to support hands-on 
environmental experiences ($7 million in FY06). Congress has also added 
funding to programs that promote the sciences through scientific 
expeditions, like JASON, which uses live broadcasts to share the 
discoveries of research at sea with students and teachers. Past JASON 
expeditions have ``taken'' students on such missions as an exploration 
of the Titanic and the discovery of zooplankton in Monterey Bay.
    In addition to formal K-12 education activities, NOAA conducts 
informal education through its support of marine sanctuaries and 
reserves, funds lesson plans and teacher professional development in 
ocean sciences, and supports a ``Teacher at Sea'' program, which allows 
elementary teachers to go aboard NOAA research and survey ships to 
deepen their understanding of the ocean.

Legislation
    While this hearing is not designed to focus on any specific 
legislation, several bills have been introduced to strengthen STEM 
education in response to the various reports and commissions on U.S. 
competitiveness. Most of these bills seek to improve K-12 math and 
science education through teacher recruitment or training programs. For 
instance, S. 2198, Protecting America's Competitive Edge (PACE) Act, 
and H.R. 4434, introduced by Congressman Bart Gordon, authorize NSF to 
award scholarships to students majoring in STEM education who 
concurrently pursue their teacher certification, per the 
recommendations of the National Academy of Sciences' Rising Above the 
Gathering Storm report. S. 2197, PACE-Energy, also establishes a 
scholarship program for students in STEM fields and supports the 
creation of a part-time, three-year Master's degree in math and science 
for teachers at DOE, not NSF. In addition, S. 2197 creates other new K-
12 programs at DOE, including incentives to help states create math and 
science ``specialty schools'' and new training and research 
opportunities for K-12 teachers and students at the National 
Laboratories.
    In addition to the competitiveness bills, other relevant introduced 
legislation includes H.R. 50, the NOAA Organic Act, which establishes 
as a NOAA mission educating the public about the Earth's oceans and 
atmosphere and fostering the public's ability to understand and 
integrate scientific information into considerations of national 
environmental issues. The Science Committee passed H.R. 50 last 
session.

5. Questions for Witnesses

    The panelists were each asked to address the following questions in 
their testimony before the Committee:

        <bullet>  What are the one or two most important steps the 
        Federal Government should be taking to improve K-12 science and 
        math education and what is the role of your agency in taking 
        those steps? What is the single most effective program your 
        agency runs to help take those steps? How do you know that that 
        program has been effective?

        <bullet>  In general, how does your agency evaluate its 
        programs? Have you examined the evaluation techniques of other 
        federal agencies and departments and, if so, do they have 
        techniques that you have made use of or plan to make use of?

        <bullet>  How have you ensured that your agency's activities in 
        K-12 math and science complement those of other federal 
        agencies and departments in the following areas:

                1)  attracting students to the teaching profession;

                2)  providing pre- and in-service teacher training;

                3)  developing curricula; and

                4)  supporting informal learning.

        <bullet>  How do you decide how to strike a balance in your 
        portfolio among K-12 math and science programs that are 
        designed to encourage students who show great promise and 
        interest, programs that are designed to help students who are 
        struggling academically, and programs that are designed to 
        attract girls, under-represented minorities or students from 
        low-income families (whatever their level of proficiency)? 
        Should every federal agency administer programs for each 
        subgroup of students or are some agencies better served by 
        targeting specific populations, such as those who are 
        academically promising and/or under-represented?
    Mr. Inglis. [Presiding] Good morning.
    The Chair has a motion, before we get to the hearing. By 
direction of the Republican Caucus of the Science Committee, I 
ask unanimous consent to ratify the election of Representative 
Randy Neugebauer of Texas to the Subcommittee on Energy, 
thereby filling an existing Republican vacancy, and 
Representative Mario Diaz-Balart to the Subcommittee on Space 
and the Subcommittee on Environment, Technology, and Standards, 
thereby filling existing Republican vacancies.
    Without objection, so ordered.
    It is my pleasure now to convene the hearing on the role of 
the National Science Foundation in K-12 science and math 
education. I want to welcome everyone here, and thank you for 
coming to participate.
    As you know, this hearing is a followup to the K-12 science 
and math education across the federal agencies hearing that we 
held at the end of March. While it is always good to hear from 
agency witnesses on their work with respective agencies, I look 
forward to hearing today's testimony from our witnesses who are 
professionals in the field, those who are essential to 
preparing our students for potential careers in math and 
science. This hearing focuses specifically on NSF's role in K-
12 education, and I look forward to hearing from those who 
share my belief that the NSF plays a unique and critical role 
in K-12 math and science education.
    NSF is the only federal agency with a proven track record 
of selecting education projects through a rigorous, careful, 
and competitive process that draws on a wide variety of experts 
from outside government. They have a strong track record of 
bringing in outsiders to evaluate the success of their programs 
after they are launched. In addition, they have the experience 
and expertise in math and science education to fully appraise 
proposals, to link education practice with the latest research 
findings in the cognitive sciences on how children learn, and 
to review proposals in the context of decades of experience in 
both education research and practice. In fact, NSF was leading 
the successful effort to improve U.S. math and science 
education long before the Department of Education was ever 
created.
    As I recently told my Science Appropriations colleagues, 
while I applaud the President's desire to improve math and 
science education in the American Competitiveness Initiative, I 
am somewhat perplexed that the majority of the newly proposed 
programs fall within the jurisdiction of the Department of 
Education, when the NSF has such a vital role to play. I also 
remain concerned that the fiscal year 2007 budget request for 
NSF, the Math and Science Partnership Program, continues to 
dwindle, while more responsibility for this program is shifted 
to the Department of Education. The NSF is better equipped to 
provide a solid foundation for this program.
    I am hopeful that the testimony we receive today will 
reflect that the NSF is best equipped to provide a solid 
foundation, not only for programs like the Math and Science 
Partnership Program, but also for K-12 math and science 
education in general.
    Before introducing our panel of witnesses, however, I want 
to take a moment to recognize a special group in our audience 
today. Several of the participants of the 2005 Presidential 
Award for Excellence in Mathematics and Science Teaching. They 
are in Washington this week to receive their awards, and we are 
honored to have them with us today.
    Maybe they could stand, those that are involved in the 2005 
Presidential Awards for Excellence in Math and Science 
Teaching. So congratulations.
    These teachers set a high standard of dedication to their 
profession, and are exemplary of the kind of math and science 
teachers our nation needs to keep us, to help keep us ahead of 
the curve on innovation and competitiveness. We owe them a 
great debt of gratitude for their commitment, and ask that they 
continue on in their good works.
    And now, I would like to welcome our witnesses.
    Dr. Dennis Bartels is the Executive Director of the--hold 
on. I am not going to introduce you. I am going to call on Mr. 
Gordon for an opening statement, if that--let us do that.
    [The prepared statement of Mr. Inglis follows:]

            Prepared Statement of Representative Bob Inglis

    Good morning. I want to welcome everyone, and thank you for coming 
to this morning's hearing on The Role of the National Science 
Foundation in K-12 Science and Math Education.
    As you know, this hearing is a follow-up to the ``K-12 Science and 
Math Education Across the Federal Agencies'' hearing we held at the end 
of March. While it is always good to hear from agency witnesses on the 
work their respective agencies are doing, I look forward to today's 
testimony from our witnesses who are professionals in the field, those 
who are essential to preparing our students for potential careers in 
math and science fields. This hearing focuses specifically on NSF's 
role in K-12 education, and I look forward to hearing from those who 
share my belief that the NSF plays a unique and critical role in K-12 
math and science education.
    NSF is the only federal agency with a proven track record of 
selecting education projects through a rigorous, careful and 
competitive process that draws on a wide variety of experts from 
outside government. They have a strong track record of bringing in 
outsiders to evaluate the success of their programs after they are 
launched. In addition, they have the experience and expertise in math 
and science education to fully appraise proposals, to link education 
practice with the latest research findings in the cognitive sciences on 
how children learn, and to review proposals in the context of decades 
of experience in both education research and practice. In fact, NSF was 
the leading successful efforts to improve U.S. math and science 
education long before the Department of Education was even created.
    As I recently told my Science Appropriations colleagues, while I 
applaud the President's desire to improve math and science education in 
the American Competitiveness Initiative, I am somewhat perplexed that 
the majority of the newly proposed programs fall within the 
jurisdiction of the Department of Education, when the NSF has such a 
vital role to play. I also remain concerned that in the FY07 budget 
request for NSF, the Math and Science Partnership Program continues to 
dwindle while more responsibility for this program is shifted to the 
Department of Education. The NSF is better equipped to provide a solid 
foundation for this program.
    I am hopeful that the testimony we receive today will reflect that 
the NSF is best equipped to provide a solid foundation not only for 
programs like the Math and Science Partnership Program but also for K-
12 math and science education in general.
    Before introducing our esteemed panel of witnesses, however, I want 
to take a moment to recognize a special group in our audience today--
several of the recipients of the 2005 Presidential Awards for 
Excellence in Mathematics and Science Teaching. They are in Washington 
this week to receive their awards, and we are honored to have them with 
us today. They set a high standard of dedication to their profession 
and are exemplary of the kind of math and science teachers our nation 
needs to help keep us ahead of the curve on innovation and 
competitiveness. We owe them a debt of gratitude for their commitment, 
and ask that they stand so that we may know who they are.
    And now, I'd like to welcome our witnesses.
    Dr. Dennis Bartels is the Executive Director of The Exploratorium 
science museum in San Francisco. Before joining the Exploratorium in 
May 2006, he was the president of TERC, a Massachusetts-based not-for-
profit education research and development organization dedicated to 
improving science, math, and technology teaching and learning.
    Dr. Joseph Heppert is a Professor and Chair of Chemistry and 
Director of the Center for Science Education at the University of 
Kansas. He also chairs the American Chemical Society Committee on 
Education.
    Ms. Rebecca Pringle is a physical science teacher at Susquehanna 
Township Middle School in Harrisburg, Pennsylvania. She serves on the 
Executive Board of the National Education Association.
    Ms. Judy Snyder is a math teacher at Eastside High School in 
Taylors, South Carolina. She is a winner of a 2005 Presidential Award 
for Excellence in Mathematics and Science Teaching.
    We look forward to hearing from you, and I recognize the Ranking 
Democratic Member, Mr. Gordon, for any opening statement he may have.

    Mr. Gordon. Thank you very much.
    I know there is little difference between Chairman Boehlert 
and myself on the high value we place on the National Science 
Foundation as an engine to bring constructive change to the 
science and math education in our nation's schools. Science 
education has been a major component of the NSF's activities 
since the agency's creation over 50 years ago, and the 
Foundation has a widely acknowledged record of accomplishments 
in K-12 STEM education improvement.
    I was frankly disappointed that the STEM education 
component of the President's American Competitiveness 
Initiatives totally ignored the National Science Foundation's 
potential contribution to STEM education reform. Instead, this 
initiative places all of the proposed activities at the 
Department of Education. Not only does the President's 
Competitiveness Initiative ignore NSF, the Administration's 
overall FY 2007 budget request actually proposes cutting NSF's 
existing K-12 STEM education program by seven percent. 
Moreover, the fiscal year 2007 cut is on top of prior 
reductions that would lower funding for NSF's principal K-12 
STEM education programs by 47 percent over the last three 
years.
    The witnesses before the Committee this morning, all have 
experience with the NSF's education activities, and could speak 
to their value with firsthand knowledge. I look forward to 
their observations and insights on the kinds of education 
programs NSF does well, and on the factors that lead to 
successful outcomes.
    There is a convergence of views by Congress and the 
Administration that STEM education improvement is one of the 
key factors in ensuring our nation's future wellbeing and 
economic competitiveness. The American Competitiveness 
Initiative was proposed in the President's fiscal year 2007 
budget request, and several bills have been introduced in the 
Senate, and I have introduced bills in the House, which are 
generally based on the recommendations of the recent report 
from the National Academies, ``Rising Above the Gathering 
Storm.''
    There is a disagreement regarding priorities between the 
President's K-12 STEM education provisions and the Gathering 
Storm report's recommendations. While both recommend about the 
same level of funding increases for fiscal year 2007, the 
Gathering Storm report directs approximately 70 percent of the 
new funding for programs to improve the undergraduate education 
of new teachers, and to increase substantially the professional 
development opportunities for current teachers, in order to 
raise their subject knowledge and teaching skills. On the other 
hand, the President's initiative places approximately 70 
percent of the new funding on development of math curriculum 
for education in middle school students.
    I look forward this morning to hearing the views of our 
panelists on what ought to be the priorities for any new 
federal initiative to improve K-12 STEM education, and on the 
specific kinds of programs that would best implement those top 
priorities.
    I cannot predict, or rather, I cannot pretend that I do not 
have a preference in this choice of--the Gathering Storm report 
states that laying the foundation for a scientifically literate 
workforce begins with developing outstanding K-12 teachers in 
science and mathematics. I believe the report got it exactly 
right, and has identified teachers as the first priority, a 
goal that can and must be achieved.
    As the son of two teachers, I admire the skill and 
dedication of these outstanding teachers, and extend my warmest 
congratulations to all those teachers that are here with us 
from the Presidential Award for Excellence in Mathematics and 
Science Teaching. And Mr. Chairman, I also would like to ask 
unanimous consent to insert a statement for the hearing record 
from the Project Lead the Way. This nonprofit organizations 
designated and has disseminated a pre-engineering program that 
is now being used by over 1,300 schools in 45 states. This 
program was cited in the National Academies' Gathering Storm 
report as a model worthy of widespread replication.
    So, once again, Mr. Chairman, thank you for allowing us to 
be here today, and for bringing this good panel of witnesses 
before us.
    [The prepared statement of Mr. Gordon follows:]

            Prepared Statement of Representative Bart Gordon

    Mr. Chairman, I am pleased we have been able to reach agreement, as 
we generally do, and are jointly convening this hearing to review NSF's 
role in federal efforts to improve K-12 science, technology, 
engineering and mathematics education.
    I know there is little difference between us on the high value we 
place on NSF as an engine to bring constructive change to science and 
math education in the Nation's schools.
    Science education has been a major component of NSF's activities 
since the agency's creation over 50 years ago, and the Foundation has a 
widely acknowledged record of accomplishment in K-12 STEM education 
improvement.
    I was frankly disappointed that the STEM education component of the 
President's American Competitiveness Initiative totally ignored NSF's 
potential contributions to STEM education reform. Instead, this 
initiative places all of the proposed activities at the Department of 
Education.
    Not only does the President's competitiveness initiative ignore 
NSF, the Administration's overall FY 2007 budget request actually 
proposes cutting NSF's existing K-12 STEM education programs by seven 
percent.
    This is a proposed cut that is part of a request that otherwise 
seeks to double the overall NSF budget over 10 years. Moreover, the FY 
2007 cut is on top of prior reductions that would lower funding for 
NSF's principal K-12 STEM education programs by 47 percent over three 
years.
    The witnesses before the Committee this morning all have experience 
with NSF's education activities and can speak to their value with first 
hand knowledge. I look forward to their observations and insights on 
the kinds of education programs NSF does well and on the factors that 
lead to successful outcomes.
    There is a convergence of views by Congress and the Administration 
that STEM education improvement is one of the key factors in ensuring 
the Nation's future well being and economic competitiveness.
    The American Competitiveness Initiative was proposed in the 
President's FY 2007 budget request, and several bills have been 
introduced in the Senate and I have introduced bills in the House, 
which are generally based on the recommendations of the recent report 
from the National Academies, Rising Above the Gathering Storm.
    There is a disagreement regarding priorities between the 
President's K-12 STEM education provisions and the Gathering Storm 
report's recommendations.
    While both recommend about the same level of funding increases for 
FY 2007, the Gathering Storm report directs approximately 70 percent of 
the new funding for programs to improve the undergraduate education of 
new teachers and to increase substantially the professional development 
opportunities for current teachers, in order to raise their subject 
knowledge and teaching skills.
    On the other hand, the President's initiative places approximately 
70 percent of the new funding on development of math curriculum for 
elementary and middle school students.
    I look forward this morning to hearing the views of our panelists 
on what ought to be the priorities for any new federal initiative to 
improve K-12 STEM education and on the specific kinds of programs that 
would best implement those top priorities.
    I cannot pretend that I do not have a preference in this set of 
choices. The Gathering Storm report states that ``laying the foundation 
for a scientifically literate workforce begins with developing 
outstanding K-12 teachers in science and mathematics.'' I believe the 
report got it exactly right and has identified teachers as the first 
priority, a goal that can and must be achieved.
    Finally, Mr. Chairman I want to acknowledge our witness, Judy 
Snyder, and her fellow teachers in the audience, who have come to 
Washington to receive the Presidential Award for Excellence in 
Mathematics and Science Teaching. These are the men and women who serve 
with distinction on the front lines of K-12 science and math education.
    As the son of two teachers, I admire the skill and dedication of 
these outstanding teachers and extend my warmest congratulations to 
each of them.
    Mr. Chairman, I want to join you in welcoming all our witnesses 
this morning, and I yield back my time.

    Mr. Inglis. Excuse me. Without objection, that will be 
accepted in the record.
    [The information follows:]

     Recipients of the 2005 Presidential Awards for Excellence in 

Mathematics and Science Teaching scheduled to attend Science Committee 

                         hearing on May 3, 2006

Maryland: Susan Brown, Central Middle School in Edgewater, MD

Maryland: Edward Nolan, Albert Einstein High School in Kensington, MD

Minnesota: Steven Benson, Owatonna High School, MN

Minnesota: Debra Las, John Adams Middle School in Rochester, MN

Missouri: Paula Young, Francis Howell North High School in Saint 
        Charles, MO

New Jersey: Bonnie Scott Gendaszek, John Witherspoon Middle School, 
        Princeton, NJ

New Jersey: Lois Elizabeth Lyons, High Technology High School, 
        Lincroft, NJ

North Carolina: Samuel Wheeler, Southeast Raleigh Magnet High School, 
        NC

Oklahoma: Julie Owens, El Reno High School, OK

South Carolina: Judy Snyder, Eastside High School in Taylors, SC

Texas: Nancy Schunke, Dunbar Middle School in Lubbock, TX

    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good morning. I want to thank the witnesses for appearing before 
our committee to review the effectiveness of the National Science 
Foundation's (NSF's) past and present K-12 science and math education 
programs and discuss the role the Foundation should play in future 
federal initiatives.
    Today's hearing follows up on the March 30, 2006 Science Committee 
hearing entitled, ``K-12 Science and Math Education Across the Federal 
Agencies,'' in which federal agency representatives came to testify. I 
am pleased Chairman Boehlert and Ranking Member Gordon are holding a 
second hearing on this topic because the presence of outside witnesses 
to carefully examine the Administration's Science Technology Education 
and Mathematics (STEM) education programs at NSF is needed to openly 
discuss the President's failed priorities in these federal programs.
    Science and math education is a cornerstone of the mission of the 
National Science Foundation. Examples of NSF programs are designed to 
improve teacher performance, enhance understanding of student retention 
of scientific content, and develop and assess curricula. Over the past 
few years, the Administration has been eroding NSF funding for K-12 
and, to a lesser extent, undergraduate STEM education programs. Most of 
the decline for K-12 STEM education funding has resulted from the 
Administration's persistence, beginning with the FY 2005 budget 
request, to close out the Math & Science Partnerships (MSP) program, 
even though results coming from MSP awards are promising. Further, it 
is no secret that the President's American Competitiveness Initiative 
sharply contrasts with the National Academy of Sciences report, 
``Rising Above the Gathering Storm,'' which made several 
recommendations to improve K-12 STEM education. The report is the basis 
for H.R. 4434, 10,000 Teachers, 10 Million Minds Science and Math 
Scholarship Act, introduced by Ranking Member Gordon, and of which I am 
an original co-sponsor.
    I am interested in hearing whether, and to what degree, NSF should 
be involved in any new federal K-12 STEM education initiative. The 
President's American Competitive Initiative funds education programs 
only through the Department of Education and does not propose increases 
for NSF's existing K-12 STEM education programs. In addition, the 
President places the bulk of the funding on narrow curriculum 
development activities. Conversely, H.R. 4434 places all the K-12 
education programs at NSF and focuses on teacher quality improvement.
    As an oversight committee, it is important we carefully review the 
effectiveness of the NSF because our future federal initiatives for K-
12 science and math education must be strengthened. Our children's 
education is not only the key to their personal success, but also to 
the success of our country's economic growth.
    I look forward to hearing the testimony from the witnesses.

    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Mr. Chairman and Ranking Member.
    The National Science Foundation is a great contributor to our 
nation's science and technology workforce.
    When it comes to the physical sciences, NSF supports research, 
science education at all grade levels, and encourages diversity.
    The Science and Engineering Magnet at Townview High School in my 
home District of Dallas consistently ranks among top schools by U.S. 
News & World Report. The school stands out as a shining example of 
excellence against the odds.
    I am glad that the Committee has invited these outside witnesses to 
give us an unbiased view of NSF's programs. It is important for the 
Committee to know what programs have been successful so we can continue 
to build on that model.
    Also, I welcome all of the exceptional educators who are recipients 
of the 2005 Presidential Awards for Excellence in Mathematics and 
Science Teaching. I commend you for your hard work and dedication to 
this most noble profession.
    Thank you, Mr. Chairman. I yield back.

    [The prepared statement of Mr. Honda follows:]

         Prepared Statement of Representative Michael M. Honda

    Chairman Boehlert and Ranking Member Gordon, thank you for holding 
this important hearing today. I also thank the witnesses for making the 
time to be with us today. I am glad that we are having these outside 
witnesses to balance what our prior Administration-only panel told us. 
The witnesses here today can give us an independent assessment of the 
current STEM education programs that we have in place and the proposals 
that the President has put forth in his budget and State of the Union 
address.
    There are a number of major questions that need to be addressed, 
such as the difference in focus between the President's American 
Competitiveness Initiative proposal and the recommendations of the 
Augustine Report of the National Academies. The ACI focuses almost 
exclusively on the development of curriculum for math, while the 
Augustine Report suggests that focusing on teacher education and 
professional development are the greatest areas of need.
    I hope the witnesses can shed some light on whether it makes sense, 
as the President's budget request proposes, to de-emphasizes the role 
of the National Science Foundation in K-12 STEM education, especially 
since evaluations have shown that the Math and Science Partnerships 
program has produced substantial improvements in student performance 
and all NSF programs score highly in assessments.
    I also look forward to hearing the witnesses thoughts on an idea I 
have for the need to change our K-12 curriculum to include more of what 
I call ``teaching innovation,'' which would teach students the habits 
of mind to think outside the box and to channel their creativity, along 
with their knowledge of science and math, to become more inventive and 
innovative. High-tech executives have told me that they think this is 
an important element missing from our educational system, that we are 
often reliant on people who are inherently good at doing this to be 
leaders but that we don't try to teach it.
    Studies of patents awarded to companies such as AT&T and Xerox 
during their innovative heyday and the Naval Research Lab show that in 
highly innovative companies, a few of the people are responsible for a 
large proportion of the patents awarded, and that those patents are the 
most significant ones. If we can figure out what makes those special 
people tick and teach that to the rest of our students, America will be 
able to remain ahead of the rest of the world no matter how many 
``regular'' scientists and engineers they can education.
    I think that it is important to do this, and I have developed 
legislation that I plan to introduce soon that will put us on the track 
to ``teaching innovation'' in our classrooms.

    [The prepared statement of Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee

    Thank you, Mr. Chairman and members of the Committee. We are here 
today to review the effectiveness and value of National Science 
Foundation (NSF)'s past and present programs in support of improvement 
of K-12 science, technology, engineering, and mathematics (STEM) 
education and to examine what role the NSF should play in future 
federal initiatives for strengthening K-12 STEM. At a time when, 
American students are lagging behind the world in these areas, there is 
a need to examine how to improve the education of Americans students.
    Companies located in the U.S.A. are currently hiring foreign 
educated individuals to fill jobs in the areas of science, technology, 
engineering and mathematics because a lack of American educated 
candidates. A serious evaluation of our education in these areas is 
needed to ensure the American education system produces an abundance of 
students who excel in these areas.
    Representatives from the oil and natural gas industries have 
indicated that they will need to replace over 50 percent of their 
technical workforce within the next ten years, a level that represents 
close to 40,000 jobs. These high paying, high skill jobs include: 
physicists, geologists, and engineers. The current production of Earth 
scientists from American colleges and universities that are considered 
part of the potential employment pool, namely those who graduated with 
a Master's degree or a doctorate, is about 1,200 per year. Having a 
skilled workforce with a technological background will be key for these 
industries to maintain jobs in the United States.
    I am here today to hear the assessments of the Administration's 
priorities in the education component of the President's American 
Competitiveness Initiative. Also, I want to hear how the NSF has 
contributed to improving K-12 STEM education and the whether it has 
been effective.
    The President's American Competitive Initiative funds education 
only through the Department of Education and does not even propose 
increase's for NSF's existing K-12 STEM education programs. The 
President's budget places the bulk of the funding on narrow curriculum 
development activities.
    Since its inception, NSF has supported STEM education programs and 
is generally regarded as the premier federal agency with STEM education 
responsibility. It is unfortunate that over the past few years the 
Administration has been eroding NSF funding for K-12 for Math and 
Science Partnership (MSP) programs. MSP elementary school student's 
showed significant improvements in science proficiency and high school 
math student also showed great improvements. Thus, the evidence would 
indicate that an inquiry of NSF programs and proposal is a must to 
determine how to improve the American educational system in science, 
technology, engineering and mathematics.
    Thank you Chairman and Members of the Committee.

    Mr. Inglis. And I am not really the Chairman. I am just 
playing one on TV today. The real Chairman, Chairman Boehlert, 
will be here, we hope shortly. He is testifying at Energy and 
Commerce, and so, we will be happy to have him back when he is 
able to get here.
    Now, if I may, I will introduce our panel.
    Dr. Dennis Bartels is the Executive Director of the 
Exploratorium, a science museum in San Francisco. Before 
joining the Exploratorium in May of 2006, he was the President 
of TERC, a Massachusetts-based not-for-profit education 
research and development organization dedicated to improving 
science, math, and technology teaching and learning.
    Dr. Joseph Heppert is a Professor and Chair of Chemistry 
and Director of the Center for Science Education at the 
University of Kansas. He also chairs the American Chemical 
Society Committee on Education.
    Mrs. Rebecca Pringle is a physical science teacher at 
Susquehanna Township Middle School in Harrisburg, Pennsylvania. 
She serves on the Executive Board of the National Education 
Association.
    And Ms. Judy Snyder is a math teacher at Eastside High 
School in Taylors, South Carolina. This is not in my script, 
but I will also add, before that, she was a teacher at 
Travelers Rest High School in Travelers Rest, South Carolina, 
and one of her adoring students was actually my son, who is now 
a junior in college, who communicated recently with her about 
how to choose rooms in a house that he and a bunch of folks are 
renting. So, you all have to tell us about the theory about how 
you choose rooms, based on an economic model. She is a winner 
of the 2005 Presidential Award for Excellence in Mathematics 
and Science Teaching, and we are very happy to have Ms. Snyder 
with us.
    Dr. Bartels will----
    Dr. Bartels. Thank you, Mr. Chairman, for this----
    Mr. Inglis. One last logistical note I have got here in my 
script. The teachers who we just recognized and Ms. Snyder are 
recipients of a Presidential Award, and the good news of that 
is that they need to go see the President, but it is sort of 
close after our hearing today. So, to make sure we get a chance 
to hear from the teachers that are in the audience today, we 
are going to pause the hearing at 11:20, and go to an open mike 
session with the teachers, so that they can be dismissed in 
time, dismissed, teachers dismissed, usually, the teachers--
anyway, they can be dismissed in time to go down to the White 
House.
    And so now, Dr. Bartels.
    Mr. Schwarz. Mr. Chairman, I wonder if I might have 15 
seconds at this very propitious moment. Dr. Bartels is from 
Battle Creek, Michigan. His father, George, and his mother, 
Sherry, are great and dear friends of mine, and his father 
George, a physician, was a colleague of mine for many years, 
practicing in Battle Creek, Michigan, and I have known Dr. 
Bartels since he was little Dennis, but he has lived right 
around the corner from me, and graduated from Battle Creek 
Central High School. His testimony here today is serendipitous. 
I had nothing to do about that, but I wanted to give you a 
little bit of his superb, outstanding background, from the 
Nation's Midwest.
    Thank you, Mr. Chairman, and Dennis, welcome.

  STATEMENT OF DR. DENNIS M. BARTELS, EXECUTIVE DIRECTOR, THE 
                         EXPLORATORIUM

    Dr. Bartels. That is all right. Thank you, Mr. Schwarz. A 
wonderful product of that Battle Creek education system. It was 
a terrific experience. And thank you for this wonderful 
opportunity. It means so much to so many of us out here in the 
field. Rest assured, I am not going to read from my written 
testimony.
    As you know, the staff kept encouraging me to add more and 
more and more as we went along, and so, the advice that I have 
gotten today is actually speak from the heart on just a couple 
of points, and speak very quickly, and I think I can do both of 
those things quite well. I should also note right from the 
beginning that although I have worked for many different 
institutions in the last 20 years, the one constant has been 
actually my work for the National Science Foundation since 
1993, and in fact, they have been essentially my boss for now 
the last 17 years. Although I do think there is a Congressman 
present who has had even more personal experience with the 
National Science Foundation than I.
    In any case, I want to limit it to three general points, 
and they are these. First, and I will describe it by sort of a 
personal frustration of my own. We always hear about this 
important connection between research, policy, and practice. 
That is what all of the educators love to talk about, and it is 
so frustrating, because they leave out this really important 
part that most of us, as policy people or as teachers, or 
anybody else, actually don't read the research. It doesn't come 
to us raw from the lab to our desks, and in fact, that is not 
the way it is supposed to happen. We keep forgetting, I think, 
the most critical step, which the engineers amongst us would 
rejoice, which is how do you take that basic research and turn 
it over to a development community that can turn it into useful 
things in classrooms like curricula, technology tools, new 
teaching programs, instructional interventions, and the like. 
And that, I think, has been the main legacy of our National 
Science Foundation for the last 50 years, taking the best of 
knowledge of how kids learn, but then turning it into useful 
things. And it is not true that teachers don't use research. It 
just comes to them in a very different form, and a critical 
form, that the National Science Foundation, should take a lot 
of credit, and a lot of pride in producing.
    So, what I would like to suggest is that the National 
Science Foundation in a lot of ways, in its relationship to the 
Department of Education, could be construed as the same 
relationship between the NIH and the FDA. The NIH is 
responsible for the basic R&D, applied research, and moving 
research through clinical trials, to make sure that, in fact, 
there is promise in these new innovations. But there should be 
someone else who is out there making sure on a large scale that 
these are effective for most people, most of the time, and that 
is what the FDA does. And I believe what NSF is to the 
Department of Education is what NIH has been to the FDA, in 
terms of looking at sort of the different parts in the research 
pipeline that each agency should be most worried about.
    I also like to think of NSF at its best as a venture 
capital firm. And what I mean by that is they ask the right 
questions, they ask for evidence, they find the best people to 
conduct this work, and they always look for high leverage. They 
will take chances on experiments. So, let me give you a couple 
of examples from my own experience.
    The first one, beginning teacher induction for science and 
mathematics teachers. Ten years ago, beginning teachers came 
back up on the policy screen, and lots of states started 
pouring money into these beginning teacher programs, but if you 
look, not a single one was dedicated to a specific discipline. 
There wasn't a beginning teacher program for science teachers 
or math teachers or history teachers or art teachers. They were 
all generic. How do you get through your first year? How do you 
get through your first parent/teacher conference? What are the 
district policies? How do I sign up for my benefits program? 
And the like. NSF recognized this, and took a chance on the 
Exploratorium, to start the first science-specific teacher 
induction program for the first two years of practice. And the 
reason this is so significant is I have become convinced that 
dollar for dollar, the most cost-effective program for 
teachers, period, that we can be investing in is those first 
two years of practice. But in fact, we know that what kind of 
teacher you become has more to do with what you experience in 
that first two years, more than your college preparation 
program. Moreover, you are much more likely to stay in the 
field. In the Exploratorium, in fact, those science teachers 
who come through that program, 91 percent of them are still 
teaching science five years later, and on average, we know in 
the urban centers, that figure is closer to 50 percent. So, we 
keep them there longer, and they become more effective teachers 
more quickly. And now, of course, discipline-specific teacher 
induction programs in mathematics and science are all the rage, 
because of NSF's commitment.
    The second one is a bit of a sadder story. Today, we are 
living off of the educational technology innovations, our 
digital tools in our classrooms, from work that was invested in 
the 1980s and '90s. Since 1996, there has not been one 
dedicated pool of money for developers, designers, and 
innovators in educational technology, since the NSF went out of 
business with the Test-Bed Technology projects in 1996, under 
Nora Sabelli's leadership. Since then, anybody who is working 
on designing great and effective things that use technology, 
these new digital technologies, and think how much they have 
changed in these last 10 years, in our classrooms, there has 
been no place to go. And this, I think, is where a lot of the 
hope for the future lies, in that there is no program for this 
dedicated program, I think, so a real mistake. So, NSF takes 
chances, which in the funding community, is increasingly harder 
to come by.
    Second, NSF never overlooked the informal sector. Museums, 
aquaria, science centers, after school places, film makers, 
television. In fact, it is the only agency that sort of 
recognized that science education in this country is more than 
university and schools, it is all these other places where you 
learn about science. And in a lot of ways, this is a lot more 
real for individuals. Where did we learn about the phenomenon 
of light? It would be hard for us to say exactly, but it is 
probably a culmination of lots of different experiences, both 
in school and out of school, and the NSF, for the last 40 
years, has been investing in informal education, and really 
deserves most of the credit for the capacity that it has.
    But more than that, and I will use the Exploratorium as an 
example, we think of these things as places that we go visit, 
but in fact, 75 percent of the work of the Exploratorium isn't 
even invested in the place. It is invested in teachers and kids 
outside, that--in some research that Mark St. John conducted 
about 10 years ago, we discovered that 40 percent of the staff 
development for elementary science teachers, of any intensity, 
was being conducted by informal science institutions.
    More recently, we have learned that these 1,500 
organizations around this country, 75 percent of them are 
providing teacher staff development and other resources beyond 
sort of the day trip. And then finally, the Exploratorium 
itself today produces 100,000 hours per year of teacher staff 
development, both locally and nationally.
    Finally, I want to urge the Committee to be certain that 
the National Science Foundation stays in the teacher 
enhancement business. The only major large scale teacher 
enhancement program left at NSF, after 40 years of history in 
this work, is actually the MSP program. But in fact, where 
teachers and others gain most of their credibility in K-12 
education is from their own experiences, and these staff 
development programs that the NSF has been sponsoring for more 
than forty years, and because of that, they have set the 
standard. We now know, for instance, through this work, that 
staff development that isn't tied to the specific curriculum 
that a teacher is asked to teach actually doesn't do much for 
student achievement. It has to be about what you are being 
asked to teach your children. We know that it takes sixty hours 
or more over a couple of years to produce the kinds of changes 
for teachers, to take advantage of new scientific knowledge in 
these programs, and finally, we know that others, such as the 
Department of Education, and locales, are getting away from the 
one day workshops and one hour sort of experiences and pushing 
towards the standard that the National Science Foundation has 
set.
    So, to conclude, I think our agenda is still very much 
unfinished. We are about to enter a cognitive science 
revolution sponsored by the NSF and the Centers for Learning, 
but I think we will have as big impact on education as 
biochemistry had on medicine. In the next 20, 30 years, we will 
discover so much about how people learn, and there needs to be 
a place that sort of takes these basic understandings of 
learning, and turns them into useful things for our teachers 
and kids.
    Two, 21st Century skills, through moving and changing 
quickly, and three, we still haven't included everybody. I 
think our secret weapon, if we want to remain a competitive 
country, of the 70 percent of women and ethnic minorities who 
compose our workforce, who really need to fully participate, 
not just as scientists and engineers, but as the technical 
workforce and the entrepreneurs, and yes, even the Congressmen 
and Senators of the future.
    And so, I think there are big problems still, and there are 
big opportunities, and the NSF has never been needed more than 
now.
    Thank you.
    [The prepared statement of Dr. Bartels follows:]

                Prepared Statement of Dennis M. Bartels

    Chairman Boehlert and Members of the Committee, thank you for this 
opportunity to testify on the Role of the National Science Foundation 
in K-12 Science and Mathematics Education. Specifically I have been 
asked to discuss my views on the effects and value of NSF's past and 
present K-12 math and science programs and the future role NSF should 
play with respect to these initiatives.
    These are vital questions for literally tens of thousands of us in 
the field who are dedicated to the improvement of science and 
mathematics education outcomes for not only the best and brightest, but 
for every student who finds a need for science and mathematics in their 
future--which is just about all of them.
    I should disclose that the NSF is largely responsible for my own 
career path and growth. The NSF has been an instrumental partner in my 
own work, starting with the Statewide Systemic Initiative, when I 
served as the Principal Investigator for the award to South Carolina. 
You asked to what extent could your programs have been created or 
operated without NSF? NSF program officers used to ask us the same 
question in South Carolina. What the NSF SSI grant really did for us is 
to get us to do what we knew we needed to do, but couldn't seem to do 
for ourselves. South Carolina would never have allocated an additional 
$10 million of its own resources and built a new comprehensive 
professional development system for science and mathematics teachers 
that continues to thrive today. NSF insists on the highest level of 
quality. That's why the State continues to support it on its own today.
    For almost 20 years, I have dedicated myself to the challenges of 
universal technical literacy from about every institutional angle: at a 
University, from a State Department of Education, from a two-year 
college system, as a PI of several NSF grants, from an informal science 
institution, and most recently a non-profit learning R&D organization.
    In this last instance, at TERC, the organization represents a 
unique class of organizations in this country, numbering less than a 
dozen, which grew up with the NSF as non-profit centers dedicated to 
STEM education research and development of curricula, technology tools, 
teacher education programs and instructional experiences for students, 
adults and the public. The advantage of such places, in comparison with 
other countries that tend to do this work either inside of government 
ministries or as individual faculty efforts at universities, is found 
both in their independence and ability to pull diverse and talented 
teams of scientists, teachers, cognitive psychologists, designers and 
developers together around large-scale problems and projects in STEM 
education.
    Without NSF's support, these places would have never existed (if we 
contrast ourselves with the lack of examples from these other 
countries). What is the consequence? People like Jerrold Zacharias, the 
Radiation Lab Director at MIT, started places like EDC in the 1960s 
because he thought the projects too big for one faculty or university. 
He envisioned an effort in science education equal to the Manhattan 
Project that required independent education labs like EDC, TERC and the 
Exploratorium. In the last 40 years, some of our best curricula, 
research on learning, teacher education ideas, and innovations in staff 
development have come from these organizations.
    Interestingly, my new home, the Exploratorium is another one of 
those dozen organizations. Started by the physicist Frank Oppenheimer 
in 1969 and based partially on his work on the development of NSF 
supported elementary school science curriculum, the Exploratorium is 
often best known for its hands-on exhibits and as a public place. It is 
less well known that the Exploratorium is a premier national teacher 
education center and research laboratory for science education where 
dozens of NSF K-12 and Informal Science Education (ISE) funded projects 
have resulted in exhibits, digital tools, school curricula, media 
projects and after-school programming that reaches millions of children 
and adults across this country. The Exploratorium produces some 100,000 
contact hours of teacher professional development a year.
    Collectively, these experiences have led me to the realization that 
the total STEM education system is much larger than university and 
school, and I firmly believe we must expand our set of solutions beyond 
them as well. NSF intuitively sensed this from the beginning and 
through its unique peer review funding system distributed its 
investments for innovative models and ideas across many kinds of 
institutions, centers and networks that continue to contribute to and 
support science and mathematics education improvement locally and 
nationally.
    In my written testimony, I will make the claim that NSF covers a 
unique and essential gap in our STEM education system and that without 
it, much of what we have accomplished over the last 20 years simply 
would not have happened. I will outline some of the unique qualities 
and accomplishments of the NSF from my own experience and offer some 
suggestions for future directions.

The missing link among research, policy and practice

    Education reformers love to talk about the connections among 
research, policy and practice, as if all teachers, administrators and 
policy-makers needed to do is read the latest research reports! 
Unfortunately, this is a very poor model of how it actually works. Most 
basic research on learning and education never makes it beyond 
scholarly circles. However, new and promising ideas from research do 
make it to our classrooms--all the time. They most often show-up as a 
new curriculum, technology tool, teaching program or instructional 
intervention. The part everyone leaves out when they talk about 
education reform and improvement is the development and design steps 
(won't the engineers among us be happy!).
    Basic research in the learning sciences is developing quickly, but 
never translated into classrooms raw. The process depends on a robust 
development community that creates useful and valuable things that take 
the latest in research and translate it into something that works for 
regular teachers and classrooms.
    Whereas schools provide direct educational experiences for 
students, and districts and states implement policies and programs for 
instruction, improvement requires students have greater access to and 
engagement with good teaching, better designed materials and tests, 
more opportunities with high quality out-of-school learning 
experiences, etc. The improvement of classrooms, and strengthening the 
systems that support them, requires a capacity for improvement--a 
capacity that might be called the Nation's educational improvement 
infrastructure.\1\ NSF invests in the people, ideas and tools that 
comprise this infrastructure and that support the capacity for ongoing 
improvement in STEM education.
---------------------------------------------------------------------------
    \1\ Mark St. John, President of Inverness Research and independent 
evaluator of scores of NSF projects deserves much of the credit for 
these ideas about an STEM education improvement infrastructure.
---------------------------------------------------------------------------
    NSF has a 50 plus year history, still running, which has resulted 
in accumulated knowledge and generations of people that enable better 
and better improvement efforts, stronger management of systems, 
breakthrough ideas and valuable tools. It is not reasonable to expect 
thousands of school districts, colleges and universities and informal 
learning institutions to take on this special R&D role for themselves. 
To wit, the programs at NSF in STEM education remain the envy of the 
world. There are lots of reasons cited by our counterparts in other 
countries for this perception, but it is more than just the monetary 
support and investments provided by the NSF. It is the accumulated 
wisdom, knowledge and experience contained within an independent 
scientific agency.
    For example, too often reformers attempt to do something on the 
cheap, and it's not done in a scientifically rigorous way. A free and 
voluntarily produced curriculum, such as some web sites attempt to do, 
almost always lacks any of the instructional design, cognitive and 
learning research, and scaffolding components necessary for a superior 
curriculum, let alone the prototype testing, iterative testing and all 
the rest that goes into a carefully produced, classroom-ready 
instructional program. Quality curriculum development is far more 
complicated than the typical person appreciates, is expensive and takes 
several years to complete. NSF has earned this wisdom through large-
scale curriculum projects such as Physical Sciences Study Curriculum 
(PSSC) and Elementary Science Study (ESS). Almost everyone in STEM 
education still knows these curricula. Many versions of them are still 
in existence today. A few historians even credit these initial 
curricula efforts from the 1960s as the genesis of the science center 
movement, a claim with some merit when you notice that several of the 
most popular exhibits in science centers started out as simple 
experiments in those texts. However, it never came cheap. Noted 
education historian George Hein estimates in today's dollars that CHEM 
Study cost $11.9 to develop and (ESS) an incredible $41.7 million.\2\
---------------------------------------------------------------------------
    \2\ From a talk given by George Hein at the Science Education for a 
Thriving Democracy conference in Cambridge, Massachusetts on November 
18, 2005 entitled Science Education 1965 and 2005: Myths and 
Differences.
---------------------------------------------------------------------------
    Therein lies another very nice quality of the NSF. It is in the 
habit of treating grant awards like experiments, in the best scientific 
sense. That means learning as much from our failures and mistakes as 
from our clear successes, and revising hypotheses as the data come in. 
So for instance we now understand that staff development that is not 
connected with a specific student curriculum that teachers are asked to 
teach is not as effective for student learning gains as professional 
development programs that are explicitly tied to that curriculum--both 
its content and expectations about ways of teaching it. This is a major 
finding from years of NSF funded work. Without it, the standard of 
extensive workshops (totaling 60 hours or more) focused on particular 
content and concepts from the student-taught curriculum, extended over 
one or more years time would not exist in contrast to the one-hour or 
one-day workshops that so dominated what constituted staff development 
experiences in school systems 20 years ago.

NSF's other unique qualities

    First and obviously, NSF holds all of its grant recipients to 
exceptionally high thresholds of quality and performance. I like to 
think of the NSF as a public venture capital firm. It is smart, 
strategic and sophisticated. It asks the right questions, asks for 
evidence, and looks for high leverage ideas. For example, it recognized 
that a new kind of position was appearing in many school districts and 
schools across the country: that of a ``data facilitator.'' As more and 
more districts embraced the use of data for making instructional 
decisions, the NSF realized both the complexity of using data in 
scientifically appropriate and valid ways and the problem that most 
``facilitators'' inherited the role, along with their other school or 
district duties, and were never provided any formal training for it. 
Seizing the opportunity, NSF provided TERC with a grant to begin 
national training institutes for data facilitators that have led to 
substantial gains in mathematics and science test scores in several 
districts, including Canton City, Ohio; Johnson County, Tennessee; Salt 
River reservation in Arizona; and Colorado Springs, Colorado. Again, 
this is in contrast to the more common practice of CTOs sending raw 
test data to classroom teachers or department heads and asking them to 
``do something'' without a formal process for verifying causes, 
formulating hypotheses and rigorously testing out different possible 
interventions.
    Likewise, there are more than two million teachers of mathematics 
and science in this country, if you count elementary level teachers. 
The numbers appear overwhelming. However, the number of persons 
responsible for staff development of mathematics and science teachers 
is much smaller, perhaps in the thousands. It begs the question, who is 
responsible for the professional development of the professional 
developers? Seeing a chance to leverage its other investments, the NSF 
awarded a grant to the Exploratorium to create a national center--in 
essence a professional development school for staff developers and 
project leaders to experience and study professional development 
designs in science, and then to take back to their own teacher 
workshops. Part of the center's legacy is a new generation of more than 
1000 professional developers who are able to multiply and expand on 
what they learned at the Exploratorium.
    In another example from the Exploratorium, eight years ago the 
value of beginning teacher induction programs began to catch the 
attention of state educators and policy-makers. Recent research 
suggests that what kind of teacher you become has more to do with what 
you learn in the first or second year of practice than even what you 
learned in your college program. Teachers are on the steepest part of 
their learning careers in these first few years and essentially there 
exists no organized system of support. And even where beginning teacher 
programs exist--and the states are starting to pay attention and pour 
some money in--when the Exploratorium got started, it could find no 
other example of a discipline-based teacher induction program. That is, 
no beginning teacher program just for history teachers, language arts 
teachers, or science and mathematics teachers.
    The NSF started the Exploratorium with a ``proof of concept'' 
grant--which to our great fortune allowed us to make some substantial 
modifications from the first to second year of the program. We thought 
our initial model was about two-thirds designed, when in reality it was 
a totally different kind of program than what you do in normal 
inservice program and it required a major overhaul after one year of 
hard-earned experience. NSF support--not just financial but 
programmatic expertise--made a critical difference. They insisted that 
the new program be thoroughly studied by Suzanne Wilson and her 
colleagues out of Michigan State University. Now discipline-specific 
teacher induction programs are the rage and many policy groups point to 
the Exploratorium as the model for middle and high school science 
teacher induction, of which the NSF is justifiably proud for 
recognizing and starting first there.
    There is also the value of the NSF brand. Its support has been key 
for many to experiment and innovate, and to start new trends for entire 
fields such as it has over and again for the 600 science centers found 
worldwide. For many teachers and school district administrators, an 
NSF-funded project carries a strong signal of its likely quality and 
positive impact. Without NSF, I dare to say that the science center 
field ten years ago almost tipped in favor of experiences with a 
greater entertainment value because of market pressures. However, NSF's 
investments in informal education demanded bona fide educational 
experiences based on real science and reversed this unsettling trend. 
NSF's influence on the field remains pivotal.
    The NSF is still unique in its ability to pull together the 
traditions of science and the Nation's scientific and educational 
expertise as the premier general science and engineering research 
funding agency in the United States with the major responsibility for 
both the strength of America's research portfolio and the development 
of the science and engineering workforce. As my colleague Rob Semper 
said recently,

         Science education improvement is too unique to be left to the 
        work of general education by itself. Not only is the world of 
        science and therefore the requirements of good science 
        education changing at a rapid pace, the very nature of science 
        as a discipline requires involvement of the science community 
        in its educational development. This is because as physicist 
        John Layman says ``the special character of science--that it is 
        at once a body of knowledge and a dynamic questing activity.'' 
        \3\
---------------------------------------------------------------------------
    \3\ Rob Semper, Associate Executive Director of the Exploratorium, 
to the National Science Board in testimony delivered on March 9, 2006 
in Los Angeles, CA.

    The NSF takes chances on experimental ideas, an attribute that is 
increasingly more difficult to find in the funding community.
    Nonetheless, our STEM education agenda is unfinished. New 
understandings and important knowledge are being generated by the 
learning sciences. Some believe we are on the edge of a cognitive 
science revolution that can mean as much for the practice of education 
as the modern advances in our understanding of biochemistry had on 
medicine. For instance, we now understand that a six-year-old's 
understanding of ``which is more'' in comparing two numbers has high 
predictive power in how well they will be doing in third grade 
mathematics, regardless of their backgrounds. For students who don't 
come with this understanding into kindergarten, as long as they still 
leave kindergarten with it, they will do as well as their peers who 
understood it before, and much better then others who still don't 
understand it by the end of kindergarten. With known interventions, it 
is possible that nearly every child can leave kindergarten with it.
    At the same time, we are redefining the essential skills and 
thinking abilities required for a 21st century economy and democratic 
society which challenge our traditional practices in STEM education. 
And we have yet to reach all entrants, ethnic groups, and a majority of 
women fully capable of participating in STEM-related careers, let alone 
universal scientific literacy. We continue to need an R&D 
infrastructure that turns advances in our knowledge into useful and 
effective things for teachers and learners that address these grand 
challenges.
    In the pursuit of these significant goals, we have accumulated our 
share of well-intentioned missteps and mistaken hypotheses, but we've 
had some astounding successes to point-out as well.
    For instance, in a recent analysis conducted by Uri Triesman from 
University of Texas in Austin, he examined NAEP data from 1990 to 2005 
from several major urban areas. What he found surprised him. If you 
look at the mathematics performance of students by race, compared with 
national NAEP averages by race, some cities like Austin, Charlotte and 
Boston consistently out-perform the national averages for black and 
Hispanic students by large margins. Moreover, black and Hispanic 
students in some cities were matching performances of white students 
elsewhere. And Hispanic students in Texas today are out-scoring white 
students from Texas on the same test in 1990. His main point: 
demography is not destiny.
    So what gives in Charlotte, Austin and Boston? He points to several 
possibilities. Each committed to higher-level mathematics programs--
many funded in development by NSF--and stayed with the new program for 
more than five years. Sustained and significant professional 
development for teachers followed the curriculum in each grade. 
Interestingly, not all of these cities received direct support from the 
NSF. However, my hypothesis is if you did a survey of each of these 
cities, you would find any number of artifacts and tools--curricula, 
teaching programs, staff development tools--developed elsewhere with 
NSF support. I would venture to say that the mathematics gains from the 
last 15 years, especially in many of the country's urban areas, are 
very much a credit to NSF's long line of work in this area, starting 
with a number of NSF sponsored research studies conducted in the 1970s.
    Likewise, informal education institutions are easy to overlook. But 
the NSF never did overlook this unique resource, not just as an out-of-
school resource but also as major teacher development and curriculum 
development institutions in their own right. The informal science 
infrastructure is really very strong. NSF deserves most of the credit 
for building the capacity of the informal science learning community. 
It may come as a surprise that in a survey conducted by Inverness 
Research and Associates in 1996 that 40 percent of all professional 
development provided for elementary teachers in science of any 
intensity (defined as more than a week) was provided by informal 
institutions. More recent research conducted last year by the Center 
for Informal Learning and Schools (CILS) found almost 75 percent of the 
informal science institutions, including zoos, aquaria, and museums 
provide programs, workshops, materials or curriculum support for K-12 
science education beyond the one-day field-trip. Nationally these 
institutions serve approximately 62 percent of the total number of 
schools. Even today the NSF is making aggressive funding investments in 
the Nation's after-school provider networks and infrastructure, the 
most rapidly growing sector of informal education.
    We are coming around to the notion that learners learn science all 
the time every where, and we cannot separate school from the rest of 
the settings and avenue where students are turned on to learn science. 
With significant support and help from NSF, we are beginning to 
appreciate the importance of the total science-learning environment. 
And NSF, for its part, is perhaps the only federal agency with its hand 
in every part of the total system from university science labs to 
Sesame Street.

Recommendations

    I am very supportive of the comments made by NSF Director Arden 
Bement in his testimony before this committee on March 30. Our views 
about NSF's role in K-12 education are very consistent and I believe 
the proposed program changes and reorganization with the Education and 
Human Resource Directorate open up more opportunities for the field to 
innovate, experiment and test new ideas.
    In terms of specific guidance on prioritizing certain activities 
related to professional development and teacher quality, I will note 
these three:

        1.  Professional development that is specifically tied to the 
        instructional program or student curriculum in use at the 
        school;

        2.  Comprehensive and systemic beginning teacher programs that 
        are discipline-specific, focused on common instructional 
        issues, and leaves little up to chance for a new teacher's 
        education; and

        3.  A special focus in the near-term on middle school teachers 
        where students are moving from informal notions to more 
        formalized understandings about science and where the greatest 
        number of out-of-field mathematics and science teachers are 
        found.

    More broadly, if you accept my claim that the agenda is unfinished, 
that the R&D step between research and practice is imperative, and NSF 
is uniquely suited to that role, then where might we make the most 
strategic investments with potential for the highest leverage and 
biggest payoffs?
    Among my top recommendations:

        1.  Seriously invest in R&D for the next generation of STEM 
        curricula, assessments, instructional approaches, preservice 
        and inservice professional development programs, exhibits, 
        media, texts, digital technologies, novel teaching programs, 
        etc., based on the emerging cognitive revolution in the 
        Learning Sciences, so new innovations are constantly tested, 
        improved, abandoned or moved into commercial or public markets. 
        This is especially true for stimulating development and 
        experiments with the new digital learning technologies as the 
        last active federal program dedicated to them went out of 
        business in 1996 (i.e., the Technology Test-bed Program at 
        NSF).

        2.  Tie these activities to a roadmap for the improvement of 
        infrastructure development, that NSF could develop and manage, 
        that includes support for national centers of excellence 
        focused on key problems or grand challenges to facilitate rapid 
        consolidation and dissemination of progress and knowledge. An 
        essential part of this roadmap is the clear articulation of 
        NSF's role vis a vis the other federal science agencies and the 
        large-scale state and district implementation efforts supported 
        by the U.S. Department of Education. For instance, one might 
        imagine a relationship between the NSF and Dept. of Education 
        similar to that of the NIH to the FDA. The NSF provides most of 
        the applied research and clinical trials from basic research 
        while the Department of Education is responsible for large-
        scale effectiveness studies to determine the ultimate benefits 
        of new approaches on learners compared with existing 
        approaches. In this way, everyone avoids the appearance of 
        conflicts of interest and confusion about roles.

        3.  Stimulate rapid adoption of two-year intensive teacher 
        induction programs that compares favorably with our best 
        medical residency programs for every teacher of mathematics and 
        science so that they not only stay in the profession but also 
        learn how to become a competent, confident and successful 
        teacher as quickly as possible. I believe this is the most 
        cost-effective way to address our concerns about teacher 
        quality.

        4.  Expand the investment, experimentation and resources for 
        community and technical college education, especially as many 
        teachers and most teachers of color start their collegiate 
        education in two-year institutions and because developmental 
        math courses prove to be the second greatest gatekeeper to 
        technical careers (high school algebra being the first). In 
        addition, provide extensive staff development for two-year 
        college teachers, whose participation in NSF programs to date 
        is much lower than for K-12 teachers.

        5.  Accelerate growth and capacity of the informal and out-of-
        school education sectors as vital participants and providers in 
        the total K-12 science education system, including 
        comprehensive teacher development programming, while continuing 
        to innovate ever more creative ways to motivate children and 
        adults of all ages to engage in everyday questions of science, 
        mathematics, engineering and technology.

        6.  Keep at least some fraction of the NSF EHR portfolio 
        dedicated to teacher institutes and large scale teacher 
        enhancement efforts. NSF has a unique role in supporting the 
        development of a leadership cadre of highly developed science 
        and mathematics teachers through fostering critical 
        collaborations with science rich institutions such as 
        university science and mathematics departments, informal 
        science education institutions such as museums and science and 
        education research laboratories. The quality and reputation of 
        these experiences for thousands of teachers over the last 
        several decades creates in large part its credibility and 
        reputation for teachers and in the eyes of Congress. This 
        should not diminish the need for other federal agencies, 
        states, or local districts to provide similar support for 
        teacher enhancement, given the overwhelming numbers.

        7.  Leave some fraction of the investment portfolio aside for 
        field-initiated proposals. True to the nature of doing science, 
        there should be room for innovation and transformative ideas 
        from the field that are not anticipated by the Foundation, 
        which may be high risk but lead to significant breakthroughs.

    Because of its natural connection to the science and mathematics 
academic community, its focus on field driven research and innovation, 
and its long standing relationship with all of the necessary players of 
this improvement in infrastructure, NSF has a unique role to play in 
fostering each and every one of the above recommendations.
    Thank you, Mr. Chairman and Members of the Committee, for your 
attention. I would be happy to respond to any of your questions.

                    Biography for Dennis M. Bartels

    Dennis Bartels is the Executive Director of the Exploratorium--San 
Francisco's acclaimed museum of science, art and human perception. 
Founded by physicist and educator Frank Oppenheimer in 1969, the 
Exploratorium has achieved worldwide recognition as the prototype for 
hands-on science museums around the world.
    Until May, 2006, Dr. Bartels served as President of TERC, a 
nationally known education research and development center know for its 
innovative curricula, products and tools for teachers and students in 
K-12 classrooms. While at TERC, he led the Cambridge, Massachusetts-
based organization's efforts to expand its endeavors in online 
learning, informal science education, and after-school programming. 
Prior to 2001, Dr. Bartels directed the Center for Teaching and 
Learning at the Exploratorium, where he was responsible for the 
establishment of the Exhibit-Based Teaching Partnerships program in 
several centers around the world, including Beijing, China.
    He also was Principal Investigator and Project Director of the 
National Science Foundation sponsored South Carolina Statewide Systemic 
Initiative and directed the development of the state curriculum 
frameworks there. He received his Ph.D. in Education Administration and 
Policy Analysis from Stanford University and completed his 
undergraduate degree at the University of North Carolina at Chapel 
Hill.
    He has served on several committees, advisory boards and review 
panels for the National Science Foundation and other education 
organizations, including the Merck Institute for Science Education and 
the International Organization of Economic Cooperation and Development 
(OECD). Dr. Bartels has testified before committees of both the United 
States Senate and House of Representatives. He has been an invited 
guest and speaker on science and mathematics education in England, 
France, Brazil, the Netherlands, Malaysia, Japan and China. He recently 
was appointed to the NSF Advisory Committee for the Directorate of 
Education and Human Resources.
    Dr. Bartels has been awarded the distinction of American 
Association for the Advancement of Science (AAAS) Fellow. He was 
elected AAAS Fellow from the Section on Education for his energetic 
leadership in systemic science education reform, informal science 
education, and research and development of innovative mathematics, 
science, and technology curricula.
    Dr. Bartels has enjoyed over $28 million in grant funding for his 
work. He remains a student of curriculum reform, teacher professional 
development, technology in education, learning theory, and 
organizational change.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Inglis. Thank you, Dr. Bartels.
    Dr. Heppert, I might point out, if you noticed that----
    Mr. Moore. Point of personal privilege here, Mr. Chairman. 
Mr. Chairman, down at this side.
    Mr. Inglis. Yes, sir.
    Mr. Moore. Could I have just 10 seconds? I am a proud alum 
of the University of Kansas, and I am proud to welcome here Dr. 
Joe Heppert today, as one of the panelists to testify, and I am 
interested in hearing your views on K-12 STEM education. I 
really appreciate your coming, Dr. Heppert, and all the other 
panelists.
    Thank you, Mr. Chairman.
    Mr. Inglis. Great.
    And I might point out that when the light is green, it 
means you have got five minutes there at the start. When it 
starts yellow, start summing up, and then, red means we are out 
of time.

   STATEMENT OF DR. JOSEPH A. HEPPERT, CHAIR, DEPARTMENT OF 
CHEMISTRY, UNIVERSITY OF KANSAS; CHAIR, COMMITTEE ON EDUCATION, 
                   AMERICAN CHEMICAL SOCIETY

    Dr. Heppert. I will do my best. I am going to try to stick 
to my script today.
    Mr. Chairman and distinguished Members of the Committee, 
good morning. I am addressing you today as both the chair of 
the chemistry department at the University of Kansas, and as 
the chair of the American Chemical Society's Committee on 
Education.
    It is a distinct pleasure to address the Committee on a 
subject of the utmost importance to the future of our country, 
how the Nation is going to tackle the challenges of preparing 
the next generation of scientists, technical workers, 
engineers, and mathematicians, the so-called STEM workforce, to 
compete in the global economy of the 21st Century.
    As everyone in this room now recognizes, when it comes time 
to find a job in the life sciences, my daughter Jennifer, who 
is sitting right behind me, will no longer be competing with 
her fellow American students for an American job. She will be 
competing with all of the outstanding students in her field on 
the planet for the most rewarding high tech jobs, jobs that 
know no national or geographic boundaries.
    In such environments, she and other students of her 
generation need to be well prepared. The subject of today's 
hearing, the role of the National Science Foundation in 
promoting effective pre-college STEM instruction and learning, 
is an absolutely critical element in our national response to 
this competitiveness challenge. There is no doubt that NSF is 
one of the premier agencies that supports STEM education 
research around the world, or that maintaining this title is 
the focus of pride for the Foundation. I believe that NSF 
should clearly hold the title of being the world's leader in 
education innovation, helping educators more effectively 
deliver a 21st Century STEM education to eager young minds.
    For the record, I have submitted a copy of ``Science 
Education Policies for Sustainable Reform,'' the American 
Chemical Society's comprehensive statement on priorities, 
practices, and policies related to science education at all 
levels (see Appendix 2: Additional Material for the Record). I 
respectfully suggest that the Committee review the Society's 
recommendations on a wide range of education issues.
    Today, I have five specific recommendations for the 
Committee that relate to NSF's role in improving K-12 
education. First, I would encourage the Committee to continue 
efforts to develop comprehensive legislation that lays out a 
concerted national response to the innovation and 
competitiveness challenge. If we are to sustain a national 
focus on this issue, as we most certainly must do if we are to 
succeed, we need to forge a clearly articulated national 
strategy endorsed by a significant bipartisan mandate from 
Congress.
    Second, such legislation must clearly acknowledge and 
recognize the key role of NSF in improving K-12 math and 
science education, and must also address in concrete terms how 
NSF's Education and Human Resources Directorate will work 
together with the Department of Education and other federal 
agencies on improving student achievement in K-12 science and 
mathematics.
    NSF provides leadership in research on human learning, and 
is at the forefront of research on STEM education, pedagogy 
curricula, and assessment. The Department of Education has an 
extensive network of contacts with state and local education 
agencies that can scale up and fund the dissemination of 
innovative programs produced by NSF. It is essential that these 
two agencies form an effective partnership to deliver the best 
new educational strategies and materials to K-12 educators.
    Third, I believe that NSF should maintain its strong 
educational research focus, playing a central role in improving 
student achievement in the STEM fields. As with every major 
challenge our country has faced over the course of our history, 
our ability to innovate, our vision to invest in fundamental 
research, will play a decisive role in improving student 
achievement in math and science.
    NSF should be the lead agency in fostering the development 
of our STEM education pipeline, from evaluating the best 
textbooks, to pioneering new student learning methods and new 
curricula, to developing better ways to employ technology in 
the classroom. NSF has a unique role as the bridge between the 
science and education communities. It is the only federal 
agency that can attract all of the best minds in both 
communities to the table, with the common intention of solving 
some of the thorniest problems facing our system of science 
education.
    Fourth, NSF should develop significant resources, or NSF 
should devote significant resources to programs that increase 
the number of careers K-12 STEM teachers, with detailed science 
knowledge and/or STEM degrees, emerging from the American 
universities. This issue cannot be solely addressed by 
providing more numerous scholarships and better salaries and 
resources for pre-service teachers. The resolution of this 
issue requires that we foster changes that have only begun to 
occur in the nature and culture of most of our universities. We 
must induce schools of education, science, and engineering to 
form more effective partnerships to address these issues. NSF 
already has substantial experience forging these relationships, 
and with the cooperation of the private sector, is ideally 
suited to facilitate partnerships that can tackle this 
particular challenge.
    I believe that there is evidence that teacher preparation 
programs that emphasize strong pre-service teacher engagement 
with scientific content, including undergraduate research 
experiences, are very effective at attracting and retaining new 
science teachers. My institution will be examining how we can 
adapt elements of the UTeach program, one such program 
developed at the University of Texas to enhance our teacher, 
science teacher preparation efforts.
    Fifth, and finally, I think that NSF can contribute to the 
successes of No Child Left Behind program by providing scalable 
model programs that help achieve improvements in science, 
students' science and mathematics performance in specific areas 
of focus. As an example, a recently publicized release of data 
from NSF's Math and Science Partnership program has established 
that innovative, rigorously evaluated programs supported by 
NSF's Directorate can produce measurable, dramatic improvements 
in student achievement. In the instance that I cite, high 
school students showed a 14 percent improvement in math 
proficiency after one year under the MSP program.
    In closing, I would like to thank the Committee for the 
opportunity to testify here today. In my research experiences, 
I have seen firsthand the success of NSF programs in improving 
K-12 science and math teaching and learning. I cannot emphasize 
strongly enough that NSF is uniquely situated as the agency 
that can best bridge the gulf between the scientific and 
education communities.
    If, in responding to the math and science challenge our 
nation faces, we do not take full advantage of the unique 
strengths of NSF, we will be making a mistake. I am confident 
that the investments we are making in NSF today will result in 
a brighter future for our children.
    [The prepared statement of Dr. Heppert follows:]

                Prepared Statement of Joseph A. Heppert

Introduction

Mr. Chairman and distinguished Members of the Committee:

    Good Morning.
    I am addressing you today as both the Chair of the Chemistry 
Department at the University of Kansas and as the Chair of the American 
Chemical Society's Committee on Education.
    It is a distinct pleasure to address the Committee on a subject of 
the utmost importance to the future of our country--how our nation is 
going to tackle the challenge of preparing our next generation of 
scientists, technical workers, engineers, and mathematicians (the so-
called ``STEM workforce'') to compete in the global economy of the 21st 
century.
    As everyone in this room now recognizes, when it comes time to find 
a job in the life sciences, my daughter Jennifer, who is sitting right 
behind me, will no longer be competing with her fellow American 
students for an ``American'' job. She will be competing with all of the 
outstanding students in her field on the planet for the best, most 
rewarding high-tech jobs--jobs that know no national or geographic 
boundaries. In such an environment, she and other students of her 
generation need to be well prepared.
    The subject of today's hearing--the role of the National Science 
Foundation in promoting effective pre-college STEM instruction and 
learning--is an absolutely critical element in our national response to 
this competitiveness challenge. If we engage in a comprehensive 
examination of the health of our pre-college STEM programs, we will 
find a muddled diagnosis. There is much to be proud of in our 
accomplishments in elementary and secondary math and science education; 
many exemplary programs to emulate, challenging curricula to adopt and 
adapt on a local level, and many outstanding teachers who can help to 
lead our educational system into the future. Yet, we also see 
components of our pre-college STEM programs that are desperately 
struggling; unsatisfactorily low student scores on international tests 
of science knowledge, declining student interest in science careers, 
and many high school graduates who do not have sufficient preparation 
to choose scientific and technical career pathways.
    There is no doubt that NSF is one of the premier agencies that 
supports STEM research in the world, or that maintaining this title is 
a point of pride for the Foundation. I believe that NSF should also 
proudly hold the title of being the world's leader in educational 
innovation; helping educators to more effectively deliver a 21st 
century STEM education to eager young minds.

The Role of NSF in Education

    For the record, I have submitted a copy of ``Science Education 
Policies for Sustainable Reform,'' the American Chemical Society's 
comprehensive statement on priorities, practices, and policies related 
to science education at all levels. I respectfully suggest that the 
Committee review the Society's recommendations on a wide range of 
science education issues.
    NSF's leadership in these arenas takes many forms. I would like to 
begin my testimony by describing some areas in which I have observed 
NSF programs provide focused, effective leadership in addressing the 
Nation's K-12 STEM challenges, and a few areas in which NSF needs 
additional support and direction in order to most effectively adopt its 
appropriate role. I intend to conclude my remarks with a discussion of 
recommendations relating to NSF's role in strengthening our STEM 
education programs.
    It would be an epic understatement to characterize educational 
systems as `complicated.' I believe that educational systems are among 
the most complicated systems that humans have constructed, and this 
complexity arises from many sources. Take, for example, students. Pre-
college students progress through many stages of cognitive, physical, 
emotional, and social development during their years of preparation for 
adulthood. Creating an excellent educational environment requires 
understanding the developmental progress of students at a particular 
grade level, and then engineering sufficient flexibility into that 
learning environment to accommodate very real variations in 
developmental progress among individuals. We can also examine societal 
stakeholders as another source of complexity in educational systems. 
Stakeholders in K-12 educational systems include students, parents, 
teachers, educational administrators, higher education, private sector 
employers, community leaders and organizations, officials of state and 
federal governments, and American society as a whole. Though all of 
these stakeholders embrace the common goal of providing the best 
possible education for American children, their different expertise, 
experiences, and goals influences the priorities they set for fostering 
educational change and the strategies they propose for achieving that 
change. We already have an incredibly complicated description of 
educational systems, and we have only barely described two parameters 
in a system with many, many more variables.
    We are asking NSF to step into the midst of the multidimensional 
problem and affect positive change. It is entirely reasonable to ask 
what unique qualifications and characteristics NSF brings to this task.
    NSF is the federal agency with the broadest expertise with STEM 
content knowledge; consequently, it is the agency best able to oversee 
the development of quality STEM curricula for all educational levels, 
evaluate the quality of existing curricula and programs, and develop 
research and assessment methods that successfully evaluate student 
learning of science.
    Through its reputation and resources, NSF has enormous power to 
convene. NSF education programs often mandate that scientists, 
mathematicians, educational professionals and educational policy 
specialists all collaborate on the development of solutions to problems 
in STEM education. These are exactly the type of multidisciplinary 
consortia that are required to formulate and implement solutions to 
complex educational issues.
    Many NSF programs thrust STEM content professionals into leadership 
roles in educational research projects. NSF is one of the select 
Federal agencies funding educational research that guarantee STEM 
professionals a voice at the table in projects affecting the future of 
their own disciplines. This approach is crucial for building a sense of 
responsibility for educational progress in STEM fields among 
scientists, mathematicians and engineers. It also results in the 
development of enhanced educational research capacity among STEM 
professionals. Late last year, I participated in a National Academies 
workshop funded by NSF that focused on assessing the status of STEM 
education research faculty in STEM discipline departments. NSF is 
clearly interested in fostering the careers of science, mathematics and 
engineering faculty engaged in STEM education research, and in 
supporting an appropriate increase in the numbers of such researchers. 
This is a praiseworthy objective.
    NSF's strength lies in its emphases on innovation and on fostering 
broader societal impact through the programs it funds. Research and 
development are NSF's dual specialties; so it follows that its mission 
is admirably suited to provide oversight of STEM educational research.
    There are areas in which NSF could improve its programs, and its 
advocacy and support for STEM education research. Scientists, 
mathematicians and engineers occasionally fall into the trap of 
behaving as if funding for our `traditional' research programs is our 
sole priority and only use of resources that will benefit for our 
particular discipline. This is not true. Without sufficient funding for 
educational research that fosters improvement in STEM learning at all 
educational levels--the type of research that renews our disciplinary 
core content, enlivens our teaching, improves student comprehension, 
informs us about more effective uses of technology, and increases 
student wonder about the character of the natural systems in which we 
live--our disciplines will inevitably suffer. Our disciplines, and NSF 
as the proxy for research in those disciplines, must constantly balance 
the need for investment in research with the equally crucial need for 
fundamental research in STEM education. NSF's emphasis on using 
research as a driver of innovation and its strong focus on the content 
of STEM disciplines makes it the best agency to manage this educational 
research mission.
    Paradoxically, the funding needs of No Child Left Behind programs, 
which are intended to foster near-term improvement in student 
achievement, have created a countervailing pressure on NSF resources 
that support the basic educational research that is foundational for 
longer-term improvements in STEM education. Substantial NSF funding has 
been re-tasked from programs that cultivated K-12 curriculum innovation 
and developed new models for enhancing the pedagogical content 
knowledge of inservice teachers. As a result, these programs are 
funding fewer initiatives that will provide new strategies to improve 
student achievement.
    In order to drive change in K-12 education, it is necessary to 
create change in how colleges and universities teach STEM content to 
future teachers. Instructional strategies at universities are 
notoriously difficult to change. NSF resources have, in previous 
initiatives, provided an important impetus for innovation in college 
and university STEM instruction. Such programs are sorely under-funded 
in the current NSF educational research portfolio. Now, as we need to 
increase the number of students choosing to major in K-12 STEM 
teaching, is the time to enhance support for these programs.

Recommendations Regarding Future Action

    The American Chemical Society supports the recent recommendations 
of (1) the National Academies, (2) the Council on Competitiveness, and 
(3) the Task Force on the Future of American Innovation. These 
organizations have established a powerful roadmap showing how the 
United States should respond to existing threats to our scientific and 
technological leadership. Furthermore, the American Chemical Society is 
prepared and committed to contribute to the development of a national 
innovation strategy for the 21st century and to support legislation 
that embodies key elements of these reports.
    Today, I have five specific recommendations for the Committee that 
relate to NSF's role in improving K-12 education:

    First, I would encourage the Committee to continue efforts to 
develop comprehensive legislation that lays out a concerted national 
response to the innovation and competitiveness challenge.
    If we are to sustain a national focus on this issue--as we most 
certainly must do if we are to succeed--we need to forge a clearly 
articulated national strategy, endorsed by a significant, bi-partisan 
mandate from Congress.

    Second, such legislation must clearly acknowledge and recognize the 
key role of NSF in improving K-12 math and science education, and must 
also address, in concrete terms, how NSF's Education and Human 
Resources (EHR) Directorate will work together with the Department of 
Education and other federal agencies on improving student achievement 
in K-12 science and mathematics. NSF provides leadership in research on 
human learning, and is at the forefront of research on STEM education 
pedagogy, curricula, and assessment. The Department of Education has an 
extensive network of contacts with State and local educational agencies 
that can scale up and fund the dissemination of the innovative programs 
produced by NSF. It is essential that these two agencies form an 
effective partnership to deliver the best new educational strategies 
and materials to K-12 educators.

    Third, I believe that NSF should maintain its strong educational 
research focus, playing a central role in improving student achievement 
in the STEM fields.
    As with every major challenge that our country has faced over the 
course of our history, our ability to innovate--our vision to invest in 
fundamental research--will play a decisive role in improving student 
achievement in math and science.
    NSF should be the lead agency in fostering the development our STEM 
education pipeline; from evaluating the best textbooks, to pioneering 
new student learning methods and new curricula, to developing better 
ways to employ technology in the classroom.
    NSF has a unique role as the bridge between the science and 
education communities. It is the only federal agency that can attract 
all of the best minds in both communities to the table with the common 
intention of solving some of our thorniest problems facing our system 
of science education.

    Fourth, NSF should devote significant resources to programs that 
increase the number of career K-12 STEM teachers with detailed science 
knowledge and/or STEM degrees emerging from American universities. This 
issue cannot be addressed solely by providing more numerous 
scholarships, and better salaries and resources for preservice 
teachers. The resolution of this issue requires that we foster changes 
that have only begun to occur in the culture of most universities. We 
must induce Schools of Education, Science and Engineering to form more 
effective partnerships to address these issues. NSF already has 
substantial experience in forging these relationships, and, with the 
cooperation of the private sector, is ideally suited to facilitate 
partnerships that can tackle this particular challenge.
    I believe that there is evidence that teacher preparation programs 
that emphasize strong preservice teacher engagement with scientific 
content, including undergraduate research experiences, are very 
effective at attracting and retaining new science teachers. My 
institution will be examining how we can adapt elements of the UTeach 
program, one such program developed at the University of Texas, to 
enhance our science teacher preparation efforts.

    Fifth, I think NSF can contribute to the successes of the No Child 
Left Behind program by providing scalable model programs that help 
achieve improvements in student science and mathematics performance in 
specific areas of focus.
    As an example, a recently publicized release of data from NSF's 
Math and Science Partnership program has established that the 
innovative, rigorously evaluated programs supported by NSF's EHR 
Directorate can produce dramatic, measurable improvements in student 
performance. In the instance that I cite, high school students showed a 
14 percent improvement in math proficiency after one year under the MSP 
program.
    I hope we can effectively work together to continue this and other 
successful programs funded by NSF, and to fund new NSF education 
initiatives that hold the promise of improving the quality of STEM 
education for our children.

Conclusion

    In closing, I would like to thank the Committee for the opportunity 
to testify here today. In my research experiences, I have seen first 
hand the success of NSF programs in improving K-12 science and math 
teaching and learning.
    I cannot emphasize strongly enough that NSF is uniquely situated as 
the agency that can best bridge the gulf between the scientific and 
education communities. If, in responding to the math and science 
challenge our nation faces, we do not take full advantage of the unique 
strengths of NSF, we will be making a mistake.
    I am confident that the investments we are making in NSF today will 
result in a brighter future for our children. Thank you.

                    Biography for Joseph A. Heppert

B.S., 1978, San Jose State University

Ph.D., 1982, University of Wisconsin-Madison

Postdoctoral Associate, 1983-85, Indiana University

Science Education

    Joseph A. Heppert, Professor and Director of Center for Science 
Education

    Research Interests: Science education, science teacher preparation, 
technology in science education, the role of scientific research in 
preparing K-12 science educators and student perceptions of science 
during the transition between two-year and four-year colleges.
    Professor Heppert's research group concentrates both on the 
implementation of reforms in science instruction at the university and 
K-12 levels, and on developing a fundamental understanding of how these 
reforms improve student retention of scientific principles and student 
attitudes toward science. The two projects outlined below are typical 
of research plans in Professor Heppert's group.
    The Paradigm Laboratory Project. This project, funded by the 
William and Flora Hewlett Foundation, is undertaking a comprehensive 
redesign of laboratory experiments used in the introductory 
undergraduate chemistry courses. The purpose of the redesign is to 
present students with an opportunity to apply the scientific method 
from the earliest stages of their university careers. Laboratories are 
designed to avoid the skills-driven cookbook character of traditional 
introductory laboratories. Instead, students are required to work in 
groups and use their critical thinking skills to develop strategies for 
solving the problems posed in the laboratories. Teaching assistants act 
as mentors and coordinators for students as they develop problem-
solving strategies. Curriculum design is based on constructivist, 
including a 5-e learning cycle instructional model. The flow diagram of 
the redesigned laboratories illustrates that 1) the new experiments 
include an active and engaging pre-laboratory component, 2) envision a 
modified role for teaching assistants, who introduce overarching 
concepts and terminology only after students begin to construct these 
concepts for themselves and 3) remove procedure and technique from 
their usual prominence in the flow of the laboratory in order to re-
establish inquiry and critical thinking as principle objectives of the 
laboratory experience. A discussion of the principles of the laboratory 
reform program and working drafts of revised laboratories can be 
accessed through the project web site.
    The Kansas Collaborative for Excellence in Teacher Preparation 
(KCETP). KCETP is an NSF-funded project to reform K-12 science and 
mathematics teacher preparation programs at KU, Kansas State University 
and associated two-year colleges and school districts. As a systemic 
reform program, KCETP takes the position that science and mathematics 
teacher preparation begins with K-12 students before they have made the 
decision to pursue careers in mathematics and science education, and 
continues through the college and university experiences of these 
students into the early years of their activity in K-12 classrooms. 
KCETP embraces the concept that scientists, engineers, mathematicians, 
and science and mathematics teachers are all committed to professions 
that require lifetime learning. This lifetime commitment requires that 
participants both maintain a current and active knowledge of 
mathematics and science content and have a continuing commitment to 
improve the skills needed to communicate the challenge and excitement 
of mathematics and science to future generations. The scope of KCETP 
requires a far-reaching collaboration between K-12 teachers, two-year 
and four-year college and university faculty, and representatives of 
the Department of Education.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The KCETP collaborative currently encompasses two Regents 
Universities, four-two-year colleges and ten school districts shown in 
this map of Northeastern Kansas. See the project web site for more 
information.
    The KU Center for Science Education. The KU Center for Science 
Education is an interdisciplinary Center focusing on improving 
mathematics and science education throughout the university and on 
fostering scholarship in science and mathematics education in the 
University community. Participants in Center activities are drawn from 
Chemistry, Physics, Biology, Mathematics, Environmental Engineering, 
and Teaching and Leadership.
    The Center is working on projects in four general areas:

        1)  implementation of the recommendations of the Chancellor's 
        Science Education Task Force;

        2)  funding of projects to improve science and mathematics 
        curricula at KU;

        3)  partnering with the State and local school districts to 
        improve science teacher preparation and serve existing science 
        teachers;

        4)  enhancement of informal science education outreach to the 
        Kansas City metropolitan area and the state.

    Additional information about Center projects and programs is 
available at:
http://www.kuscied.org.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Inglis. Thank you, Dr. Heppert. Ms. Pringle.

  STATEMENT OF MS. REBECCA PRINGLE, PHYSICAL SCIENCE TEACHER, 
 SUSQUEHANNA TOWNSHIP MIDDLE SCHOOL; MEMBER, EXECUTIVE BOARD, 
                 NATIONAL EDUCATION ASSOCIATION

    Ms. Pringle. Good morning Congressman Inglis, and the 
Members of the Committee. My name is Becky Pringle, and I am a 
member of the Executive Committee of the National Education 
Association. I thank you for this opportunity today to speak 
with you about the critical issues involved in improving math 
and science education in this country.
    Before I begin my statement, though, I want to take this 
opportunity to thank the chairman for his long and 
distinguished career in Congress, and for the support, very, 
very strong support that he has given to public education, and 
we will miss his leadership. And we wish him well, as he 
embarks on many more exciting endeavors, so please extend our 
congratulations and best wishes to him.
    I would also like to thank Ranking Member Bart Gordon and 
his staff for inviting me here today at this hearing, and also 
for his advocacy, specifically with math and science, but in 
general, with public education. I applaud the chair and 
Congressman Gordon and the Committee for recognizing the 
importance of the practitioner's voice.
    I understand this is a second hearing. You invited not one, 
not two, but three teachers to share their thoughts with you 
today. I cannot tell you how much I appreciate that, and on 
behalf of the 2.8 million members of the National Education 
Association, thank you. And I would point to that as one of the 
most valuable components of the National Science Foundation, 
not only their programs, but the very premise from which they 
operate. They understand that they cannot put in place programs 
that are going to be effective at improving education if they 
do no involve teachers who are in classrooms with children 
every day. And so, I speak to you, not only as an NEA leader, 
but I also come to you as an eighth grade teacher of 30 years.
    As a science teacher, I am passionate about ensuring the 
highest quality math and science education for our children, so 
they cannot only compete successfully, but so that they can 
help to position our nation at the forefront of an increasingly 
global society. We must equip them with the 21st Century math 
and science skills that they will need to help us lead the way 
tomorrow. And I am equally passionate in my belief that a 
highly skilled math and science teaching force, knowledgeable 
in both subject matter and pedagogy, is the most important 
factor in improving math and science education.
    Because NEA believes that improving professional 
development is the most important factor in strengthening math 
and science education, the first priority must be to address 
the education of both new teachers and veteran teachers, 
providing them with professional development programs that 
improve continuously their capabilities for improving the 
instruction for their students.
    Given the clear link between teacher quality and student 
learning, I too, Congressman Inglis, am a bit perplexed. We are 
very disappointed that the Administration's proposal for 
improving math and science education focuses overwhelmingly on 
developing curriculum materials for elementary and middle 
schools. While ensuring rigorous curriculum is absolutely 
important, we believe this allocation of resources will not 
offer the most effective approach to reaching the intended 
goal. Rather, we would recommend redirecting resources to focus 
primarily on professional development for teachers.
    I teach middle school. No one knows better than teachers of 
middle level learners that lessons must be developed and 
adjusted to address the different developmental needs of our 
students, as well as their different learning styles. With 
students who seemingly change from one minute to the next, who 
are constantly hormonally challenged, we must have the 
knowledge and the skills to adapt our teaching methods to 
convey difficult concepts, like Bernoulli's principle.
    I can tell you that through the work, the research, and in 
addition to that, the partnerships that the National Science 
Foundation has established, they have become a major player in 
making sure that teachers receive the kind of professional 
development that they actually can put to use in their 
classroom.
    So as I attempt to teach the difficult concept of 
Bernoulli's Principle, when I talk to my students about fast 
moving particles creating an area of low pressure, I can't just 
say that. They would look at me like some of the people behind 
me are looking at me, what is she talking about? Make her stop. 
So, I have to use the skills and the training that I learned 
from these kinds of programs, that the National Science 
Foundation afforded me. So, by using this simple technique of 
blowing over this paper, and demonstrating to the children that 
it rises, because that area of low pressure, where those fast 
moving particles are, also results in this higher pressure 
underneath the paper pushing it up. Can you imagine teaching 
that to middle school students, and making sure that they 
understand, as is stated in our science principles, and our 
science standards in Pennsylvania, that they have to not only 
be able to identify, but they have to be able to explain 
principles of forces and motion.
    Those kinds of techniques and skills are the kinds of 
opportunities that the programs that have been funded by the 
National Science Foundation have given us. I want to emphasize 
the partnership piece. That is so important. There is 
absolutely no way we are going to improve science instruction 
in this country if we are not united in that cause. It takes 
all of us, it takes policymakers, it takes teachers, it takes 
principals, it takes school districts, it takes all of us to do 
that. It takes the research from the National Science 
Foundation. I had the honor and pleasure to participate in one 
of these partnerships with the Lebanon Valley College, where 
they brought in teachers from all over Central Pennsylvania, to 
participate in a weeklong program, where we not only worked 
very closely with the chemistry, physics, and biology 
professors there at the school, strengthening our content 
knowledge, but also working on, together, collaboratively, 
working on improving our skills at explaining those concepts to 
students. But you see, we didn't just come there for one week. 
We had tune-ups, so the funds allowed us to come back, and we 
didn't just have that. They provided much-needed materials that 
many of our science classrooms do not have, to our teachers.
    Not only did they do that, but they bring those experiences 
onsite, so that we have regional math science alliances that 
are very close. They give us an opportunity to have 
professional development right in our backyard, that also 
provide libraries and resources for us. It is the National 
Science Foundation's work over these many long years that has 
helped to not only promote, but provide funds for these many 
programs. So, I would encourage your continued support of the 
National Science Foundation, and I would like to say that not 
only are their efforts in professional development, but also, 
all of the work that they have also done in curricular design, 
so I would encourage you to continue to push for their 
increased funding.
    Thank you for your kind attention.
    [The prepared statement of Ms. Pringle follows:]

                 Prepared Statement of Rebecca Pringle

Mr. Chairman and Members of the Committee:

    My name is Becky Pringle and I am a member of the Executive 
Committee of the National Education Association. I thank you for the 
opportunity to speak with you today about the critical issues involved 
in improving math and science education in our nation's elementary and 
secondary schools.
    This is a timely and important issue, not only because the 2007-08 
school year marks the beginning of required science testing under No 
Child Left Behind, but, most especially, because we know that for our 
nation to position itself at the forefront of an increasingly global 
society, we must equip our students today with the 21st century math 
and science skills they will need to lead the way tomorrow.
    I speak to you today as an NEA leader, representing NEA's 2.8 
million members. But, I also come to you as an eighth grade science 
teacher with 30 years of classroom experience. As a science teacher, I 
am passionate about ensuring the highest quality math and science 
education so that all of our students can compete successfully in the 
global economy. And, I am equally passionate in my belief that a highly 
skilled math and science teaching force, knowledgeable in both subject 
matter and pedagogy, is the most important factor in improving math and 
science education.
    My testimony today will highlight the importance of focusing 
resources on professional development to improve math and science 
education and the critical role the National Science Foundation (NSF) 
can play in these efforts.

A Focus on Professional Development

    NEA believes that improving professional development is the single 
most critical factor in strengthening math and science education. No 
single change will make a bigger difference in helping students reach 
high academic standards than ensuring quality teachers. Therefore, the 
first priority for improving K-12 math and science education should be 
to address the education of new teachers and provide professional 
development programs to improve continuously the capabilities of 
current math and science teachers.
    Given the clear link between teacher quality and student learning, 
we are disappointed that the Administration's proposal for improving 
math and science education focuses overwhelmingly on developing math 
curricular materials for elementary and middle schools. In fact, 70 
percent of the proposed funding would go toward these efforts. While 
ensuring rigorous curricula is certainly an important part of 
strengthening math and science education, we believe this allocation of 
resources will not offer the most effective approach to reaching the 
intended goal. Rather, we would recommend redirecting resources to 
focus primarily on professional development and training for teachers.
    Quality professional development programs focus both on content and 
pedagogy. Improving subject matter knowledge and pedagogical knowledge 
are equally important in preparing math and science teachers. Effective 
teachers have a deep knowledge of their subject matter and are equally 
skilled at using appropriate strategies to teach that knowledge to 
students.
    Understanding content is essential. Educators with a breadth and 
depth of content knowledge are the foundation for excellent math and 
science teaching and learning. However, it is also important to know 
how children learn, how different children learn differently, and how 
to tailor instruction accordingly. Our increasingly diverse classrooms 
demand that teachers understand a number of ways of providing 
instruction to students. For example, students with learning 
disabilities, or those for whom English is a second language, may 
require instruction delivered in a different way than their peers.
    I teach middle school. No one knows better than teachers of middle 
level learners that lessons must be developed and adjusted to address 
the different stages of cognitive developmental levels as well as 
learning styles. With students who seemingly change from moment to 
moment, we must have the knowledge and skills to adapt our teaching 
methods to convey difficult concepts like Bernoulli's Principle. We 
must have strategies and tools that allow us to help students make 
science connections with their world by relating, for example, Newton's 
2nd Law of Motion (F=ma) to their batting practice. It was through 
professional development opportunities that I learned and developed 
techniques to bring science alive for my students, so they could 
understand both the content and its relevance.
    Attached to this testimony are some general guidelines that NEA 
believes exemplify quality professional development for teachers. These 
guidelines--including language from the current Elementary and 
Secondary Education Act and standards developed by the National Staff 
Development Council--are applicable to the sort of training we believe 
is essential to ensure excellent K-12 math and science education. For 
example, quality professional development:

        <bullet>  Focuses on both content and pedagogy;

        <bullet>  Is sustained, intensive, and classroom-focused;

        <bullet>  Aligns with State and local goals and standards;

        <bullet>  Prepares educators to understand and appreciate all 
        students, create safe, orderly, and supportive learning 
        environments, and hold high expectations for their academic 
        achievement;

        <bullet>  Provides educators with knowledge and skills to 
        involve families and other stakeholders appropriately; and

        <bullet>  Addresses different levels of professional 
        development, including individual, school, district, and state. 
        NSF has historically funded a variety of program aimed at each 
        of these levels.

The Role of the National Science Foundation

    NEA believes that NSF should be a major player in any federal 
initiative to improve K-12 math and science education, and we are 
concerned that the Administration's competitiveness initiative does not 
include NSF as a significant partner. The Administration's budget 
request would actually cut NSF's K-12 programs by about seven percent. 
In fact, between FY 2004 and the FY 2007 request, funding for the main 
NSF K-12 programs (Math and Science Partnerships, Instructional & 
Assessment Materials Development, and Teacher Development) has declined 
by nearly half, from $283 million to $150 million.
    NSF is an ideal partner in improving math and science education. 
The Foundation has a long history of providing effective professional 
development for teachers; they understand the importance of developing 
and providing experiences that focus on both content and pedagogy. 
Nearly 50 years ago, NSF ran a Summer Institute Program that has been 
widely acknowledged as one of the most important steps in improving K-
12 mathematics and science education. NSF has the infrastructure not 
only to seed, drive, and facilitate the use of developed mathematics 
and science curricula, but also the development and assessment of new 
curricula for the 21st century.
    As an independent federal agency, NSF has the experience in leading 
research that can promote K-12 mathematics and science education. NSF's 
long history of funding and supporting research in a variety of 
disciplines is one to be proud of. For example, it is quite common to 
hear people say ``just Google it,'' meaning to use a search engine to 
find out something of interest. What most people don't know, however, 
is that both founders of Google studied under an NSF funded faculty 
member. Clearly, NSF has played a leading role in advancing effective 
research.
    NSF can use its experience of funding large-scale research studies 
at universities, foundations, school districts, and other institutions 
to improve K-12 science and math education. Currently, NSF promotes 
partnerships between and among Schools and Colleges of Education, 
Engineering, Mathematics, and Science, as well as local school 
districts.
    The NSF Math and Science Partnership (MSP) awards competitive, 
merit-based grants to teams composed of institutions of higher 
education, local K-12 school systems, and their supporting partners. 
These partnerships develop and implement pioneering ways of advancing 
math and science education. The program is based on five pillars: 
Partnership-Driven, Teacher Quality, Quantity and Diversity, 
Challenging Courses and Curricula, Evidence-Based Design, and 
Institutional Change and Sustainability. It involves four components:

        <bullet>  Comprehensive partnerships, which implement change 
        across the K-12 continuum in math and science;

        <bullet>  Targeted partnerships, focusing on improved student 
        achievement in a narrower grade range or disciplinary focus in 
        math and science;

        <bullet>  Institute partnerships, helping to develop math and 
        science teachers as school- and district-based intellectual 
        leaders and master teachers; and

        <bullet>  Research, Evaluation, and Technical Assistance 
        activities assisting partnership awardees in the implementation 
        and evaluation of their work.

    The collaboration at universities between education, mathematics, 
science, and engineering faculty required by the MSP program takes 
advantage of the best universities and colleges have to offer. 
Partnerships such as the one I participated in focus on strengthening 
both the knowledge base of science teachers, as well as enhancing their 
pedagogical skills. I attended one such program at Lebanon Valley 
College that brought teachers from all over the Central Pennsylvania 
area together to review, update, and enhance our knowledge of the 
physics and chemistry principles contained in our state's science 
standards. We spent the week learning together, developing activity-
based, hands-on lessons and labs for our students. The college was also 
able to provide teachers who did not have the resources in their school 
districts with materials and kits for use with their students.
    NSF funding has also advanced the efforts of the National Science 
Teachers Association (NSTA) to provide professional development to 
science teachers nationwide. For example, as a participant in NSTA's 
national conferences, I was able to attend workshops that improved my 
practice, as well as learn about the ongoing research projects NSF was 
conducting to advance science education.
    Additionally, members of NSTA, benefit from the research and 
information available to us because of NSF-funded activities. For 
example, NSTA's Science Program Improvement Review (SPIR) program, 
which was designed to assess a school's complete science instructional 
program across all grade levels, helped schools and districts align 
science instruction more closely with State and national science 
standards for teaching, professional development, assessment, content, 
and program.
    A five-year, $12.5 million NSF initiative in Arizona, which began 
in 2004, offers a tuition-free program at Arizona State University 
providing teacher training to more than 100 educators. Teachers 
participating in the program take graduate-level integrated math and 
science classes. The program was designed not only to benefit those 
teachers taking part, but in its ongoing research efforts, NSF hopes to 
learn and share how professional development of teachers affects 
student achievement in math and science.
    NSF supports programs that promote the kind of individual 
professional development plans NSTA recommends, ones that include a 
variety of opportunities to learn, practice, and enforce new behaviors 
through workshops and seminars that focus on immersion into inquiry 
science, and provide training in mentoring and coaching.

NSF and the Department of Education: A Partnership for Quality Math and 
                    Science Education

    We believe that the National Science Foundation should focus on 
supporting professional development programs that take advantage of the 
research on adult learning. Teachers need sustained, long-term 
professional development. Today, unfortunately, some teachers receive 
what they call ``drive-in'' professional development--quick and 
fulfilling only for a short time. These programs leave little time for 
teachers to reflect on their own learning, internalize and incorporate 
their new skills and knowledge into their teaching, and collaborate 
with and learn from their colleagues. Given their experience with 
programs such as the Math and Science Partnerships, NSF is uniquely 
qualified to promote and finance quality programs that will ensure 
effective professional development with long-term application.
    NSF can also assist in the curriculum development aspect of math 
and science education. The foundation has had success with the 
development of mathematics curricula, but has lacked the funds to 
implement the curricula on a large scale. Therefore, we recommend that 
any initiatives to develop new curricula include resources both for 
development and implementation.
    The Department of Education has a critical role to play in these 
efforts. We welcomed Secretary Spellings' recent announcement of 
Teacher to Teacher regional workshops as an important addition to 
teacher professional development. We continue to believe, however, that 
professional development that is likely to promote long-term change and 
instructional improvement is more appropriately addressed by local 
universities, foundations, and school districts that can support year-
long professional development experiences.
    The Department of Education should focus on gathering information 
about programs that work and disseminating this information to state 
and local agencies. On a larger scale, the Department should work both 
to ensure equitable access to education for all of our nation's 
students and to promote support for education to the general public. 
Both of these factors are essential to ensuring that improvements in 
math and science education reach all students, regardless of income 
level, geographic location, or ethnic or minority status.

Recruitment of Math and Science Teachers

    Although today's hearing focuses primarily on professional 
development and curriculum to strengthen math and science education, I 
would like to offer one additional thought regarding recruiting quality 
math and science teachers, particularly from the private sector. Two 
current provisions of Social Security law--the Government Pension 
Offset (GPO) and Windfall Elimination Provision (WEP)--are undermining 
efforts to attract quality teachers. The WEP in particular is a 
disincentive for individuals to move from the private sector into 
teaching, as it cuts significantly the Social Security benefits they 
can receive from their private sector job. The GPO and WEP have the 
most impact in 15 states where teachers do not pay into Social 
Security, including large states such as California, Texas, and 
Illinois. Repeal of these offsets is a top priority for NEA and should 
be part of any initiative to attract quality math and science teachers.

Conclusion

    Improving math and science education is vital to the future 
strength of our nation and to the ability of our future workforce to 
compete in the global economy. Ensuring quality teachers is the single 
most important element to address if we are to reach this goal.
    Therefore, NEA recommends:

        <bullet>  Focusing efforts to improve math and science 
        education on professional development for new and veteran 
        teachers.

        <bullet>  Continuing and expanding funding for NSF's 
        Mathematics Science Partnership Programs to allow new 
        partnerships.

        <bullet>  Allowing NSF to take the lead and partner with the 
        Department of Education in professional development and 
        curriculum design.

    I thank you for the opportunity to provide this testimony to you 
today and look forward to working with the committee on these important 
issues.

APPENDIX:

            Guidelines for Quality Professional Development

From Current Elementary and Secondary Education Act:

    Sec. 9101(34) PROFESSIONAL DEVELOPMENT--The term `professional 
development'--
(A) includes activities that--

         (i)improve and increase teachers' knowledge of the academic 
        subjects the teachers teach, and enable teachers to become 
        highly qualified;

         (ii) are an integral part of broad schoolwide and districtwide 
        educational improvement plans;

         (iii) give teachers, principals, and administrators the 
        knowledge and skills to provide students with the opportunity 
        to meet challenging State academic content standards and 
        student academic achievement standards;

         (iv) improve classroom management skills;

         (v) (I) are high quality, sustained, intensive, and classroom-
        focused in order to have a positive and lasting impact on 
        classroom instruction and the teacher's performance in the 
        classroom; and

         (II) are not one-day or short-term workshops or conferences;

         (vi) support the recruiting, hiring, and training of highly 
        qualified teachers, including teachers who became highly 
        qualified through State and local alternative routes to 
        certification;

         (vii) advance teacher understanding of effective instructional 
        strategies that are--

                 (I) based on scientifically based research (except 
                that this subclause shall not apply to activities 
                carried out under part D of title II); and

                 (II) strategies for improving student academic 
                achievement or substantially increasing the knowledge 
                and teaching skills of teachers; and

         (viii) are aligned with and directly related to--

                 (I) State academic content standards, student academic 
                achievement standards, and assessments; and

                 (II) the curricula and programs tied to the standards 
                described in subclause (I) except that this subclause 
                shall not apply to activities described in clauses (ii) 
                and (iii) of section 2123(3)(B);

         (ix) are developed with extensive participation of teachers, 
        principals, parents, and administrators of schools to be served 
        under this Act;

         (x) are designed to give teachers of limited English 
        proficient children, and other teachers and instructional 
        staff, the knowledge and skills to provide instruction and 
        appropriate language and academic support services to those 
        children, including the appropriate use of curricula and 
        assessments;

         (xi) to the extent appropriate, provide training for teachers 
        and principals in the use of technology so that technology and 
        technology applications are effectively used in the classroom 
        to improve teaching and learning in the curricula and core 
        academic subjects in which the teachers teach;

         (xii) as a whole, are regularly evaluated for their impact on 
        increased teacher effectiveness and improved student academic 
        achievement, with the findings of the evaluations used to 
        improve the quality of professional development;

         (xiii) provide instruction in methods of teaching children 
        with special needs;

         (xiv) include instruction in the use of data and assessments 
        to inform and instruct classroom practice; and

         (xv) include instruction in ways that teachers, principals, 
        pupil services personnel, and school administrators may work 
        more effectively with parents; and

(B) may include activities that--

         (i) involve the forming of partnerships with institutions of 
        higher education to establish school-based teacher training 
        programs that provide prospective teachers and beginning 
        teachers with an opportunity to work under the guidance of 
        experienced teachers and college faculty;

         (ii) create programs to enable paraprofessionals (assisting 
        teachers employed by a local educational agency receiving 
        assistance under part A of title I) to obtain the education 
        necessary for those paraprofessionals to become certified and 
        licensed teachers; and

         (iii) provide follow-up training to teachers who have 
        participated in activities described in subparagraph (A) or 
        another clause of this subparagraph that are designed to ensure 
        that the knowledge and skills learned by the teachers are 
        implemented in the classroom.

National Staff Development Council Standards for Staff Development

(Revised, 2001)

Context Standards

Staff development that improves the learning of all students:

        <bullet>  Organizes adults into learning communities whose 
        goals are aligned with those of the school and district. 
        (Learning Communities)

        <bullet>  Requires skillful school and district leaders who 
        guide continuous instructional improvement. (Leadership)

        <bullet>  Requires resources to support adult learning and 
        collaboration. (Resources)

Process Standards

Staff development that improves the learning of all students:

        <bullet>  Uses disaggregated student data to determine adult 
        learning priorities, monitor progress, and help sustain 
        continuous improvement. (Data-Driven)

        <bullet>  Uses multiple sources of information to guide 
        improvement and demonstrate its impact. (Evaluation)

        <bullet>  Prepares educators to apply research to decision 
        making. (Research-Based)

        <bullet>  Uses learning strategies appropriate to the intended 
        goal. (Design)

        <bullet>  Applies knowledge about human learning and change. 
        (Learning)

        <bullet>  Provides educators with the knowledge and skills to 
        collaborate. (Collaboration)

Content Standards

Staff development that improves the learning of all students:

        <bullet>  Prepares educators to understand and appreciate all 
        students, create safe, orderly, and supportive learning 
        environments, and hold high expectations for their academic 
        achievement. (Equity)

        <bullet>  Deepens educators' content knowledge, provides them 
        with research-based instructional strategies to assist students 
        in meeting rigorous academic standards, and prepares them to 
        use various types of classroom assessments appropriately. 
        (Quality Teaching)

        <bullet>  Provides educators with knowledge and skills to 
        involve families and other stakeholders appropriately. (Family 
        Involvement)
                     Biography for Rebecca Pringle
    Rebecca ``Becky'' Pringle, an eighth grade physical science teacher 
from Harrisburg, Pennsylvania, was re-elected for a second three-year 
term to the National Education Association's (NEA) nine-member 
Executive Committee in July 2004.
    A middle school teacher with 29 years' classroom experience, 
Pringle has held Association positions at the national, State and local 
levels. For the past five years, she has served on the Board of 
Directors of the NEA. She has also served on the Pennsylvania State 
Education Association's Board.
    Pringle's long history of leadership has included attention to 
diversity issues, student achievement, and developing leaders within 
the Association. She chaired the PSEA Human and Civil Rights Award 
Committee, the PSEA Task Force on Minority Representation, and the 
Strategic Planning Committee on Diversity for her local Susquehanna 
Township School District. In addition, she served as regional chair of 
the PSEA Leadership Development Committee and on the Institute for 
Educational Leadership Task Force.
    Since being elected to her post on the Executive Committee for NEA, 
Pringle has served on the NEA's Women's Issues Committee, Distance 
Learning Task Force and both the National and State Media Advisory 
Groups. With the passage of the latest reauthorization of the 
Elementary and Secondary Education Act, Pringle has become a leader in 
the organization as chair of NEA's ESEA Advisory Committee. She also 
serves on the National Board for Professional Teaching Standards.
    Pringle has been active in the area of literacy and served as the 
Chair of NEA's Reading Task Force. As a member of NEA's Professional 
Standards and Practices Committee, she provided leadership in the 
development of the Committee's report on ``Excellence and Equity: 
Closing the Student Achievement Gaps.'' She has been honored with the 
Pennsylvania Academy for the Profession of Teaching Award, and AAUW's 
Harrisburg Community Woman of the Year Award. Pringle currently teaches 
at Susquehanna Township Middle School.
    A Philadelphia native, Pringle received her Bachelor of Science 
degree in elementary education from the University of Pittsburgh in 
1976. She earned a Master's of Education from Pennsylvania State 
University in 1989. She and her husband, Nathan, live in Harrisburg. 
Their son, Nathan III, is a recent graduate from Drexel University, and 
their daughter, Lauren, is a senior at New York University.
    The NEA Executive Committee comprises the three NEA executive 
officers plus six members elected at large.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Inglis. Thank you, Ms. Pringle. Mrs. Snyder.

STATEMENT OF MS. JUDY D. SNYDER, MATHEMATICS TEACHER, EASTSIDE 
              HIGH SCHOOL, TAYLORS, SOUTH CAROLINA

    Ms. Snyder. Congressman Inglis and Members of the 
Committee, I appreciate the opportunity to share with you the 
impact of NSF programs from my viewpoint as a high school 
teacher of mathematics.
    I believe the strength of the Foundation lies in its unique 
ability to tap the creativity of university scientists, 
mathematicians, and educators, to direct their vision towards 
helping teachers in the classroom. The NSF programs I have been 
fortunate enough to participate in have been grounded in 
content and research, but have been equally balanced with 
pedagogy. The opportunity they have provided for collaboration 
between K-12 teachers and higher education has enabled me to 
build relationships that have molded my teaching career.
    An NSF-sponsored program at Furman University provided me 
with increased knowledge of science and research that led me to 
pursue classroom collaboration with a biology teacher. This 
``Young Scholars'' summer program provided immersion in science 
classes and research opportunities for gifted high school 
students, and a few lucky high school teachers. This program 
made me realize that high school students are capable of doing 
research at a level beyond what I considered possible, and 
allowed me to experience firsthand how exciting hands-on 
research can be. I took away from this program the desire to 
involve my students in hands-on learning connecting math and 
science. Relationships built with Furman science faculty as a 
result of this NSF program proved immediately beneficial. A 
Furman plant physiologist, Dr. Laura Thompson, aided in the 
writing and implementation of a GTE Growth Initiatives for 
Teachers grant that funded technology and professional 
development opportunities to connect math and science. That 
grant allowed a biology teacher and I to develop activities 
connecting geometry and biology.
    NSF also funded at teacher enhancement program at the 
University of South Carolina at Spartanburg entitled 
``Partnership for Excellence: A Model Program for Professional 
Development of Middle and Secondary School Mathematics 
Teachers.'' These courses changed my approach to teaching, by 
not only deepening my content knowledge, but modeling a hands-
on, inquiry-based, technology-rich approach to teaching. Dr. 
Celia Adair, the principal investigator of this program, 
modeled in her teaching the pedagogical approach encouraged by 
the national standards. She has become a mentor, not only for 
me, but for teachers all over the state. And I have worked to 
infuse the discovery approach to teaching in my classroom, with 
the help of several grants funding materials and technology.
    One of the strong points of NSF programs is the balance 
between content, research, and pedagogy. Content and pedagogy 
should not be considered separate entities, as the USCS program 
demonstrates. If teachers are exposed to content without 
pedagogy, like the students they lecture to, they can be heard 
to grumble, when am I ever going to need to know this? When 
teachers get pedagogy without content, they can be heard to 
grumble, if I have to sit through one more session on learning 
styles, I am going to scream. When content and pedagogy are 
taught in concert, both become meaningful. Content makes sense 
when teachers and students are discovering it and doing it. 
Therefore, NSF programs that combine content and pedagogy will 
have the most impact, by improving the capabilities of science 
and math teachers.
    I believe collaboration between NSF, the Department of 
Education, and other agencies is important. NSF is best suited 
to the development of new programs that take advantage of the 
creativity of the scientific community. The Department of 
Education should take those programs that have proved 
successful, and provide funding for their continuation, and for 
the publication of resulting materials.
    In conclusion, I believe that NSF must continue to have a 
strong role in K-12 education. It is possibly the only agency 
that can make the long, sustained effort necessary to improve 
math and science education, because it is less subject to the 
shifting winds of political opinion. Additionally, its funding 
is direct, and funding from agencies such as the Department of 
Education often comes through the states, down to the district 
level. School districts are subject to constant change, meaning 
that programs showing promise may not last long enough to show 
results, if a new superintendent with a new agenda is hired. 
NSF programs are not affected by that kind of instability, and 
are thus the best hope for K-12 educators.
    Thank you for the opportunity to speak on behalf of the 
many teachers and students who have benefited from the strong 
commitment of NSF to the improvement of math and science 
teaching. It is my hope that K-12 teachers will continue to be 
the beneficiaries of this commitment.
    Thank you, Mr. Inglis.
    [The prepared statement of Ms. Snyder follows:]

                  Prepared Statement of Judy D. Snyder

Chairman Boehlert and Members of the Committee:

    I appreciate the opportunity to share with you the impact of NSF 
programs from my viewpoint as a teacher of high school mathematics. 
From my position at the receiving end of NSF's educational programs I 
believe the strength of the Foundation lies in its unique ability to 
tap the creativity of university scientists, mathematicians, and 
educators to direct their visions toward helping teachers in the 
classroom. The NSF programs I have been fortunate enough to participate 
in have been grounded in content and research but have been equally 
balanced with pedagogy. The opportunity they have provided for 
collaboration between K-12 teachers and higher education has enabled me 
to build relationships that have molded and shaped my teaching career.
    My participation in an NSF sponsored program at Furman University 
provided me with an increased knowledge of science and research that 
led me to pursue classroom collaboration with a biology teacher. The 
``Young Scholars'' summer program provided immersion in science classes 
and research opportunities for gifted high school students and a few 
lucky high school teachers. This program made me realize that high 
school students are capable of doing research at a level beyond what I 
considered possible and allowed me to experience first hand how 
exciting hands-on research can be. I took away from this program the 
desire to involve my students in hands-on learning connecting math and 
science. Relationships built with Furman science faculty as a result of 
this NSF program proved immediately beneficial. A Furman plant 
physiologist, Dr. Laura Thompson, aided in the writing and 
implementation of a GTE Growth Initiatives for Teachers grant that 
funded technology and professional development opportunities to connect 
math and science. That grant allowed a biology teacher and me to 
develop activities connecting geometry and biology. One of the 
activities involved comparing the shapes of ``sun'' and ``shade'' tree 
leaves in geometry class and examining the differences in chlorophyll 
content in the same leaves in the biology lab. A second activity 
involved using surface area-to-volume-ratios studied in geometry to 
make the connection to cell-size and cell-diffusion in the biology lab.
    NSF also funded a teacher enhancement program at the University of 
South Carolina at Spartanburg, entitled ``Partnership for Excellence: A 
Model Program for Professional Development of Middle and Secondary 
School Mathematics Teachers.'' This program offered workshops, academic 
year courses, and summer institutes designed to increase teachers' 
effectiveness in implementing national curriculum and evaluation 
standards. I took several of the courses offered through this program 
and they changed my approach to teaching. These courses not only 
deepened my content knowledge, but modeled a hands-on, inquiry-based, 
technology rich approach to teaching. Dr. Celia Adair, the principal 
investigator of this program, taught several of the courses, modeling 
in her teaching the pedagogical approach encouraged by the national 
standards. She has become a mentor, not only for me, but for teachers 
all over the state. I learned from her and from this program a new 
approach to teaching. This has resulted in several successful grant 
applications providing materials and technology necessary for the 
discovery approach to teaching I have tried to infuse into my 
classroom. One of the activities I developed as a result makes the 
connection between music and mathematics, and another asks students to 
answer the question, ``Why are there only five regular polyhedra?'' It 
was this second activity that I used in my Presidential award 
application.
    I believe one of the strong points of NSF programs is the balance 
between content, research, and pedagogy. Dr. Adair's program at USCS 
best answers the question about prioritizing content vs. pedagogy by 
demonstrating that they should not be separate entities. If teachers 
are exposed to content without pedagogy, they are just like the 
students they lecture to. They can be heard to grumble ``When am I ever 
going to need to know this?'' When teachers get pedagogy without 
content, they can be heard to grumble, ``If I have to sit through one 
more session on learning styles, I'm going to scream!'' When content 
and pedagogy are taught in concert both become meaningful. Content 
makes sense to students and teachers alike when they are 
``discovering'' it and ``doing'' it. Many teachers still teach the way 
they were taught--by lecturing. Changing how teachers are taught can 
and does result in a change in the way they teach. Therefore, NSF 
programs that combine content and pedagogy will have the most impact on 
improving the capabilities of science and math teachers. I also believe 
that NSF could improve education programs by taking advantage of 
talented high school teachers such as the Presidential Awardees in town 
this week to offer professional development programs for other 
teachers.
    I believe collaboration between NSF, the Department of Education, 
and other agencies, is important. NSF is best suited to the development 
of new programs that take advantage of the creativity of the scientific 
community. The Department of Education should take those programs that 
have proven successful and provide funding for their continuation and 
for the publication of resulting materials. Dr. Adair's program at USCS 
was funded for an additional two years with Eisenhower funds, much to 
the benefit of teachers in South Carolina. One of the teachers 
benefiting from the continuation of this program was Joyce Dodd, last 
year's Presidential Awardee from South Carolina.
    In conclusion, I believe that NSF must continue to have a strong 
role in K-12 education. It is possibly the only agency that can make 
the long, sustained effort necessary to improve math and science 
education because it is less subject to the shifting winds of political 
opinion. Additionally, its funding is direct, and funding from agencies 
such as the Department of Education often comes through the states down 
to the district level. School districts are subject to constant change 
meaning that programs showing promise may not last long enough to show 
results if a new superintendent with a new agenda is hired. NSF 
programs are not affected by that kind of instability and are thus the 
best hope for K-12 educators.
    Thank you for the opportunity to speak on behalf of the many 
teachers and students who have benefited from the commitment of NSF to 
the improvement of math and science teaching. It is my hope that K-12 
teachers will continue to be the beneficiaries of this commitment.
    This concludes my statement, Mr. Chairman. I will be glad to 
respond to any questions the Committee may have.

                      Biography for Judy D. Snyder

    Mrs. Snyder has served as a mathematics educator in the Greenville 
County School District for the past 27 years. She has taught at 
Tanglewood Middle School, Travelers Rest High School, and currently 
teaches at Eastside High School. During that time Mrs. Snyder has been 
an active member of the National Council of Teachers of Mathematics, 
serving on the local board as Newsletter Editor, and on the state board 
as Vice President for High Schools. She has been a presenter at 
numerous local, State, and regional conferences. She holds South 
Carolina teaching certification in Secondary Mathematics, Middle School 
Mathematics, Elementary, and Gifted and Talented. She achieved National 
Board Certification in Early Adolescence/Mathematics in 2002.
    During her career Mrs. Snyder has received several awards 
including:

         GTE GIFT (Growth Initiatives for Teachers) Fellow 1996-1997

         Greenville County Teacher of the Year 1999-2000

         ING Education's Unsung Heroes Award 2003-2004

         Presidential Award for Excellence in Mathematics and Science 
        Teaching 2005

    Mrs. Snyder received a B.M. and B.A from the University of Akron in 
1966 where she graduated summa cum laude and was class valedictorian. 
She studied in Paris, France, as a Fulbright Scholar in 1966-1967. She 
received a M.A. from Furman University in 1978, and did further studies 
in mathematics to achieve Master's plus 30 certification.
    She has two publications:

         Snyder, J.D. ``The Oak Leaf, Connecting Biology and 
        Geometry,'' Mathematics Teacher, National Council of Teachers 
        of Mathematics, April, 1999, vol. 92(4):294-298.

         Snyder, J.D. ``A Pythagorean View of the Basics,'' Mathematics 
        Education Dialogues, National Council of Teachers of 
        Mathematics, October, 1999, vol. 3(1):10.

    Mrs. Snyder was born in Akron, Ohio. She is married to Dr. John 
Snyder, Professor at Furman University and has three children, Dr. Erin 
Shelor, Dr. Benjamin Snyder, and Dr. Philip Snyder.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Discussion

    Mr. Inglis. Thank you, Ms. Snyder. Thank you all for your 
testimony. I recognize myself for a round of questions.
    Ms. Snyder, Ms. Pringle, you mentioned in your written 
testimony the role of mentors in improving education, improving 
opportunities for teachers. Maybe you would like to comment on 
that, further about the role of mentors in assisting teachers, 
especially is it useful just for brand new teachers, or is it 
also useful for more experienced teachers, to have a mentoring 
opportunity?
    Ms. Snyder. Obviously, I think it is important for both, 
and I think what I mentioned was the importance of having 
mentors that are in higher education, as well as mentors who 
are on the job with you. New teachers need mentors that are in 
the building, that they can go to. Older teachers need mentors 
from people who are in the profession, maybe in the same 
district, or across the state, and that is why it is important 
that teachers not be isolated from each other, not feel 
isolated, be able to attend professional development, where 
they can network with other teachers, and learn from each 
other. You don't teach in a vacuum. You learn from each other, 
and a single teacher cannot do this kind of job alone. They 
need other people to help them.
    Mr. Inglis. Ms. Pringle.
    Ms. Pringle. And I am so glad you added the veteran 
teachers as well, because we often times just think about 
mentoring for that first two years or so. So, we don't often 
call it mentoring, but it is important, especially, I would 
say, in science and in math, that teachers have the 
opportunity, the time, to have that collegial sharing of ideas, 
exchanging their practices, observing each other, and 
critiquing their teaching. So, those are kinds of mentorship 
opportunities that we often don't give our veteran teachers, 
that we need to have the funding and the time structured into 
the school day to provide for.
    Mr. Inglis. I was once talking with someone in an industry, 
a fairly high tech industry, and he said that he wished that 
there were opportunities for his company to interact with 
teachers, so the teachers in our high schools would know what 
it is that they were looking for in industry.
    Any of these mentoring opportunities you have seen work 
with actually industry as well as, say, somebody at a college 
or a university? Ms. Snyder.
    Ms. Snyder. I can speak to that. We had an excellent 
program in Greeneville County, where we connected with 
industries. Those industries provided us with mathematical 
questions that--part of what their workers did. The students 
studied those mathematical questions, and studied about the 
particular industry. The industry gave the information about 
what the workers did, and then, the students were invited to 
the industry on a field trip, to see firsthand what went on in 
that industry, and then, another interesting thing is that they 
gave them a test that they would give future employees, that 
was a math test, and so, the students were able to see could I 
actually get hired at that place? I thought that was an 
excellent program.
    Ms. Pringle. I would add to that, that it not only provides 
that mentoring opportunity for the teacher, but it provides 
real life experiences for students, that we are continuously 
encouraging to pursue math and science as a career.
    We had an opportunity to work in a partnership with Penn 
State University, who was in partnership with industry, that 
was producing hybrid cars. And not only did they help us, the 
teachers that were a part of that partnership, to focus the 
skills that we were teaching, the concepts, especially the 
concepts around force and motion, as it related to the hybrid 
car, and chemistry, too, but we also--they also provided us 
with equipment for our classroom, where we had an eye on our 
computer, and the students were able to talk directly with the 
men and women that were working in industry as they came up 
with a question, and it went on, the partnership went on 
throughout the entire year. This is our eighth year, I believe, 
that we have been engaged in that, and they were able, they 
gave up their own time, and helped our students with their 
science fair projects, et cetera. So, it provided a mentoring 
opportunity for the teachers, but it also provided real life 
experiences for the students.
    Mr. Inglis. Thank you. It goes a long way to answering that 
question that you described earlier, about what practical 
impact will this have on my life, learning this principle, 
doesn't it, when you see it in operation?
    Ms. Pringle. Yes.
    Mr. Inglis. Thank you. Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Chairman.
    Chairman Boehlert and I, a couple of years ago, joined with 
some Senators, and requested that the National Academy do a 
report on the competitiveness of the United States in the 21st 
Century, and make any kind of recommendations. The unanimous 
conclusion was that we are in an international race, and that 
we are losing it, and Dr. Heppert, your daughter and my five-
year-old daughter could very well be a part of the first 
generation of Americans that inherit a national standard of 
living that is lower than their parents, a complete reverse of 
the American dream. It is somewhat camouflaged now, because we 
are eating our seed corn, but you know, it will catch up with 
us. And so, I am very concerned.
    The report went on to make recommendations. They discussed 
the role of math, science, and STEM education in our country, 
and how we are losing that edge, and trying to say why, they 
pointed out that over half of our math and science teachers in 
this country have neither a major or a certificate in that 
subject. Both my parents were teachers. My father, as I 
mentioned earlier, was an agriculture major, and when he got 
out of school, to help make a living, he taught as well as be a 
farmer. And he was asked to teach high school science, and to 
coach the girls' basketball team. Now, I am not sure which he 
knew least about, coaching girls' basketball, or high school 
science. He was put in a very difficult situation, just like 
many of our teachers today, and they went on to say that the 
best way to try to correct that was to both bring existing 
teachers, and raise a new level of teachers, their skill level, 
in the areas of math and science.
    I think this is very important. The National Science 
Foundation has been doing this for 50 years, has a proven 
record, and that is why it is really disappointing that at this 
point in time, when there is a lack of resources, that we have 
come together knowing that we need to increase these skills, 
but we seem to be doing it the wrong way, with a 47 percent cut 
in the National Science Foundation, with 70 percent of our new 
dollars going into curriculum. There seems to be some misguided 
priorities. I hope that today can be the start of an education 
program, so that we can get this right. We may not have a 
second chance.
    So, let me just ask cumulatively if this panel agrees that 
the National Science Foundation should be the leading player in 
the federal initiative to improve the K-12 STEM education. Just 
raise your hand if that is the case. So, we will--for the 
record, we will show that we are unanimous.
    Dr. Heppert and Ms. Snyder made their views, I think, 
pretty clear, in terms of the important relationship between 
the National Science Foundation and our Department of 
Education. I think there can be a partnership, but we have got 
to get it right.
    So, let me ask Dr. Bartels and Ms. Pringle if you would 
like to add any thoughts as to the appropriate partnership 
between the Department of Education and the National Science 
Foundation, and how this should go forward. So, Dr. Bartels?
    Dr. Bartels. I was just at an OECD conference not along 
ago, talking about the declining enrollments in science and 
technology in most of the Western developed countries, and the 
interesting thing is, when they sort of talked about solutions 
to those particular problems, how much farther behind, 
interestingly, they seem to be, than the United States, and we 
sat back and paused about that, and realized that one of the 
difficulties at this point was made, I believe, by Ms. Pringle, 
is that in most other countries, a lot of this research work 
and development in education is part of the government 
ministries, or is sort of isolated efforts at universities. And 
what was sort of missing was sort of this independent 
scientific agency that used scientific rigor at its very basis 
to accumulate wisdom over time, and to continue to apply that 
wisdom to new ideas, new products, new tools, and that was sort 
of independent from any particular administration sort of going 
through.
    I think the Department of Education has every right to 
support states and school districts in implementing programs, 
and implementing policies, and giving guidance, and in lots of 
ways, reinforcing what has been the tradition of our country, 
local control and effort, whereas the NSF, I do not believe, is 
responsible for implementation, and I don't think should be 
held accountable for that. I think they should be held 
accountable for the success of a lot of their ideas and 
innovations, and how many of them make it successfully into the 
marketplace, into our classrooms, into commercial markets, and 
are used well and to great effect by our students. And so, I 
would separate implementation and direct service, as that 
belongs to the Department of Education, from applied research 
and R&D, again, the same way that the NIH does this for 
medicine.
    Mr. Gordon. Ms. Pringle.
    Ms. Pringle. Additionally, I do think that the Department 
has a critical role to play. It certainly should and could act 
as a clearinghouse, gathering information on best practices and 
programs that work, and disseminating this information, so that 
it can be used at the state and local level.
    On a larger scale, I think the Department should work to 
ensure equitable access to education, which is a critical 
issue, as you very well know, to make sure that all of our 
nation's students, all of them, have access to a quality 
science education.
    Both of these factors are essential in ensuring that the 
improvements in math and science, and this, I can't emphasize 
this enough, that the improvements in math and science reach 
all students, regardless of their economic background, or the 
geographic location, or their ethnic or minority status, and I 
think that the Department has a large role to play in that.
    However, I think that because of the National Science 
Foundation's long history of providing effective--providing and 
promoting and funding-effective professional development 
programs for teachers, because they understand the importance 
of developing and providing experiences that focus on both the 
content and the pedagogy, and that they understand that 
professional development has to be approached at different 
levels. You have to talk about what the needs of the teachers 
are. You have to talk about what the needs of the school 
district are. You have to talk about what the needs of the 
state, and quite honestly, as you talked about, the country 
are, and the National Science Foundation has done that 
throughout its long history.
    Mr. Inglis. Thank you. Mr. Gutknecht.
    Mr. Gutknecht. Thank you, Mr. Chairman.
    Let me first of all welcome two special guests from my 
district, Mr. Steven Benson, who teaches math in Owatonna, 
Minnesota, and we are delighted to have him with us, and also, 
Ms. Debra Las, who teaches at John Adams Middle School. She 
teaches science there to eighth graders, and let me just say 
several things about that I want to mention.
    First of all, it doesn't really surprise me that two of the 
most outstanding teachers come from my Congressional district, 
and more importantly, from those particular school districts, 
and I take no credit, although politicians should be able to 
take credit for things which they don't deserve, and avoid 
blame for things that they do. But let me just say that first 
of all, those two school districts, I think, Minnesota in 
general, and those two school districts in particular, I think 
set very high expectations, and as a result, we do expect that 
kids are learning math and science, and particularly in 
Rochester, where we have both IBM and the Mayo Clinic, we have 
an awful lot of people who live in that town who take math and 
science very seriously, and so, I know a lot about John Adams 
Junior High School. Two of my kids went there, and it really is 
an outstanding school, and we are delighted to have you with 
us.
    One of the things, though, that has concerned me about math 
and science in general is talking about expectations, in part, 
and basically, the United States culture, if you will, we are 
big on sports. And in fact, in Minnesota, we have baseball 
camps, we have football camps, we have basketball camps, and in 
fact, in Minnesota, we have hockey camps, too. And any 
Saturday, you see how seriously we take soccer. Unfortunately, 
and I have been trying to promote this idea for a very long 
time, and I have only had a couple of takers, and that is that 
we need more science and math camps. And I think we need those 
for a variety of reasons. Number one, you have all talked a 
little bit about the importance of teachers being able to get 
together, and work with outside experts. Now, IBM in Rochester 
does have a sort of a science camp. It is principally for 
girls, which in some respects, is unfair to the boys, but we 
have talked a lot about on this committee about the need to 
keep young ladies interested in math and science, so I am a 
supporter of that program. There is another corporation that 
has a math and science program that they sponsor in Blooming 
Prairie, Minnesota, but beside that, we really haven't gotten a 
lot of employers or universities or others to take an interest 
in this.
    And first of all, I just want to throw this out to the 
panel. A) do you think this is a good idea, and B) what can we 
do from a federal perspective to encourage more people to pick 
up on this? Because I really think it is a way to say to kids, 
this is interesting. This is fun. It is a good thing, and 
incidentally, long-term, there are a lot of good jobs available 
out there when you graduate.
    Dr. Bartels. Mr. Congressman, if I may, because that is an 
excellent question and an excellent point, and I would argue, 
actually, that there are hundreds of thousands of kids in 
science and math camps all across this country, but they are 
doing it inside all of those science museums, natural history 
museums, and informal places that we keep overlooking when we 
look at our national education science infrastructure. And in 
fact, these programs are well attended and well loved, and I 
can speak personally about the programs at the Exploratorium.
    One of the big opportunities that we have right now is $1 
billion in the 21st Century Learning Academies, which are all 
the after school programs that are funded by the Federal 
Government across this country. Most of them right now are 
focused on mathematics and reading. Science hasn't appeared 
yet, because it hasn't been a mandate from NCLB until this 
year, and now, they are all scrambling for help in science and 
science programming.
    We have been a major part, with several other nonprofits, 
like Lawrence Hall of Science and TERC and others, trying to 
figure out what kinds of programs and materials could after 
school providers use to do exactly what you say, create that 
spark. Because what we have noticed about informal programs is 
they can't always teach Bernoulli's Principle correctly, but 
boy, can they really start that curiosity that goes on for a 
whole lifetime in a young boy or young girl, and if you talk to 
most Nobel laureates, they will tell you that their interest in 
science was first sparked by a museum or an informal 
experience, not a school one.
    Dr. Heppert. To speak to the same issue, I think one of the 
things Ms. Snyder was trying to say is that very often, 
lecturing to somebody about how to do something isn't effective 
as actually doing it, and in some of the NSF-sponsored 
workshops that we have done for teachers, where we have very 
much blended pedagogy and science content, in order to enhance 
teacher capabilities, we have also hybridized that by bringing 
in groups of students, even during the summer, in these kinds 
of, in a sense, in a kind of informal learning environment, so 
the teachers can actually practice this before they go back 
into what professionally have been more high stakes 
environments, into the classroom, and actually use those skills 
and those resources, and teach that new content in the 
classroom.
    And initially, I have got to say, the response to that, as 
you can imagine, during the summer is, oh, I have got to deal 
with more students here. This is what I do all year long. At 
the end of the day, though, when we do the assessments, that 
was one of the things that was uniformly thought to be the most 
useful, was actually getting down and practicing that with the 
students.
    So, there are opportunities, I think, even in some of these 
more formal programs that NSF tends to do, workshops that NSF 
tends to favor in the Institute--MSP Institutes program, for 
example, to do exactly what you are talking about.
    Ms. Pringle. I can't thank you enough for raising that 
issue, and to answer your question, as you are taking a look at 
the allocation of funding, that is absolutely essential. I will 
speak to an initiative that I had the opportunity to be 
involved in, and then, the funding was cut. It was specifically 
designed, the camp was specifically designed to encourage 
African-American students, both male and female, to go into 
careers in math and science, and I am sure I don't need to tell 
you that there is a huge gap there.
    The focus primarily was on making sure that they had the 
kind of content that they needed to do to be competitive, to 
take higher level math and science courses, to prepare them for 
that. And once again, it was a partnership between the school 
district and the Indiana University of Pennsylvania, that went 
on for about five years. It was a two week camp. My son got a 
chance to participate in it. I believe it led to him winning 
one of the awards from the American Chemical Society for his 
science fair project, but the funding was cut.
    So, to answer your question, I would encourage you to make 
sure that funding is provided for organizations like, 
certainly, the National Science Foundation, who provide funds 
to support initiatives like that. So, thank you for that 
question.
    Mr. Rohrabacher. Well, thank you very much, and next, we 
have a very active Member of the Committee, Dennis Moore from 
Kansas.
    Mr. Moore. Thank you, Mr. Chairman, and again, welcome to 
the panelists here.
    I want to just ask a question generally of all the 
panelists, I suppose. The recent report of the National Academy 
of Sciences, which was titled ``Rising Above the Gathering 
Storm,'' found that America appears to be on a ``losing path,'' 
and that is a quote, ``losing path,'' with regard to our future 
competitiveness and standard of living.
    I don't think we need to say this, but China and India are 
coming on very strong. We are the only superpower in the whole 
world right now, but they are not far behind us, I think, in 
terms of the next few years. The NAS report points out that 69 
percent of middle school students in the United States are 
taught by teachers with neither a college major in math, or 
certification to teach math, and we have heard some statements 
by the panel, not only the panelists here, but the Committee 
Members here this morning to that effect, and the same thing 
with science, as well.
    Many education experts have stated that K-12 STEM education 
will not be improved until math and science education is 
improved at the college level, and I guess my question to the 
panel generally is, what is being done at the institutions of 
higher learning to improve the undergraduate education of new 
teachers and to encourage students with majors in math and 
science arenas to pursue teaching careers after graduation? And 
how can current NSF programs and policies be improved to better 
allow you to provide for your students and accomplish these 
goals?
    Those are the--if you can address those, please, starting 
with Dr. Bartels.
    Dr. Bartels. Thank you. Excellent questions.
    A couple things I would point out. One is actually very 
near and dear to my heart, and that is that, in effect, now 
more teachers are starting their careers at two year 
institutions, and more teachers of color actually start their 
careers at two year institutions, and not our four year 
institutions, and if you look at the NSF portfolio, one of the 
places where they have been under-resourced is the support for 
innovative programs at community colleges. And this is a 
terrible oversight. You have the excellent program with the 
ATE, but it really is designed for workforce development of 
very specific occupational bands.
    It turns out we have research now from Lumina Foundation in 
the mathematics community that the number one reason why most 
students do not graduate from a two year college is they never 
make it through their developmental math course. You know, that 
is a fancy word for the remedial math that they don't take for 
credit, so they can take the regular math. It turns out that is 
the second biggest gatekeeper to technical careers after ninth 
grade algebra. The quality in who are teaching these courses, 
and who are teaching these courses in general has not been 
examined by the Federal Government or the National Science 
Foundation. If I could do anything, in terms of teacher 
preparation, and turning more people onto teaching careers and 
technical careers, I would have a major development program 
focused on two year colleges, those basic math and science 
courses, and what is going on with that remedial math course, 
because it can't be the warmed over high school program that 
the kid failed the first time.
    Dr. Heppert. I think this question goes a bit to my comment 
about the culture of higher education, and the difficulty of 
changing the culture of higher education. I believe there are a 
couple of key areas where our culture needs to make a radical 
change, in order to bring about improvements in this area.
    First, I think we need to work on introductory curricula in 
the sciences, in particular, that are more engaging, that 
reflect the reality of what scientists do more fully, and that 
engage students in understanding that scientific careers can be 
careers that serve the public, and that have the opportunity, 
to provide a tremendous standard of living for, not only for 
themselves, but also for the Nation as well.
    I think we don't do a good enough job as scientists of 
really selling our own field to the students, and selling the 
potential benefit of it to society. Students are very, very 
altruistic, by and large. They are very interested in serving, 
especially at the freshman level, sophomore level, they are 
very interested in opportunities to serve society as a whole, 
and I think we need to reflect the fact that scientific careers 
hold that promise.
    The other thing that we need to do, in a sustained fashion, 
and there have been NSF programs in the past that have been 
funded, particularly the Centers for Excellence in Teacher 
Preparation program that was funded about 10 years ago. It was 
the precursor, if you will, to some of the programs in the Math 
and Science Partnership program at NSF, that effectively look 
at the way we teach science at the university level, and think 
about reflecting both the reality of how science is done, the 
hands-on, really, interactive sense of discovering science, 
that we know scientific careers are all about, and the 
excitement of science, showing how it can connect to societal 
concerns, and address societal concerns.
    So, I think those are two issues that will not only benefit 
and make the field attractive for science majors in general, 
but are things that are going to connect very strongly to the 
needs that we have for improving the way that we prepare 
science teachers as well.
    Mr. Moore. Thank you. Ms. Pringle or Ms. Snyder, any 
comments?
    Ms. Pringle. I just could not agree more with Dr. Heppert, 
and it goes back to what I said earlier about the importance of 
that partnership between K-12 teachers, or prospective 
teachers, and higher education. And so, we need to do all that 
we can to support that.
    Mr. Moore. Thank you.
    Ms. Snyder. I think you have hit on a really important 
problem, because there are so few students who are majoring in 
mathematics going into teaching, that it has become scary 
recently, and I asked Dr. Bement that exact question, and he 
pointed to the Noyce Scholarships that NSF has for teachers in 
science and mathematics who will commit to teaching, but I 
think it is kind of like a vicious cycle. If we have poor 
teachers, then students are not going to be interested in 
majoring in mathematics, and we are going to have fewer and 
fewer teachers, so I think this is a big issue, and it is 
something that we really need to think at the national level 
whether it is loans, you know, for teachers going into math and 
science, that can be forgiven, or whatever it is, we need to do 
something about it.
    Mr. Moore. Thanks to all the panelists for your service, as 
well.
    Mr. Inglis. Mr. Rohrabacher.
    Mr. Rohrabacher. Well, thank you very much, Mr. Chairman. 
Let me note that when it comes to education, that we have two 
purposes. I can see that one is to basically educate the 
American people in a general sense, and the other is an 
education system that can stimulate and effect the high 
achievers, that might go on and become the people who discover 
the cures for cancer, et cetera, and these are not necessarily 
the same goals. They are not necessarily accomplished in the 
same way, and maybe, there has to be programs designed 
specifically for high achievers.
    Mr. Gutknecht's suggestion about science camps, or science/
mathematics camps, I think is a very good idea. I would note 
that in my district, in Palos Verdes High School, participated 
in a challenge that was presented by DARPA, that was who could 
design and build a remote controlled automobile that would go a 
long distance, and I think it was all the way to Las Vegas or 
something, I forget exactly what the--it was a very long 
distance, and the kids in my school actually produced a car, 
and they actually engineered it, and participated in the 
competition. They didn't win, but it was a tremendous learning 
experience for them, and that seems to me that that was aimed 
more at the high achiever end than it was the general 
knowledge.
    I mean, basically, I see that there is a general lack of 
understanding, of basic understanding of science at a general 
level. There is a general level of ignorance of history that 
education has to talk about, and there is also, of course, a 
basic skill level of writing and mathematics that people need, 
and these are general things we need to get by on.
    I have got one really specific question here that I want to 
get to with those observations. All of you are here testifying 
that basically, math and science, and I have heard the words 
highest priority and most important, and of these things that I 
have just talked about, I would assume that you would agree, 
from what you have said, that math and science should have a 
priority in the importance of education planning and 
structuring for this country.
    Is that right?
    Dr. Bartels. Uh-huh.
    Ms. Snyder. Yes.
    Mr. Rohrabacher. Okay. Now, to Ms. Pringle, then. You 
represent the--as well, the National Education Association?
    Ms. Pringle. Yes.
    Mr. Rohrabacher. Why is it, then, that the National 
Education Association, backed up politically by certainly a lot 
of people in public office, refuses to permit teachers to be 
paid more money, who have higher skill levels in those areas, 
and can we succeed, in what your goal is, in setting a priority 
for science and mathematics education, if we continue paying 
teachers, and trying to draw these people with--paying them at 
the same level as you might have for people to teach poetry or 
home education or basket weaving, and things such as that?
    Ms. Pringle. Let me begin by cautioning the Committee, the 
description that you started out with, in terms of two levels, 
you know----
    Mr. Rohrabacher. Right.
    Ms. Pringle.--the basic and the more gifted. I really would 
want to caution the Committee that our goal, certainly the 
National Education Committee's goal, is that we raise the 
student achievement of every child.
    Mr. Rohrabacher. Right.
    Ms. Pringle. That is first of all.
    Mr. Rohrabacher. Yeah, basic level. Okay.
    Ms. Pringle. And we need to make sure that whatever 
programs that we put in place and that we fund, does just that, 
that we are focusing on the individual student.
    Mr. Rohrabacher. Right.
    Ms. Pringle. And so, if we have an individual student that 
aspires to a career in math and science, that shows a 
particular aptitude for that, that we have programs in place 
that help that student.
    Mr. Rohrabacher. Okay. But the actual--these are two 
different goals, however, just to increase the basic level of 
skill in science is a different--and by the way, that is a 
laudable goal. Don't get me wrong. I mean, they say the Earth 
has four--I remember this, four elements. There is protons, 
neutrons, electrons, and morons, and I was always in the latter 
category, when it came to science and mathematics. So, I 
understand that it is important for people like myself to have 
a basic level of science, but that is different than the 
people, some of the kids I went to school with, who went on to 
do great things in math and science that, frankly, I would not 
have been able to comprehend, and would probably have been 
turned off of altogether, had people tried to get me to 
understand that.
    Ms. Pringle. It is just important to make sure that we 
provide all of our students with that opportunity, because so 
often, when we separate them, especially at an early age, we do 
not allow for students that may not be blossoming as fast as 
others.
    Mr. Rohrabacher. Well, I am certainly with you. I think it 
is important for average people----
    Ms. Pringle. I just----
    Mr. Rohrabacher.--to have that. However----
    Ms. Pringle. That was just a caution. Let me answer your 
other question.
    Mr. Rohrabacher. All right. Why can't we treat people who 
you believe is a priority subject, why can't we recruit better 
teachers by offering them more pay than we do to others?
    Ms. Pringle. And you are absolutely correct. The National 
Education Association does not believe in differentiated pay, 
based on the discipline that they are teaching in. And the 
reason that we support that, and believe that so strongly, is 
because we need to attract the best and the brightest in every, 
every classroom in this country.
    Mr. Rohrabacher. Well, then you aren't prioritizing math 
and----
    Ms. Pringle. The best and the brightest in every classroom 
in this country. That is what we need to do. So----
    Mr. Rohrabacher. Okay. But you are not differentiating 
between the classrooms of basket weaving and the classrooms of 
science and mathematics.
    Ms. Pringle. I don't know any basket weaving teachers, 
but----
    Mr. Rohrabacher. They are in--let me just note that they--
--
    Ms. Pringle.--I will say this.
    Mr. Rohrabacher.--had that in my school, my high school, 
when I was there. But----
    Mr. Inglis. Those are the kind of courses that I took.
    Now, here is the--here is what we need to do, though. Could 
we come back to this after we give the opportunity for this 
open mike session? We want to have an opportunity to hear from 
the teachers who are the winners of this award, to have an 
opportunity for an open mike session, where we hear from them 
about the things that they think are the most important----
    Mr. Rohrabacher. And Mr. Chairman, thank you for letting me 
have my time, and I did use it up. I would love to hear from 
them, if they think that they should get a little more money if 
they are in math and science, as compared to other courses that 
are being taught in school. Thank you.
    Mr. Inglis. As the mike goes around, feel free to answer 
Mr. Rohrabacher's question. That would be very helpful.
    So, these are people we want to hear from, the winners who 
can tell us about the NSF and the Federal Government's role in 
improving K-12 math and science education. What will happen now 
is the Science Committee staff members will hand around 
microphones. If you would, please tell us your name, and where 
you are from.
    Mr. Honda. Mr. Chairman.
    Mr. Inglis. And engage us in conversation.
    Mr. Honda. Mr. Chairman, I am just as anxious to hear from 
the teachers, but I hope that the rest of the Members who are 
here are able to ask their questions, pertinent to why our 
witnesses are here, and why these teachers are here, and not 
get off on the issue of salaries, but on the issue of pedagogy 
and content.
    Mr. Inglis. In fact, we will come back to that. The 
teachers must leave at 11:45, Mr. Honda, to go to the White 
House, so we want to give them the opportunity to interact with 
us now. At 11:45, we will return to the regular order of 
questions here, so who has that microphone, and who would like 
to speak first?
    Yes, sir.
    Mr. Benson. I am Steve Benson. I teach senior high 
mathematics in Minnesota at Owatonna High School.
    Mr. Inglis. Feel free to ask a question, or tell us what we 
need to do about something. Here is your opportunity. If you 
were a politician, you would know you never surrender the mike 
without getting your word in.
    Mr. Benson. Trust me, I don't want to be a politician. I 
guess one of the major conflicts that I have with school is the 
preparedness that students come to school with. If you were 
going to do something that benefited me most in my job, the 
thing that you could do is provide parents the ability to stay 
home with their kids, have a one income family that made things 
work, so that one parent, whether it was the father or mother 
who was at home, reading with kids, playing games with the 
kids.
    But I know that is not possible in the world that we live 
in today. But that is one of the things that I see that is 
different. Education is not valued by everybody the same. The 
students that are high flyers in my school are the ones that 
have parents who value education. They come to school already 
knowing a lot of things that I want them to know, so I can take 
them above and beyond. So, it is kind of the two goals that you 
had talked about before, of educating everybody to a basic 
level. I have got a lot of those students that I need to bring 
up to a basic level. Many of the students that come into my 
school already have the basic level, and I get a chance to talk 
to them, and bring them up to a higher level of learning.
    Mr. Inglis. Thank you, and anybody that wants to grab that 
microphone, this is your opportunity. And if you want to direct 
any question to any of us up here, or comment, that is fine, 
too, to have an exchange between you and the panel up here.
    Ms. Young. My name is Paula Young. I am from Saint Charles, 
Missouri, and am very honored to be here today.
    One thought that has occurred to me in this process, I have 
a husband that is an engineer, and I have discovered that 
engineers think very differently than the rest of us do, and we 
have two grandchildren, and they are little bitty copies of my 
husband, and I have observed that the way they learn is very 
different than certain other people. They like to learn by 
doing. I have a neighbor that has a child that is the same age 
as one of my grandchildren, and he follows everything with why, 
why, why. I notice my grandchildren never ask that, and they 
didn't ask it because they were busy exploring and finding out 
for themselves, and I would love to see an organization such as 
the National Science Foundation do research into how engineers 
learn best. It is not just a learning style. It is something a 
little more fundamental than that, and we need to produce more 
engineers to make our country more competitive, and that is 
something I would like to know more about.
    Thank you.
    Mr. Inglis. Who is next?
    Ms. Las. Debra Las, Rochester, Minnesota. I am a science 
teacher at John Adams Middle School. Teachers can talk forever, 
so I will try and keep it brief.
    To touch on components of a number of questions, yes, I do 
think one of the issues facing my particular school is the 
issue of diversity. As a science teacher, we like to teach with 
inquiry, but that does depend that the students have some kind 
of prior background knowledge, and with our diverse population, 
we have 26 different languages spoken at my school, sometimes 
that background knowledge is lacking, and that does hamper the 
teaching of science.
    The idea of science clubs is important. I was one of the 
teachers involved in the first IBM Excite Camp, which is the 
worldwide camp for girls on science, technology, and math. And 
this is very important in bringing our diverse culture, and 
socioeconomic status that background knowledge. In our 
particular school, our science teachers run a volunteer camp. 
It is kind of interesting to hear the football coaches get 
paid, and they get days off, and we don't get paid, and we are 
taking our days off to help our students. And so, there are 
some issues there. I am not sure what level they need to be 
solved at.
    I also do know that--you may have heard of a movie, this is 
going to date me, The Breakfast Club. We have this science club 
that we know the science teachers will be at the school on the 
weekends. We will be there, setting up labs. We will be there, 
our kids all know each other, we drag our families in, because 
it does require extra dedication. It is somewhat frustrating to 
sometimes hear a colleague say, well, I want to get paid and 
get a stipend if I do this, and I am thinking, I have to do 
that every weekend.
    So, there are some issues, the issues you are touching upon 
do affect me in my classroom, as I have heard, meeting people 
from across the Nation here, we are seeing the same problems.
    Thank you.
    Ms. Lyons. Hello, my name is Lois Lyons. I am from New 
Jersey. I teach chemistry to high school students.
    I would like to encourage you all today, and I thank you 
for this opportunity to do so, to fund every opportunity that 
you would have, financially and professionally, to increase 
collaboration, not only for students, for teachers, as well. 
Not only should no child be left behind, but no teachers should 
be left behind, either.
    We need your help. We need your support, not only 
financially, but professionally, to increase those connections 
for ourselves and for our students, to the real world, to make 
their lives more interesting, so that they can go on ahead, and 
be standout citizens.
    Our students are fortunate enough in New Jersey, in my 
school, to participate in mentorships during their senior year, 
but they shouldn't have to wait until they are eighteen years 
old to see if they like being a lawyer, or being a 
statistician, or being a scientist, or being a dentist, or 
whatever. They should have those opportunities, and NSF is one 
avenue to provide those opportunities. So, I would encourage 
you to increase those opportunities, if at all possible.
    Thank you.
    Ms. Brown. Hi. My name is Susan Brown. I am from Maryland. 
I teach eighth grade science at Central Middle School, right 
south of Annapolis.
    I am in a Ph.D. program at the University of Maryland, so I 
do consume science research. One of the things that we find out 
is that all the researchers that you have, the greatest effect 
on achievement in any classroom in this country is the teacher. 
You can give them great curriculum materials. You can give them 
a great administration. If the teacher is not good, achievement 
goes down. So, most of the finances that we have should go into 
the teachers, in training teachers in whatever way they need to 
be trained.
    The second thing I have is that when we are teaching, we 
are teaching science and math, and that is what is dear to our 
hearts, and we are passionate about it, it is not something 
that when you tell people in our culture that we are doing, 
that they say oh, how wonderful, you know. I can't wait to be 
you. They say oh, I am so sorry, or I could never do that. And 
of course, they couldn't.
    What we need is, we need to have a cultural paradigm shift, 
so that science and math become cool. If we are looking to have 
creative students, and that is what we are going to have to 
have in order to maintain our global economy, our global 
standard of living, and our global leadership, then we are 
going to have to train students to be creative. We have to give 
them the facts, give them the knowledge, and then push them to 
come up with those new ideas, and a curriculum will not do 
that. So, that is one of the important things that the National 
Science Foundation does, is they put their resources into 
teachers, and they give us the resources we need in order to be 
able to teach.
    Thank you.
    Mr. Wheeler. Good morning and thank you. I am Sam Wheeler. 
I am from Raleigh, North Carolina. I teach physics and AP 
physics in high school down there.
    I want to add something that she was just talking about. I 
have had the opportunity to take part in some really exciting 
NSF-sponsored professional development programs, and in 
Raleigh, North Carolina, we have set up a Keenan, it is called 
the Keenan Institute, through NC State and UNC-Chapel Hill, 
that basically provides professional development opportunities 
for teachers to do actual science research in the laboratory, 
or with industry, such as IBM, Glaxo, or in my case, I worked 
with the North Carolina Science Museum. I was able to create an 
exhibit at the museum on carbon dioxide's role in global 
climate change, and I was able to go Belize in Central America.
    Now, if I hadn't had that opportunity, I wouldn't be able 
to bring back inspiration for my kids, and for my community. 
And I was also able to do something which is also really cool, 
I always tell my kids about this. A couple of years ago, the 
Educator Astronaut Program was reinstated. I applied, got 
pretty far. My eyes kept me out of it, but you know, now I can 
tell my kids that you know, I was almost an astronaut. Of 
course, my wife says it is better that you lost out with the 
eyes instead of the psych exam. So, anyway, but this is 
something we need to do.
    And to keep the other--we need to look at the other dropout 
rate, which is the dropout rate of teachers, and I think this 
can help keep teachers in, and inspire other people to become 
teachers.
    Thank you.
    Ms. Schunke. Good morning. My name is Nancy Schunke. I am 
from Lubbock, Texas. I teach at Dunbar Middle School Math and 
Science Academy in Lubbock, which is a magnet campus, as well 
as our regular campus, and I cannot say enough, with everybody 
here, about the importance of informal education and mentoring 
type activities, such as the ones that NSF provide for 
teachers. And I teach engineering classes, as well as science 
classes.
    When I started teaching, I started teaching in 1996, and I 
have a certification in composite science, and for that 
certification, I had a lot of hours in chemistry, but I had 
about eight hours in biology, eight in physics, eight in 
geology, and my biology class was in 1988, almost 10 years, you 
know, before I started teaching. And my physics classes were 
around in that range, and suddenly, I was thrust into a 
classroom where I was responsible for teaching a biology class, 
a chemistry class, some regular science classes, and with state 
curriculums the way they are right now, we are constantly asked 
to teach integrated approach, teach Earth science, life 
science, biological science, all within one course during the 
year.
    And now, with the push of engineering, which I am very 
excited about--I am an engineering teacher--I had no idea what 
engineering was when I was in high school, or even when I 
entered college, until I heard some of, you know, my--the 
people that I worked with and went to school with--that were 
going into engineering, and--but I had no idea, and now, I am 
being asked to teach it. And I am having an absolute ball doing 
it, but I know that the way that I am learning the things, I am 
being able to teach the students how to apply math and science, 
and engineering problem-solving, is because of my relationships 
and partnerships with Texas Tech University and their 
engineers, with programs like DTEACh at University of Texas, 
that is one of the things that got me started as well, and 
those are impacting our students.
    We--I have been key in helping Texas Tech University from 
the education standpoint, in developing their outreach program, 
and this program is being implemented in our--in the part of 
Lubbock that has our lower socioeconomic students, and also, 
high ethnicity, and the kids are eating it up, because they are 
seeing possibilities they never imagined. They never thought 
about going to college, but we have kids now that are aspiring 
to be engineers, because they are getting the opportunities to 
participate in Lego Robotics. They are going to Texas Tech and 
other places to visit the labs and work with engineers, and do 
hands-on experience.
    Our girls are doing things like ``Science: It's a Girl's 
Thing,'' and they are getting to actually program and build 
things on their own, and this past year, our high school, 
Estacado High School, had their first student accepted to MIT. 
And it is because of programs like this, that are training the 
teachers, that are bringing that in to the universities, and 
the public schools, and getting these kids engaged. So, I would 
highly, highly, highly encourage you to continue to provide the 
resources for those programs.
    Mr. Neugebauer. Chairman, I just--point of personal 
privilege. I want to congratulate one of my constituents, Ms. 
Schunke, is from Lubbock, Texas, and I am delighted to have her 
today, and we want to wish her congratulations on her 
recognition. Thank you.
    Mr. Inglis. Certainly. Yes, sir.
    Mr. Nolan. Good morning. My name is Ed Nolan. I teach 
mathematics at Albert Einstein High School in Kensington, 
Maryland, just not that far from here.
    I would like to echo what Steve was talking about, when it 
comes down to family. One of the things that my school deals 
with is not parent issues, but student issues, of students 
going to work, and that taking away from their educational 
experience, because they need to provide the resources for 
their family, whether that is at night, whether it is on the 
weekends, all of those experiences take away from--I have 
students who have difficulty staying awake, because they work 
so many hours, because that income is needed for their family. 
So, again, those kind of things that you can do to help the 
educational program that I deal with, that is one of them.
    The other one is, is supporting programs that bring 
colleges and teachers together in so many different ways, 
whether it is the development of curriculum materials, whether 
it is creating mentoring relationships, all of those types of 
opportunities, where we connect those things together. We 
talked about having students prepared for college. When the 
teachers at the high school and the community colleges and 
four-year institutions get together, they find out, they open 
those line of communications, they find out more about what it 
takes to prepare students, and more about what it is for high 
school teachers to help prepare students. When they have that 
dialogue back and forth, it benefits both the teachers and 
students tremendously.
    Thank you.
    Ms. Owens. Good morning. I am Julie Owens. I teach high 
school math in El Reno, Oklahoma.
    Probably we all share common challenges, families, funding, 
programs. My high school is a Title 1 high school. We have 70 
percent free and reduced lunch in our district, so we also have 
the challenge that Ed was talking about, of our kids work out 
of necessity, not so they can have a new car, but so they can 
have supper. And I am in competition with the basic need of 
food and shelter.
    So, I have to have every resource available to me to 
compete with iPods, cell phones, cameras, technology, all the 
fast, cool things they would rather spend their time and money 
on, than math and science. So, the more funding and the more 
programs that I can be engaged in, and my teachers can 
collaborate with, not only at the university level, but other 
school districts, or any professional development, to bring 
math and science, real and engaging, using technology, using 
what appeals to them is going to help me promote math and 
science in my community.
    As far as funding, our teacher pay, we all need more money. 
There is no question. But I can't teach math, and these 
teachers can't teach science, if they can't read. So, all of 
our educators are important, and we all need more funding for 
that.
    Mr. Inglis. And I might point out that you need to get to 
the White House very quickly, so if you want to be very brief, 
about----
    Ms. Gendaszek. Very brief. Bonnie Gendaszek. I teach eighth 
grade math at John Witherspoon School in Princeton, New Jersey.
    One of my biggest concerns is the low percentage of 
elementary and middle school teachers who are trained to teach 
mathematics, and who enjoy teaching mathematics. I would like 
to see money restored to the National Science Foundation, to 
train teachers. I think no amount of curriculum development is 
going to change this problem.
    Mr. Inglis. Ms. Brown mentioned that STEM--we need to make 
STEM cool. Cool is the American Competitiveness Initiative, and 
cool is going to the White House to be recognized as a 2005 
Presidential Awards winner for Excellence in Mathematics and 
Science Teaching. So, congratulations to all of you.
    Ms. Snyder, you need to go with them, so we will dismiss 
you from the panel with our thanks.
    Ms. Jackson Lee. Would the distinguished gentleman yield?
    Mr. Inglis. Yes, ma'am.
    Ms. Jackson Lee. Even though my good colleague has claimed 
Lubbock, let me say that I am from Texas, and I want to 
congratulate fellow Texans that are there, and while you are 
the White House with another fellow Texan, ask for more money, 
more money, more money.
    Mr. Inglis. Thank you all for coming. Now, we are going to 
resume the questioning with Mr. Green, I believe.
    Mr. Honda. While these teachers are leaving, the classroom 
teachers, I just want to say thank you for your work. As a 
science teacher myself, I think I understand a bit of the 
challenge that you face, and the compensations probably should 
be more of a national burden, than just a local burden, and 
having said that, I will go into my questions, if I may, Mr. 
Chairman.
    Mr. Inglis. Actually, Mr. Honda, I believe that Mr. Green 
was----
    Mr. Green. Oh. I will yield. I will yield, Mr. Chairman. I 
will be fine if I am next.
    Mr. Inglis. Okay. So, Mr. Honda is recognized.
    Mr. Honda. Thank you, Mr. Green and Mr. Chairman.
    A couple of thoughts as a teacher. This thing we call No 
Child Left Behind is a phrase that is kind of passive. I think 
it should have been Leave No Child Behind, and that would have 
been more directive, and so, it is just a mindset.
    I appreciated the discussion today on research and also 
talking about making sure that we have content, pedagogy, and 
then, the role of the NSF in research, professional 
development. Having said all that, and the thing that most of 
us here who are policy-makers, well, I am a teacher, so I am 
going to say this, the problem with education is everybody 
thinks they know what is going on, and what is best for 
teaching. But you know, we are here for the youngsters, and 
sometimes, we forget to design everything around youngsters, 
and we sometimes design the whole school system around adults' 
needs before we think about youngsters. I will get that off my 
chest.
    Now that I said that, the issue about creativity and 
innovation, I have heard that, those two terms bounced around a 
bit, but it seems to me that including science and technology, 
and science and math, that innovation and creativity are skills 
that can be taught and are teachable, but what I would like to 
know is what is the role at NSF in taking these skills and 
insights, or what someone called the accumulation of wisdom, 
and converting that into teachable units, so that we can have 
professional development that is around teaching innovation and 
skills of creativity to all teachers, because I believe that 
besides science and technology, math, music, and art, and the 
performing arts, and social studies, all those things, all 
those activities need to have this thing that we call 
innovation and creativity.
    I know that coming from Silicon Valley, I have met a lot of 
people. One was Dr. Michael Phelps. He was a boxer, and he was 
told that he can't be a champion boxer, so go to school, go to 
college, and he says why should I go to college, coach? And he 
says because there are women there. And he went, and he found 
out he was smart, and he developed the PET scan. Another fellow 
was a Rose Bowl football player for the community college, and 
he got a knee injury when he went to the four year college, and 
he said I can't play football any more, and he found out he was 
smart, and he ended up going to Stanford to get his Ph.D. in 
high energy physics, and he started and made Solectron, the 
largest fabrication globally. So, it doesn't matter whether we 
have football camps or not, because football players and other 
sports people are creative and innovative, by nature of their 
own skills.
    So, if I could ask that question, what is the role of NSF 
in trying to develop a curriculum around innovation and 
creativity?
    Dr. Bartels. Congressman, if I might, that is an excellent, 
excellent question, and I think NSF is uniquely positioned to 
provide us with some of the very answers that you are seeking.
    I want to first, though, push back gently a little bit on 
this notion that achievement and the basics are inversely 
related.
    Mr. Honda. All right.
    Dr. Bartels. There is a reason why this country has the 
best basketball players. There is a reason why Italy and Mexico 
have the best soccer players. There is a reason why Finland is 
overrepresented in the number of musicians at the world class 
level, and the reason is every one of those programs, every kid 
plays those games at the earliest ages, whether they are going 
to be a professional or not. And because their base is so deep 
of people who love soccer, they end up having the world 
championship soccer teams.
    And so, if we keep sort of comparing these things and 
contrasting them, we miss the point, which is that if you let 
every kid play these games, and learn the basics as young as 
possible it, in fact, will produce those pinnacles of 
excellence we want. So, let us take your basketball example. If 
we had kids do nothing but dribble and pass for six years, 
practice the basics, how many kids would still be playing 
basketball six years later? We don't do that. Every good coach 
knows the last 15 minutes, you let them play the game. Do they 
break the rules? Do they tackle each other? Do they break every 
rule that James Naismith ever came up with? Absolutely. But you 
teach them those basics inside the game.
    The game of creativity, the game of science and technology, 
is actually knowing enough of the basics so that, in fact, you 
can create like a beautiful guard in a basketball thing, he 
still knows how to dribble and pass, but he knows enough of 
those basic skills now to really open, you know, open up and be 
that creative person. So, one is that we still do need to do a 
better job of identifying and providing the basics, and what 
the NSF can do with this cognitive science revolution that is 
going to take place, connects things up, as for instance, we 
know, that a kid at the end of kindergarten, if they know which 
is more, which number is more, they have a much higher 
predictive success in third grade than a kid who leaves 
kindergarten not knowing that.
    Mr. Honda. If I may interrupt. I understand what you are 
saying, and it is kind of practicums.
    Dr. Bartels. Yeah.
    Mr. Honda. It is like your camps, but it is not addressing 
how you take and look at innovation, creativity, and break it 
down to teachable skills, regardless of whether they start in 
the first six years, because let us face it, the guys that I 
mentioned did not do this until they were adults. So, there has 
got to be something that we are able to create, and take out of 
what we call innovation and creativity, and break them down 
into teachable skills that we can start from, pre-kindergarten, 
but continue to postgraduate work, and it is about being able 
to take that, those two things that seem so like air.
    Dr. Bartels. Right. Again, I guess I was trying to suggest 
that an artist has to know a lot of art before they are truly 
creative in art. A writer needs to know a lot about literature 
before they are truly creative in literature. That, in fact, 
creativity is not a generic skill, and something which you 
teach separately from the disciplines in which we are 
practicing. And so, the NSF is actually doing a lot of 
cognitive research, trying to discover those very mechanisms 
that you are talking about. It is at the basic cognitive 
research level. What should follow soon are curricula, teacher 
programs, technology tools, and other stuff that reinforce 
those skills. It is coming, so long as NSF can stay consistent 
with this R&D mission that it has been given by Congress.
    Mr. Honda. And thank you, Dr. Bartels. Does Dr. Heppert or 
Ms. Pringle----
    Mr. Inglis. Be very brief, because the gentleman's time has 
expired.
    Dr. Heppert. Sure, I understand.
    I think the message that NSF has been engaging in this, and 
is prepared to engage in this in the future is an important one 
to bring home. NSF has preached in all of its teacher 
enhancement, teacher preparation programs over the years, this 
concept of having students engaged directly in getting in and 
discovering, not totally in discovering, because of course, we 
can't discover the whole of science in a lifetime, but getting 
in and getting their hands wet with the discovery and 
development of principles, so that they know what scientists 
really do.
    Honestly, I think that has had an important collateral 
effect on those of us who have been involved in those programs, 
involved in working with teachers, because it has made us at 
the university level think about how we portray science to our 
own students, and so, it has had an important side benefit in 
helping us look for ways to communicate scientific creativity 
to our own students, from the first years in college.
    Mr. Inglis. I thank the gentleman. Mr. Neugebauer.
    Mr. Neugebauer. Thank you, Mr. Chairman.
    Ms. Snyder and Ms. Pringle, I guess we lost Ms. Pringle, 
didn't we.
    Ms. Pringle. Mrs. Pringle is here, Mrs. Snyder is gone.
    Mr. Neugebauer. Yes, I am sorry. What role do mentors play 
in improving teaching and learning of math and science, and is 
mentoring mainly useful for novice teachers, or is there a 
place for mentoring programs for mid-level and veteran 
teachers?
    Ms. Pringle. Yes, there is a role for mentoring, for both 
novice teachers and veteran teachers. They need that continued 
support and encouragement, and collegiality that mentoring 
provides.
    Dr. Heppert. Now, as a veteran teacher, and you know, I 
thank Ms. Pringle for characterizing me as a teacher as well. I 
think that is--I am very honored to be put in that community. 
As a veteran teacher, I can say, as I tried to suggest to Mr. 
Honda, that idea that I have benefited from working with 
teachers, from working with educational professionals at the 
secondary level, who have been in the classroom for many years, 
and thought very carefully about how to effectively communicate 
their science to those students.
    So, in a personal sense, as I have worked with people who 
are outstanding secondary teachers, they have taught me things 
about how to more effectively communicate science to students. 
So, I would answer enthusiastically yes.
    Dr. Bartels. I would put dollar for dollar into the new 
teacher, because they have their whole teaching careers ahead 
of them. When we ran the Mentor Teacher program at the 
Exploratorium, we actually had all the teachers go home one 
night and say, go back to your first year of teaching. Take a 
drink, a slug of whiskey if you need it, but go back to that 
first year of teaching, and write about it and come back, and 
we expect tons of horror stories, and we got a few, but we also 
had these beautiful stories of that colleague across the hall 
who that new teacher found in their desperate moment of need, 
when they thought about quitting. This is when teachers quit. 
This is why 50 percent disappear. And that colleague came and 
rescued them.
    Why is that left up to chance? Why do some teachers get 
that, because they have a caring colleague across the hall, and 
why isn't there a system that says no, you know what. Every 
beginning teacher needs that mentor, because we want them to 
say if they are going to be great teachers, and so, yes, every 
teacher should get it, but ten to one, I would put it in the 
new ones.
    Mr. Neugebauer. I know the NSF programs, a lot of them 
involve research experiences for the teachers. So, how do these 
programs affect teachers' performance in the classroom, and are 
these programs doing a good job of including training on how to 
teach, as well as master that subject?
    Dr. Heppert. Yeah, we have worked with research experience 
for teacher programs, in which we have specifically brought in 
to the chemistry program that I have run both pre-service 
teachers and master teachers, people who have been in the 
public schools for a number of years, and paired them in 
research laboratories. So, not only are they getting a very 
intimate experience with the science that they are studying, 
but they also have the opportunity to interact with each other 
in a weekly seminar forum, to talk about issues in teaching, to 
talk about issues specifically of how would I translate the 
kinds of experiences I am having in the laboratory into 
excitement for the students, as well as into content material 
that I can communicate to my students.
    So, and in fact, we, you know, some of the faculty involved 
in running that program were also engaged in that, so we 
brought together the content mentors and university faculty, 
the master teachers, who were also benefiting from the research 
experience, and pre-service teachers, who were getting a 
firsthand experience of what being in a laboratory was like. 
Again, it was one of those experiences where you see the 
individuals who are participating in it light up, because they 
are getting something special out of the experience.
    Ms. Pringle. I can't emphasize enough how important it is 
to focus on the fact that teachers can be researchers as well, 
and the programs through NSF that promote that, teachers as 
researchers, provide an inordinate amount of real life 
information to that, to the research that is done. I believe 
one of our, I believe our award winner from Maryland talked 
about, as a teacher, using that research within her classroom, 
and it is so invaluable, when the teacher is the researcher 
themselves.
    It is one of the areas that causes me great concern, when 
teachers are not respected as the professionals they are, and 
are often characterized as not being able to do or understand 
or use the research, which nothing could be further from the 
truth. However, I will say to you that through the National 
Science Foundation, they have worked very, very closely with 
our teachers to make sure that they are utilizing the most up 
to date research that is available, in terms of brain studies, 
and how we can teach more effectively, based on developmental 
stages and things like that. But I thank you for that question, 
and we would encourage continued support in that area.
    Mr. Neugebauer. Thank you.
    Dr. Heppert. And I would just note for the record that we 
have the first major study of an NSF program that goes straight 
to your point.
    It was done by Iris Weiss at Horizon Research, looking at 
the Local Systemic Change Initiative, and they found that in 
fact, teacher professional development did result in higher 
student test scores for those districts and workshops that 
focused on the specific curriculum that the kids were being 
asked to learn, and two, that were sixty hours or greater. That 
is when you saw the effects showing up, and that is, I think, 
the standard NSF has set.
    Mr. Inglis. I thank the gentleman. The gentleman--Mr. 
Green.
    Mr. Green. Thank you, Mr. Chairman, and I thank the Ranking 
Member as well, and I do salute the people who have given their 
testimony today. This has been an outstanding group of 
panelists, and I appreciate greatly each of you.
    I do believe that the best way to leave no child behind is 
to leave no teacher behind. I absolutely believe that teachers 
merit more pay, they merit better working conditions, and they 
merit more respect for what they do. Since I happen to be a fan 
of the NEA, I have to say this. I agree that we have to be 
careful when we start to single out some, and pay them more 
than others, because reading is important. Writing is 
important. We cannot overlook either of these, as we move 
toward arithmetic. So, I salute you for the position that you 
have taken, and I trust that we will be able to upgrade the pay 
for all of our teachers, not for just some of them.
    With reference to what we have in our society as a culture, 
we truly do place our athletics above academics, and we truly 
have to have that paradigm shift that one of these teachers 
talked about, because we can go to a high school football game, 
and there will be standing room only. You go to a PTO or a PTA 
meeting, and you have unoccupied seats. If you have thirty 
people in attendance, you have a big crowd. So, there has to be 
some thought to a shift in paradigm, and that does not happen 
by accident. It has to happen by design. We have to, with 
intent, desire to have this manifest itself.
    I am concerned about the number of minority persons who are 
in math and science. Dr. Pringle, did I just promote you? Okay. 
Well, you merit that term. I will tell you, you spoke well 
today. You really did. I was tempted to say let us give 
everybody a big hand today for what you have said, but I 
thought your words were well-placed, and they had significant 
meaning. You really covered a lot in that short period of time 
that you had.
    But I am concerned about minority students, and I am 
concerned about all children, but given that we know that there 
is a dearth of participation in math and science, we need to do 
what we can to get more people of color involved. So, tell me, 
if you will, each of you, what can we do to cause more minority 
persons, persons of color, to become engaged, to attract them, 
if you will, to math and science?
    Ms. Pringle. I will begin, thank you, first of all, for 
your comments. We cannot say enough times that all teachers 
deserve compensation and respect that is commensurate with the 
important job they do for this nation.
    To answer your question specifically, we need to find ways 
to support and fund programs at the local and the district 
level, that attract students of color into math and science. I 
had the opportunity to chair for many years our district's Math 
Science Challenge Program, which was designed to encourage 
African-American students specifically to go into careers in 
math and science, and we started early with them, in elementary 
school, and we identified them just because of their interest 
in science and math, but we not only brought them together, and 
exposed them to experiences at museums that designed specific 
programs for us, going to institutions of higher education, 
that designed special classes for them, but we brought in 
practicing scientists and mathematicians, so that they could 
see someone that looked like themselves that was successful in 
those professions.
    So, that is the first step, and I am not sure whether you 
just were speaking about the students themselves, but I can 
tell you that as a teacher, I did not do as good a job as I 
should have encouraging those students, then, to pursue a 
career in the teaching of math and science. And we struggle 
with this all the time, as we open--as we have been successful 
at opening up so many more doors for our minority students, 
that oftentimes, teaching takes a backseat to the opportunities 
that have been opened to them, and so, we need to, with them, 
just like with all of the other students that we are trying to 
encourage to pursue teaching as a career, do that by showing 
them that the career that they have chosen is a respected one, 
that they will be respected and valued as the professionals 
they are, and we need to do that for all of our students, but 
we especially need to reach back and make sure that our 
minority students have the support and the role models that 
they need to continue that pursuit.
    Dr. Heppert. I could tell you about many programs that I 
have seen that have been successful, and that have contributed 
in this area, but let me tell you about a problem that I 
observed. In one NSF-funded program we worked with, a district 
in our area, which is a high minority district, and in that 
district, as we looked at the cohorts of teachers, as students 
moved up through the middle school years and into the high 
school years, and looked at the preparation of those teachers, 
we found in one case, from one entire cohort moving through 
middle school into high school, that the students would 
encounter three teachers who were actually certified in the 
area they were teaching. In another cohort, leading to a 
different high school, we found one teacher out of the entire 
group that was actually certified to be teaching science in the 
areas that they were teaching.
    That illustrates, I think, what we have been talking about 
here today, how desperately those students need to have 
teachers who are adequately prepared, have high quality content 
background, so that those students, when they graduate from 
high school, will have the choice, will have the preparation to 
be able to move into careers in mathematics, science, 
technology, engineering.
    I think that is the key thing we can do for students, is to 
make sure that they have very well prepared and qualified 
teachers.
    Mr. Inglis. The gentleman's time has expired, and----
    Mr. Green. Mr. Chairman, may the final panelist give the 
response, please?
    Mr. Inglis. Briefly.
    Dr. Bartels. I will give you a very specific NSF example. 
NSF is funding TERC to take a look at third grade classrooms of 
diversity. One thing we noticed, here is a perfect example. It 
was a biology question. We see plants grow, but we can't see 
them grow. How do we know we grow?
    And one of the girls raised her hand, and she said, oh, 
because we can measure it over time. And how an eight-year-old 
came up with that was pretty surprising, but of course, the 
teacher honored that answer, because it was a scientifically 
correct one. But you could tell that there was another girl who 
happened to be African-American, who didn't speak up much in 
that class, who was bothered by that answer. It didn't jibe. So 
she thought about it and she thought about it, and finally, she 
said you know, Mrs. Johnson, I don't know about that, but I 
know that after a while, my shoes get crinkly. And the teacher 
almost missed the moment, and then, she said what do you mean 
by that? And of course, what she meant is that she can't see 
herself grow either, but she knows she is, because she outgrew 
her shoes. Scientifically speaking, that is just as valuable 
and authentic answer of how you can tell if things grow or not, 
even if you can't see it, as the correct answer, well, you can 
measure it over time. Well, because the teacher spotted that, 
she asked how other kids figured out how you could tell things 
grew, and every kid gave their answer from their own 
perspective. That research now has to be turned into how does 
every teacher now notice that, that that sort of response was 
scientifically just as correct as the other one. It just needed 
to be moved more towards the formal language of science, and 
what are the tools and videotapes and other things teachers 
have, so that they don't always honor the kid who came up with 
the right answer, but the other kid, who actually came up with 
a more scientifically interesting one.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Inglis. Thank you. Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, and let 
me thank the Ranking Member for what is a very important 
hearing. We are glad we are having this hearing, because it 
expresses affirmatively the concern we have with the 
deemphasizing of the K-12 STEM program funding that is 
seemingly not a part of the President's anti--not anti, but 
pro-competitiveness, or anti-competitiveness from the other 
side, but pro-competitiveness from our side, effort that has 
just recently been announced. How you eliminate seeding the 
future engineers and scientists of America is baffling to all 
of us, so I am truly hoping that these very brilliant teachers 
will take their message back to the White House about the 
funding issues that we are speaking of. We can't really survive 
without solutions to our problems.
    So, I will start off, because I have a mountain of paper 
here, because I believe that this is so crucial, that it bears 
on being a crisis. So, I will just simply say, and I think we 
have a crisis. One of the reasons why we have a crisis is 
because we have two nations that I applaud. I am not going to 
be so selfish as to be envious of those who seem to be 
capturing the real essence of this world, and that is India and 
China, and as they educate individuals, they are surmounting, 
if you will, any of the numbers that we could imagine, only 
because of size.
    So, what you all are speaking about, really, is the 
scientific survival of America, and starting in the Science 
Committee, some years before the turn of the century--isn't it 
interesting to be able to say that--I started out by saying 
that science is the work of the 21st Century. We are in the 
21st Century, and more than with your hands, though I miss 
manufacturing, we will be producing the workforce of the 21st 
Century on the basis of science.
    So, gentleman and distinguished educators, and might I add 
my applause to the National Education Association for lifting 
up teaching throughout America, and fighting the good battle of 
what disincentives really are, when you eliminate the 
recognition that all teachers should be made excellent, and so, 
I understand the basis of your theory on a merit-based 
teaching, if you will.
    But let me have each of you comment, do we have a crisis? 
And the value of teacher development, and let me throw out 
something that I have done, and I would like you to comment on 
this issue, and Ms. Snyder, tell us when teachers sign--teacher 
incentives may be relevant? And I think maybe in the instance, 
I think I heard one of the teachers in the instance of math and 
science teachers, or maybe some bonuses? But I know NEA has 
been a thinker on these issues, and I think you should get it 
out on the table.
    When I first came to Congress, I passed legislation dealing 
with the sharing of old equipment from our laboratories with 
primary and secondary schools. I am about to ask my agencies, 
my science labs, have you done that, and give me your full 
report, and show me the schools where you have done so, because 
this is what happens when Congress passes bills that get into 
action. But the point that I want to ask you, we need to be a 
leader on this whole question of exposure and excitement to 
teachers and students, so I am going to be crafting, with I 
hope the help and interest of my colleagues, the ability for 
our science agencies, governmental agencies, because I did this 
on the local level with corporations and high school students, 
to have exposure internships, intern is sort of a big word, but 
exposure by way of either primary, middle, or secondary, still 
in the thought processes, to our science labs, NASA, any number 
of subsets of science that goes on in the United States, why 
aren't we in the lead of embracing schools, having youngsters 
come through two weeks, and not just the youngsters who are 
Ph.D. candidates, but get them at that level, because I think I 
heard one of the teachers say, you have got to excite young 
people. You have got to excite children, if you will, and I 
don't think high school is too late, even though we should be 
dealing with our primary schools.
    But I think that high school helps propel that ninth, 
tenth, eleventh grader, saying yes, this is what I want to do. 
So, I would appreciate your expanding on the crisis issue, 
teacher development, and what about this program that could 
then be translated into the corporate science community.
    Dr.--my eyes are not seeing it, so I want to pronounce it--
Bartels?
    Dr. Bartels. Yes.
    Ms. Jackson Lee. Thank you.
    Dr. Bartels. I think that is a terrific idea. I would only 
urge you, in all due respect to universities and national labs, 
not to forget the New York Hall of Science, the Exploratorium, 
the Franklin Institute of Technology.
    Ms. Jackson Lee. Excellent.
    Dr. Bartels. The Montshire. Because in a lot of ways, these 
institutions, which again, are 1,500 strong in this country, 
are better prepared to interest kids and teachers in science, 
in authentic science. In a lot of ways, then, the Department of 
Energy researcher who was really interested in that last 
question about particle physics, and so, I would really count 
on the informal infrastructure to take up that challenge.
    Ms. Jackson Lee. Great. And crisis, do you want to say yes 
or no?
    Dr. Bartels. Oh, absolutely. And I think the crisis isn't, 
frankly, the number of scientists and engineers. We argue about 
that. India and China, they are going to have more. But for 
every scientist that works at Genentech Laboratory, they need 
20 technicians. What I hear from most corporations is that the 
technical class, the traditional class, the middle class jobs, 
that is in the most desperate need, where are we training those 
nurses, those lab techs, those med techs, and frankly, even the 
traders, entrepreneurs, and the people who will create jobs in 
the next 30 years. They need math and science, too.
    Ms. Jackson Lee. May I have the--finish the answer, Mr. 
Chairman. Thank you, Mr. Chairman.
    Dr. Heppert. The answer is, I think, is we need more of all 
of the above. There is a crisis. At the same time, I have to 
say I applaud you all for being out in front of this. I mean, 
you have really started to design programs and take up this 
issue before this has become a crisis that has actually 
affected our economic future.
    With regard to the issue of laboratories, the American 
Chemical Society has worked to really support legislation 
recently that has come out about improving laboratory 
facilities in high schools, and trying to support those. I have 
had personal experience with setting up programs where 
Department of Energy researchers of the laboratories have had 
the opportunity to work by webcast with classrooms, and again, 
as we have looked at teacher response to those, and student 
response to those, as well as the enthusiasm of the researchers 
at the Department of Energy labs, they have been tremendous.
    Ms. Jackson Lee. Excellent.
    Dr. Heppert. So I think you are on the right track with all 
of your ideas.
    Ms. Jackson Lee. Thank you. Ms. Pringle, thank you. Thank 
you very much, Dr. Heppert.
    Mr. Inglis. Thank you.
    Ms. Jackson Lee. You are the last.
    Mr. Inglis. Oh, yes.
    Ms. Pringle. I would say yes, yes there is a crisis, and 
especially, as we talked about earlier, in our minority 
communities.
    There are a couple of things that I wanted to address, and 
I use the title of Jonathan Kozol's book, Savage Inequalities, 
to really capture and reflect the fact that the crisis is more 
so realized in our urban, especially our urban schools, that 
service poor and minority students, and when you talk about the 
lack of resources, most especially in science, where when I 
started teaching science in the Philadelphia public school 
system, my resources consisted of a ream of paper, 500 sheets, 
for the whole year. I didn't say anything about the science, so 
I went out and bought materials just like so many of us do.
    So, I would implore the Committee to explore that. We all 
know that it exists, and it is criminal for us to turn a blind 
eye to the fact that we have schools in this country that do 
not have microscopes in a biology classroom, and that is real.
    I would also like to comment on the question you asked 
around additional pay. One of our award recipients talked about 
having a science camp breakfast club on Saturdays, and she said 
that you know, she just got up and did it, and that is 
absolutely typical, that teachers in this country are so 
altruistic as to give up their time, or spend money on 
resources, but it is unacceptable. If this is a crisis, then as 
a nation, we need to stand up and provide the resources, so 
that if our children need additional time on Saturdays to 
complete a lab, that we have the resources to pay professionals 
to do that job.
    Ms. Jackson Lee. So you agree it is a crisis.
    Mr. Inglis. Well, thank you to the witnesses for your 
excellent testimony today. We appreciate you being with us.
    I would point out to Members that if they have any 
additional questions, they can submit them in writing, and I 
would hope that our witnesses would be willing to response.
    Otherwise, with appreciation for the witnesses and the 
Members, the hearing is adjourned.
    [Whereupon, at 12:20 p.m., the Committee was adjourned.]

                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Dennis M. Bartels, Executive Director, The Exploratorium

Question submitted by Representative Eddie Bernice Johnson

Q1.  Earlier this year I advocated for increased funding for NSF's 
``HBCU-UP,'' or undergraduate program for Historically Black Colleges 
and Universities.

     What programs administered by NSF increase diversity in our STEM 
workforce, particularly in K-12 education?

A1. All of them.
    But more or less well depending on the specific grant project idea 
or design of program or experiment.
    The lasting legacy of Dr. Luther Williams (NSF EHR Director from 
about 1990 through 1999) was integrating questions of diversity and 
equity into nearly every NSF K-12 education program. It was an explicit 
strategy of his not to separate out central questions of equity from 
the main program strands. As a result, no specific program was 
developed with an exclusive focus on increasing diversity--all of them 
were supposed to.
    This resulted in different approaches and strategies at the program 
level. For instance, all the systemic initiatives were required to 
treat equity as central and favor districts and geographic areas with 
greater educational challenges. The Urban Systemic Initiatives and 
Rural Systemic Initiatives were direct derivatives of that approach.
    The solicitations for Instructional Materials Development likewise 
needed to demonstrate that these materials were especially effective 
for students within lower achievement levels (no matter how defined). 
Proposals in the Research on Learning and Education (ROLE) program 
favored studies aimed at understanding issues of equity and increasing 
student diversity on measures of achievement, and a number of projects 
focused explicitly on why privilege appears to replicate itself at the 
earliest grade levels. Much has been learned from these studies and I 
described one of those studies in my hearing testimony.
    Several of the centers in the Centers for Learning and Teaching 
program made equity and increasing diversity the central focus (DIME, 
etc.). Finally, the Informal Science Education program does more to 
fund after school and community centers located in high impact areas to 
spark scientific curiosity at the earliest ages. The impact of these 
programs on minority achievement is well-documented.
    For the record, there is something to be said about NSF's pre-
college approach of not separating these questions from the general 
program and on insisting on program integration.
    Nonetheless, those programs with the greatest immediate success of 
increasing diversity in the STEM workforce are those which provided 
direct service in geographic areas with the greatest number of students 
of color, namely the systemic initiatives (now defunct) and informal 
centers such as after school. More sophisticated approaches, such as 
the effective use of more challenging NSF-sponsored curricula, for 
example the dramatic increase in achievement levels for minority 
students in Boston, Austin and Charlotte, required very high capacity 
districts who knew how to use those materials well (including quite 
substantial investments in teacher professional development).
    However, it is these more complicated approaches which show the 
greatest promise of reaching the largest number of students when 
pulled-off successfully. It is one of those classic policy dilemmas.

                   Answers to Post-Hearing Questions

Responses by Joseph A. Heppert, Chair, Department of Chemistry, 
        University of Kansas; Chair, Committee on Education, American 
        Chemical Society

Question submitted by Representative Eddie Bernice Johnson

Q1.  Earlier this year I advocated for increased funding for NSF's 
``HBCU-UP,'' or undergraduate program for Historically Black Colleges 
and Universities.

     What programs administered by NSF increase diversity in our STEM 
workforce, particularly in K-12 education?

A1. My impression of NSF's commitment to increasing diversity in the 
STEM workforce is that the Foundation works extremely hard to ensure 
that students and professionals from under-represented groups have the 
opportunity to benefit from all NSF programs. I believe that this 
impression would be shared by all of my colleagues on the Society 
Committee for Education. NSF has pursued this policy by ensuring that 
researchers leading funded projects develop detailed plans to involve 
and recruit persons from under-represented groups into positions as 
leaders, staff and participants in educational and scientific programs. 
Furthermore, NSF has insisted that these plans 1) present a reasonable 
opportunity for success, 2) have resources adequate to ensure that they 
are fully implemented, and 3) include ongoing assessments of their 
effectiveness. This is certainly moving the agency from a situation 
where 20 years ago many federal programs paid lip service to diversity, 
to a situation today where more and more programs at NSF are 
experiencing success in increasing the participation of minority 
individuals in all aspects of funded programs.
    I would particularly point out the following programs that serve 
diverse populations, particularly populations that directly or 
indirectly support K-12 education:

MATH AND SCIENCE PARTNERSHIPS. MSP projects are expected to both raise 
the achievement levels of all students and significantly reduce 
achievement gaps in the mathematics and science performance of diverse 
student populations.

STEM TALENT EXPANSION PROGRAM (STEP). Nine awards increase number of 
and diversity of graduates in STEM fields.

SCHOLARSHIPS IN SCIENCE, TECHNOLOGY, ENGINEERING, AND MATHEMATICS (S-
STEM). This program makes grants to institutions of higher education to 
support scholarships for academically talented, financially needy 
students, enabling them to enter the workforce following completion of 
an associate, baccalaureate, or graduate level degree in science and 
engineering disciplines.

ALLIANCES FOR BROADENING PARTICIPATION IN STEM (ABP); LOUIS STOKES 
ALLIANCES FOR MINORITY PARTICIPATION (LSAMP); BRIDGE TO THE DOCTORATE 
(BD); ALLIANCES FOR GRADUATE EDUCATION AND THE PROFESSORIATE (AGEP). 
The two programs and one supplemental activity included under the 
Alliances for Broadening Participation in Science and Engineering (ABP) 
solicitation seek to increase the number of students successfully 
completing quality degree programs in science, technology, engineering 
and mathematics (STEM). Particular emphasis is placed on supporting 
groups that historically have been under-represented in STEM: African 
Americans, Alaskan Natives, American Indians, Hispanic Americans and 
Native Pacific Islanders. ABP support begins at the baccalaureate level 
with the Louis Stokes Alliances for Minority Participation (LSAMP) 
program. For eligible students, significant financial support is 
continued for two years of graduate study via the Bridge to the 
Doctorate (BD) activity. Rounding out the ABP cluster are Alliances for 
Graduate Education and the Professoriate (AGEP), which further the 
graduate education of minority students through the doctorate level, 
preparing them for fulfilling opportunities and productive careers as 
STEM faculty and research professionals.

RESEARCH EXPERIENCES FOR TEACHERS (RET) AND RESEARCH EXPERIENCE FOR 
UNDERGRADUATES (REU) PROGRAMS. Both RET and REU programs provide under-
represented students and teachers who serve under-represented secondary 
students with substantial access to research facilities supported by 
NSF programs. These are valuable experiences because they provide 
undergraduate minority students with direct life-changing practice in 
cutting edge science, and with confidence that they can succeed in 
advanced scientific study. The RET experiences also immerse secondary 
teachers in the excitement and reality of scientific research. They, in 
turn, have the opportunity to take this infectious enthusiasm back to 
students in their classrooms who would otherwise never make a 
connection to science or engineering as potential career pathways.

ROBERT NOYCE SCHOLARSHIP PROGRAM. The Noyce Program has been 
responsible for placing many STEM career changers in mathematics and 
science teaching positions in at risk schools. In Kansas City, Kansas, 
an urban district where our institution runs a Noyce Award, half of the 
new teachers who have entered the district over the last three years 
have been supported by Noyce funding and related sources of incentive 
funding! This illustrates how effective this program has been at 
increasing the population of science and mathematics teachers with 
excellent STEM content backgrounds in schools where they are 
desperately needed.

    NSF's commitment to building a more diverse STEM workforce is 
clearly genuine and longstanding.
    The one cautionary note in my estimation is the continuing 
reduction of NSF programs and funding directed toward the K-12 
educational level. Improving science education, particularly for 
middle/secondary students, and addressing problems that under-
represented students encounter as they transition from the secondary 
level into colleges and universities is essential for creating a more 
diverse workforce. Scientists, mathematicians, engineers and technology 
professionals need to remain actively engaged in improving K-12 STEM 
education and in devising solutions to barriers under-represented 
students encounter as they progress along STEM career pathways. The 
only way that this will happen is if NSF intensifies its commitments to 
improve K-12 education. Recent budget recommendations and planning 
documents leave the role of NSF in addressing the needs of secondary 
teachers in doubt.

                   Answers to Post-Hearing Questions

Responses by Rebecca Pringle, Physical Science Teacher, Susquehanna 
        Township Middle School; Member, Executive Board, National 
        Education Association

Question submitted by Representative Eddie Bernice Johnson

Q1.  Earlier this year I advocated for increased funding for NSF's 
``HBCU-UP,'' or undergraduate program for Historically Black Colleges 
and Universities.

     What programs administered by NSF increase diversity in our STEM 
workforce, particularly in K-12 education?

A1. The National Education Association believes that diversity is a 
critical element in a strong math, science, and technology teaching 
force. A diverse teaching staff helps ensure a broader perspective in 
teaching and learning and provides critical role models for minority 
youth in these traditionally under-represented fields.
    NEA supports programs that encourage active recruitment and 
retention of ethnic minority educators into math, technology, and 
science education. The National Science Foundation administers a number 
of such programs, including:

        <bullet>  Alliances For Broadening Participation In Science and 
        Engineering (ABP). These alliances include two programs--Louis 
        Stokes Alliances For Minority Participation (LSAMP) and Bridge 
        To The Doctorate (BD)--and one supplemental activity--Alliances 
        For Graduate Education And The Professoriate (AGEP). These 
        initiatives seek to increase the number of students 
        successfully completing quality degree programs in science, 
        technology, engineering and mathematics. Particular emphasis is 
        placed on supporting groups that historically have been under-
        represented in these fields: African Americans, Alaskan 
        Natives, American Indians, Hispanic Americans and Native 
        Pacific Islanders.

           ABP support begins at the baccalaureate level with the Louis 
        Stokes Alliances for Minority Participation (LSAMP) program. 
        For eligible students, significant financial support is 
        continued for two years of graduate study via the Bridge to the 
        Doctorate (BD) activity. Rounding out the ABP cluster are 
        Alliances for Graduate Education and the Professoriate (AGEP), 
        which further the graduate education of minority students 
        through the doctorate level, preparing them for fulfilling 
        opportunities and productive careers as science, technology, 
        and math faculty and research professionals.

        <bullet>  Math And Science Partnerships. The NSF Math and 
        Science Partnership (MSP) awards competitive, merit-based 
        grants to teams composed of institutions of higher education, 
        local K-12 school systems, and their supporting partners. These 
        partnerships develop and implement pioneering ways of advancing 
        math and science education. The program is based on five 
        pillars: Partnership-Driven, Teacher Quality, Quantity and 
        Diversity, Challenging Courses and Curricula, Evidence-Based 
        Design, and Institutional Change and Sustainability. MSP 
        projects are designed to raise the achievement levels of all 
        students and significantly reduce achievement gaps in the 
        mathematics and science performance of diverse student 
        populations.

        <bullet>  STEM Talent Expansion Program (Step). Nine awards 
        increase number of and diversity of graduates in science, 
        technology, and math fields.

        <bullet>  Scholarships in Science, Technology, Engineering, And 
        Mathematics (S-Stem). This program makes grants to institutions 
        of higher education to support scholarships for academically 
        talented, financially needy students, enabling them to enter 
        the workforce following completion of an associate, 
        baccalaureate, or graduate level degree in science and 
        engineering disciplines.

    We look forward to working with Congress to increase funding for 
these critical programs.

                   Answers to Post-Hearing Questions

Responses by Judy D. Snyder, Mathematics Teacher, Eastside High School, 
        Taylors, South Carolina

Question submitted by Representative Eddie Bernice Johnson

Q1.  Earlier this year I advocated for increased funding for NSF's 
``HBCU-UP,'' or undergraduate program for Historically Black Colleges 
and Universities.

     What programs administered by NSF increase diversity in our STEM 
workforce, particularly in K-12 education?

A1. I cannot answer this question directly because I do not have direct 
knowledge of all NSF programs. I can attest to the fact that the NSF 
program that had the most effect on my teaching was open to all 
teachers in this area of the state and minority teachers participated. 
The goal of the program was not to target minorities, however. I can 
also speak to the importance of having good minority teachers in our 
public schools. Not only do good minority teachers create role models 
for minority students but they garner respect from all students as well 
as their colleagues and their administrators. This kind of respect 
helps break down racial barriers and creates an atmosphere where all 
students and teachers are equally respected and where all students are 
expected to achieve at high levels. It is becoming more and more 
difficult to find good mathematics and science teachers and even more 
difficult to find minority teachers in those fields. I certainly concur 
with Representative Johnson's concern in this area.

                              Appendix 2:

                              ----------                              


                   Additional Material for the Record

                       Statement of Niel Tebbano
                             Vice President
                          Project Lead The Way

    Project Lead The Way is pleased to provide this testimony on behalf 
of the organization as well as, the schools, universities and corporate 
partners that participate in Project Lead The Way nationwide (see 
appendix), the thousands of educators who have gone through our 
professional development program and the 175,000 young people who have 
been affected by our efforts.

Background

    Project Lead The Way (PLTW), shares the interest of this panel and 
countless other public officials who are attempting to address the 
issues surrounding the Nation's concern regarding global 
competitiveness. We firmly believe that a better-educated and prepared 
workforce is crucial to securing this nation's place as a global 
economic leader and innovator.
    To address this challenge, PLTW was created in 1996 by the 
Charitable Leadership Foundation of Clifton Park, New York as a 
nonprofit organization designed to create and proliferate a pre-
engineering program for our nation's high schools and middle schools. 
Since 1996, PLTW has developed sequences of middle and high school 
courses which, when combined with appropriate mathematics and science 
courses, introduces students to the scope, rigor and discipline of 
engineering and technology prior to entering college.
    Started with the humble goal of being in 50 high schools in upstate 
New York by 2005, the program is currently found in over 1,300 schools 
in 45 states. The program is funded using a variety of local and 
federal sources and also relies on public-private partnerships.
    In Tennessee Project Lead The Way has forged dynamic partnerships 
with the University of Tennessee at Chattanooga and the National Energy 
Laboratory at Oak Ridge to support the 20 state high schools enrolled 
in the program. This partnership model brings higher education and 
business into the high school in direct focused ways from informing 
rigorous teacher professional development to student mentoring on 
original engineering research projects.

Beliefs

    While PLTW believes that its curriculum and program are exemplary, 
there are a number of fundamental assumptions that belie its 
formulation and success. First and foremost, PLTW strongly advocates 
for reliance on hands-on, project-based learning. Engineering is a 
field and profession based on the success of projects, and this should 
be reflected in any measure of an engineering curriculum's success.
    PLTW also believes that success in the science, technology, 
engineering and mathematics (STEM) disciplines begins the moment a 
child walks into a classroom for the first time. It is crucial that any 
federal endeavor in this area address this fact. It is not enough to 
engage young people in middle and high school. Interest in these 
studies must be nurtured from day one. In particular, girls and other 
under-represented groups must find STEM appealing at a young age if we 
can reasonably expect them to pursue them successfully in later years. 
So, while secondary education is where one might intuitively look to 
focus on post-secondary preparedness for the pursuit of STEM 
disciplines, PLTW believes it is important that elementary students 
receive similar focus.
    Further, PLTW's rigorous and relevant curriculum is based on the 
premise that bringing engineering curriculum and concepts to students 
through practical application while they are still forming opinions 
about interests and careers is crucial. No one can deny that these 
interests are formed at a very early age. As a result, it is important 
that young people are exposed to curricula that go beyond math, science 
and technology, and educators are explicitly encouraged to include 
engineering in elementary education.

Recognition and Elements of PLTW's Success

    In October 2005, Project Lead The Way was cited in the report 
Rising Above the Gathering Storm: Energizing and Employing America for 
a Brighter Educational Future by the National Academy of Sciences, The 
National Academy of Engineering, and the Institute of Medicine of the 
National Academies. Among the report's recommendations was that K-12 
curriculum materials for science, technology, engineering and 
mathematics (STEM) education modeled on world class standards foster 
``high-quality teaching with world class curricula, standards and 
assessments of student learning.'' It further went on to say that ``The 
model for this recommendation is the Project Lead The Way pre-
engineering courseware (page 4).''
    In addition, the report noted, ``Students participating in PLTW 
courses are better prepared for college engineering programs (page 5-
15).''
    PLTW is understandably proud of this distinction. It does beg a 
number of questions, however.
    Why has the program grown so quickly and what has been its 
effectiveness?
    The answers to these questions are grounded in the attributes of 
the program's organization, and in its curriculum and professional 
development.

         Partnership--The mission of Project Lead The Way is simply to 
        ``create dynamic partnerships with our nation's schools to 
        prepare an increasing and more diverse group of students to be 
        successful in engineering and engineering technology 
        programs.'' Partnerships with state departments of education 
        and labor, colleges and universities of engineering and 
        engineering technology, and major industries and corporations 
        (see attached listings) have been reached to validate and 
        support the program throughout the country. Local, State and 
        regional ownership of the program with the engaged 
        collaboration and support from the national Project Lead The 
        Way program has created a vibrant and responsive network of 
        stakeholders that keeps the initiative vitally active and 
        strong.

           As an example, in Tennessee and other states, Project Lead 
        The Way has brought together elements of higher education and 
        business with the state education department, to validate the 
        rigor and relevancy of its high school curriculum and teacher 
        professional development program. Seven of the eight high 
        school Project Lead The Way courses are eligible for college 
        credit to qualified students. Industry and higher education sit 
        together on the Project Lead The Way State Leadership Team 
        overseeing the quality of its implementation statewide, and 
        also collaborate with teachers and school counselors at the 
        local level to assure high learning standards and program 
        support.

         Curriculum--As has been repeated countless times on Capitol 
        Hill, curricula needs to be rigorous and relevant to meet the 
        interests and expectations of today's students. PLTW agrees. 
        The attributes of the program curricula that have contributed 
        to Project Lead The Way's success are:

                <bullet>  Contextual project/problem based instruction.

                <bullet>  Integration of recognized national learning 
                standards including those of the National Academy of 
                Science, The National Council of Teachers of 
                Mathematics and the International Technology Education 
                Association.

                <bullet>  Breadth and depth of content, updated and 
                revised regularly.

                <bullet>  Supported by comprehensive professional 
                development for teachers and school counselors.

                <bullet>  Prepares students for successful transition 
                to two- and four-year college programs.

                <bullet>  Written to standards of quality and 
                consistency so as to carry college credit that is 
                recognized by over 30 post-secondary engineering and 
                engineering technology schools nationwide.

         Professional Development--Rigorous, relevant professional 
        development for teachers, presented in immersed and ongoing 
        formats, is essential to breed and assure student success. The 
        attributes of the Project Lead The Way professional development 
        program are:

                <bullet>  Pre-Training Teacher Assessment

                <bullet>  Two week Summer Training Institute required 
                for each course a teacher might teach (80 hours seat 
                time) at 30 university sites nationwide.

                <bullet>  On-going teacher training and reinforcement 
                through the Project Lead The Way on-line Virtual 
                Academy.

                <bullet>  Required school counselor professional 
                development at university sites.

         Not-For-Profit Benefits to Schools--As a not-for-profit, 
        Project Lead The Way provides at no charge to schools:

                <bullet>  Contemporary, rigorous, project/problem-based 
                curricula, updated regularly, for eight (8) full year, 
                high school courses and six (6) middle school units.

                <bullet>  Access for trained instructors to the Virtual 
                Academy.

                <bullet>  Teacher and counselor professional 
                development protocols for use by university and college 
                partners.

                <bullet>  Use of an optional Purchasing Manual, 
                developed under the procedures of the New York State 
                bidding laws, for lowest pricing on all equipment and 
                supplies for all Project Lead The Way courses.

                <bullet>  Information and promotional materials for use 
                by school counselors with parents and students.

         Program Evaluation--PLTW believes that unbiased, critical 
        examination of its curriculum and program elements is crucial 
        to its goals and success. Initial research findings on the 
        effectiveness of the Project Lead The Way program include:

         A study by the Southern Regional Education Board (2005) which 
        found that Project Lead The Way students:

                <bullet>  Achieved significantly higher in mathematics 
                than students in comparable career/technical programs.

                <bullet>  Achieved significantly higher than all 
                students in career/technical programs in mathematics, 
                science and reading.

                <bullet>  Completed significantly more, higher level 
                mathematics and science courses.

         A study by True Outcomes of York, Pennsylvania (2005) showed 
        that:

                <bullet>  80 percent of seniors in Project Lead The Way 
                planned on attending college or community college 
                compared to 65 percent nationwide.

                <bullet>  54 percent planned to enroll in engineering 
                or engineering technology compared to 10 percent 
                nationally.

                <bullet>  19 percent planned on attending community 
                college or Technical School.

                <bullet>  Overall schools offering PLTW were 
                representative of their state's population.

                <bullet>  Minority student participation met or 
                exceeded the proportion of Bachelor's Degrees awarded 
                in Engineering in 2004 to minority students by race.

                <bullet>  The representation of Hispanics and African-
                Americans in PLTW courses was double their 
                representation in post-secondary engineering programs 
                nationwide.

                <bullet>  Female student participation in Project Lead 
                The Way was comparable or exceeded the total proportion 
                of females earning Bachelor Degrees in Engineering in 
                2004, in the fields of Mechanical, Electrical and 
                Computer Engineering, and in Engineering Technology, 
                but less than the percentage in biomedical and 
                environmental fields.

Conclusion

    In 1985, ``A Nation at Risk'' was published alerting the country to 
an impending crisis due to perceived significant inadequacies of the 
existing K-12 education system. Since then these sentiments have been 
echoed in many subsequent research papers, most calling for reform, but 
with no real innovative solutions or recommendations. With few 
exceptions, these reports have instead focused on increasing the 
quantity of more of the same traditional courses and approaches--
approaches that have proven limited in their scope and overall 
effectiveness.
    The latest proposals from Washington do the same: increasing AP 
course participation, expansion of the IB Program, increased foreign 
language instruction, more math at all levels, and more math teachers. 
While well intended and even valiant, the reality is that if these 
proposals move forward, students will continue to ask, ``Why do I need 
to know this?'' and ``Where will I ever use this?''
    Raised in an age where interactive technology has influenced almost 
all of their life experiences, traditional passive learning models fall 
far short for the majority of today's students. Today's student thrives 
on curricula that are contextual and which invite their engagement in 
project/problem based activity. In short, they do best with school 
curriculum that is BOTH rigorous AND relevant; where they understand 
why they need to know something, and where and how they can use it.
    Don't forget the majority of students in this great country whose 
learning styles and interests are not met in traditional settings and 
course work. Contextual, project-based learning, where students can 
apply what they have learned in mathematics, science and English 
classes, supported by rigorous and relevant curricula and professional 
development, must be part of the solution that any federal legislation 
or investment pursues.

Appendix

                      Project Lead The Way Courses

Gateway To Technology (Middle School)

        <bullet>  Design and Modeling

        <bullet>  The Magic of Electrons

        <bullet>  The Science of Technology

        <bullet>  Automation and Robotics

        <bullet>  Flight and Space

        <bullet>  Technology in Motion (in development)

Pathway To Engineering (High School)

        <bullet>  Principles of Engineering

        <bullet>  Introduction to Engineering Design

        <bullet>  Digital Electronics

        <bullet>  Computer Integrated Manufacturing

        <bullet>  Civil Engineering and Architecture

        <bullet>  Biotechnical Engineering

        <bullet>  Aerospace Engineering

        <bullet>  Engineering Design and Development

University Affiliates

    Arkansas Tech University

    Duke University, Pratt School of Engin.

    Eastern Michigan University

    Milwaukee School of Engineering

    New Hampshire Technical Institute

    Old Dominion University

    Oregon Institute of Technology

    Penn State University

    Purdue University

    Rochester Institute of Technology

    San Diego State University

    Sinclair Community College

    So. Seattle Community College

    Univ.of Colorado at Colorado Springs

    University of Texas at Tyler

    University of Illinois-Urbana

    University of Maryland at Baltimore County

    University of Missouri-Rolla

    University of New Haven

    University of Minnesota

    University of South Carolina

    University of South Florida

    University of Tennessee at Chattanooga

    Weber State University

    Worcester Polytechnic Institute

Strategic Partners

    Autodesk, Inc.

    Intel Corporation

    Kern Family Foundation

    NASA

    Rolls-Royce Corporation

    Southern Regional Education Board

           Science Education Policies for Sustainable Reform

                       American Chemical Society

INTRODUCTION

    The American Chemical Society (ACS) is the world's largest 
association of individual chemical scientists and engineers. To fulfill 
its mission as a congressionally chartered scientific and educational 
society, ACS has developed nationally acclaimed programs that support 
ongoing reform efforts in science education at all levels. ACS 
education programs begin at the pre-school level, continue through 
elementary, middle, and high school, and include undergraduate and 
graduate instruction in chemistry. ACS also offers continuing 
professional development workshops, short courses, and Internet courses 
for elementary and high school teachers and for mid-career chemists 
working in industry and academia.
    The Society continues to play an important role in the development 
of national policies related to science education by providing advice 
to Congress and various federal agencies. The Society also provides 
comments on the annual budgets of the National Science Foundation (NSF) 
Education and Human Resources Directorate, and the U.S. Department of 
Education. This ACS involvement stems from the recognition that the 
increasing role of science and technology in the U.S. economy 
necessitates a modern and effective science education system.
    This document, summarizing the science education policies of the 
Society, is directed toward practitioners and policy-makers throughout 
the U.S. educational system. These policies are organized by 
educational level and topic of concern. Since the first version of this 
ACS policy document was published in 1989, many changes have occurred 
in science education. Nationally and at the State level, the standards-
based movement is attempting to bring coherence to science curricula at 
the K-12 level, with mixed results. There has been an acceptance that 
standards-based science instruction should include an emphasis on 
hands-on, inquiry-based instruction to help K-12 students develop a 
knowledge and understanding of scientific ideas. They also need to 
understand how scientists explore and make sense of the natural world. 
Specifically, they need to understand how scientists use inquiry 
methods that involve making observations; posing questions; examining 
the literature to see what is already known through experimental 
evidence; proposing answers and explanations; testing hypotheses 
through experimentation; and communicating the results orally, in 
writing, and by other appropriate methods. However, while all states 
have developed content standards, few have developed science education 
assessments that are congruent with their state content standards.
    The No Child Left Behind (NCLB) Act appears to be having an 
unintended negative impact upon the practice of hands-on science at the 
elementary and middle school levels in particular. Since science is not 
yet a federally mandated assessment, schools are emphasizing, and 
therefore funding, activities that they expect will directly affect 
student performance in reading and math, both of which are currently 
being assessed in compliance with NCLB. The impact that national 
testing of science knowledge will have in future years must certainly 
be closely monitored.
    Efforts continue at the undergraduate and graduate levels to ensure 
that courses reflect the vitality and challenges of modern chemistry 
and that instruction methods model the most effective pedagogical 
techniques. The funding of the Undergraduate Chemistry Systemic Reform 
initiatives and the subsequent Adapt and Adopt program by NSF continue 
to influence reform efforts. In particular, the Peer-led Team Learning 
approach pioneered by the City University of New York continues to gain 
support.
    Of special concern at the undergraduate level, as at all levels of 
education, is the need to develop new assessment instruments consistent 
with new instructional pedagogy to evaluate student learning outcomes, 
faculty effectiveness, and the curriculum. At the graduate level, there 
is a need to broaden the graduate experience to include more specific 
training in, for example, green chemistry and sustainability ethics, 
toxicology and safety issues, statistics, economics, communication 
skills, and working on team and multi-disciplinary projects. There is 
also a need to provide mechanisms through which the graduate student 
interacts with a functioning advisory committee throughout the 
student's graduate career.
    The year 2003 saw the release of the National Academy of Sciences 
study, Beyond the Molecular Frontier, delineating the exciting 
directions in which the chemical sciences and engineering will develop 
over the next 10 years. The ACS began a major effort to re-examine the 
chemistry education process at the undergraduate and graduate levels, 
through an invitational conference, ``Exploring the Molecular Vision.'' 
This conference confirmed the view that a consideration of content 
reform cannot be separated from pedagogy.
    ACS recognizes that the major strength of the U.S. education 
establishment resides in the educators, K-12 teachers and college 
faculty, who bring the excitement of science and learning to students. 
It is critical that our nation recruit and retain the most talented 
people from our diverse population for these roles and that they be 
supported and recognized for their efforts.
    ACS has been involved in the educational reform movement for many 
years. Yet, for educational reforms to succeed, we must all recognize 
the long-term nature of the reform process. Reform must be sustained; 
it must not be viewed as a one-time or cyclical activity. Recognizing 
the importance of a sustained effort, ACS will continue to support 
nationwide efforts to:

        <bullet>  Implement standards-based science education at the K-
        12 level;

        <bullet>  Promote the systemic reform of undergraduate and 
        graduate chemistry programs;

        <bullet>  Provide lifelong professional development 
        opportunities for science teachers and those who practice the 
        chemical sciences;

        <bullet>  Encourage schools to use assessment instruments that 
        measure a student's understanding of science and use of the 
        methods of science, not just the student's ability to recall 
        science facts;

        <bullet>  Develop national assessments of science achievement 
        at the K-12 level that are in-line with the National Science 
        Education Standards in terms of scope, content, and assessment 
        of the broad range of understanding and abilities expected from 
        effective science learning;

        <bullet>  Ensure that the resources are available within 
        schools, colleges, and universities to encourage and support 
        excellence in laboratory-based courses;

        <bullet>  Recruit and retain the best possible people, 
        including members of under-represented groups, for example, 
        women, African Americans, Native Americans, Hispanics, and 
        persons with disabilities), into the scientific disciplines; 
        and,

        <bullet>  Promote a scientific curriculum that emphasizes 
        scientific reasoning and scientifically validated data at all 
        levels.

        <bullet>  Develop introductory chemistry courses for both 
        general students and science students that emphasize the 
        current and future solutions of real-world problems.

        <bullet>  Integrate chemistry core courses for undergraduates 
        and graduates on an intra-disciplinary unifying concept basis 
        that reflects how chemistry is actually practiced.

        <bullet>  Demonstrate the ``enabling'' concepts of chemistry 
        useful for 21st century, team-centered, multi-disciplinary 
        research through interactive courses and research at the 
        undergraduate and graduate levels.

PRE-HIGH SCHOOL (K-8)

    Students make many decisions regarding future course work and 
career options during their pre-high school years. Even their pre-
school experiences can have an influence on future choices. Thus, the 
curiosity and wonder shown by the youngest of learners about the 
natural world must be carefully nurtured. Teachers (supported and 
reinforced by school systems, communities, and policy-makers) play a 
pivotal role in this nurturing process. Teachers need to be confident 
in teaching science through interactive and inquiry-based modern 
courses, as defined in the National Science Education Standards.

I. Teacher Development

    Recruitment and retention of teachers who are well prepared in 
science is of the highest priority for the future of our technology-
based society. These teachers must represent our diverse population. 
Elementary and middle school teachers need a firm grounding in 
physical, biological, and Earth/space sciences, as well as an 
understanding of science education research. Their exposure to 
pedagogical techniques should promote a familiarity with hands-on, 
inquiry-based instruction, and provide them with significant 
pedagogical content knowledge. They also need preparation and practice 
in integrating science with other subjects, especially mathematics. If 
they do not have this background, teachers may be unable to implement 
hands-on, inquiry-based science instruction.
    To ensure that teachers with a science background teach science, 
some school systems use science specialists, even at the earliest grade 
levels, to deliver regular instruction in science subjects. As a 
result, science and mathematics may be taught as completely separate, 
rather than mutually supporting, subjects. To ensure that K-8 students 
receive quality science instruction, ACS supports:

        <bullet>  Requiring all elementary school teachers to complete 
        at least three college-level semesters of laboratory-based, 
        inquiry-oriented science, including physical science, to meet 
        minimum certification standards. Courses in mathematics and 
        mathematics education should be parallel and complementary to 
        the science courses. These courses should be developed as 
        cooperative and creative efforts among departments of science, 
        mathematics, and education.

        <bullet>  Requiring all middle school science teachers to 
        complete at least three one-year, laboratory-based, inquiry-
        oriented college-level science courses, including physical 
        science, to meet minimum certification standards. Courses in 
        mathematics and mathematics education should be parallel and 
        complementary to the science courses. These courses should be 
        developed as cooperative and creative efforts among departments 
        of science, mathematics, and education.

        <bullet>  Enhancing federal, State, and local funding of 
        teacher in-service professional development programs to ensure 
        that elementary and middle school teachers have access to 
        programs that help them to expand and update their science 
        knowledge base. These programs could take many forms, including 
        technology-based remote learning. However, they must be 
        designed to enhance teacher content knowledge in the sciences 
        through the perspectives and methods of inquiry. This support 
        should be directed at the courses most appropriate for building 
        the skills needed. Most often, these will be undergraduate 
        rather than graduate-level courses.

        <bullet>  Providing regular compulsory, teacher-led, in-service 
        professional development programs in science and mathematics 
        through the school system that include content, laboratory 
        experience, and pedagogy. One effective way to accomplish this 
        is to prepare and support groups of leadership teachers and 
        scientists to operate statewide as teams of in-service 
        facilitators.

        <bullet>  Requiring elementary and middle school teachers of 
        science to take education courses that emphasize pedagogical 
        content knowledge, peer-reviewed science education research, 
        new knowledge on human cognition, and ways of reaching students 
        with different learning styles, including the use of 
        technology.

        <bullet>  Using science specialists and resource teachers where 
        elementary teachers lack science knowledge, to motivate and 
        assist non-specialist teachers in the presentation of science 
        and its integration with other subjects, especially mathematics 
        and reading.

        <bullet>  Making use of mentors and master teachers to aid and 
        encourage new teachers.

        <bullet>  Using only certified science teachers to teach 
        science at the middle school level.

        <bullet>  Increasing the involvement of high school teachers 
        and students, and scientists from academe, business, and 
        industry, as mentors for both teachers and students at the K-8 
        level. Partnerships with ACS local sections can be particularly 
        useful in this regard.

II. Assessment

    Individual states are developing instruments to assess student 
achievement and teacher competence in the sciences. Consultation with 
those professional organizations that have either already developed 
such instruments, or have the expertise to do so, must be encouraged. 
However, it must be recognized that assessment instruments do not 
always address the broad range of understanding and abilities expected 
from effective science learning. To address these concerns, ACS 
advocates:

        <bullet>  Evaluating students' science achievement at all grade 
        levels, during each grading period. Classroom evaluation should 
        assess not only fact recall and concept comprehension, but also 
        higher-level cognitive skills, including the ability to apply 
        science knowledge in new situations. Evaluation tools should 
        assess process skills using hands-on activities and computers, 
        as well as paper-and-pencil exercises.

        <bullet>  Using the self-assessment guidelines for elementary 
        school science teachers developed by the National Science 
        Teachers Association and other professional organizations as a 
        means of encouraging teacher self-reflection.

        <bullet>  Evaluating elementary teacher competence in science, 
        in multiple ways and with carefully designed instruments, as a 
        means of helping teachers identify areas in their science 
        background that need additional professional development.

        <bullet>  Developing national assessment instruments designed 
        to identify factors in the school community that lead to 
        successful student learning of science, and working to 
        strengthen those factors in every community.

III. Curricula

    Informed by the content sections in the National Science Education 
Standards and the American Association for the Advancement of Science's 
Project 2061, Benchmarks for Science Literacy, all states now have 
state standards or frameworks for science curricula.
    However, the quality of these standards varies from state to state. 
Even within a state, there may still be inconsistencies in the 
development of content from one grade to the next, or from one school 
district to the next. Science in elementary and middle schools should 
be a hands-on, inquiry-based exploration of the natural world, using 
multiple resources: teachers, the laboratory, the library, the wider 
community, books and magazines, multimedia sources, and the Internet. 
Chemical phenomena should be introduced in the early grades as a part 
of students' observations of their surroundings. To address these 
issues, ACS supports:

        <bullet>  Developing inquiry-based K-8 curricula that reflect 
        the conceptual frameworks provided by the content sections in 
        the National Science Education Standards, the Project 2061 
        Benchmarks, and their State and local counterparts. Elementary, 
        middle, and high school teachers should work together to make 
        certain that science content is articulated and implemented 
        throughout the K-12 system.

        <bullet>  Including some chemistry component at each grade 
        level (K-8) developed by teachers and scientists working in 
        partnerships.

        <bullet>  Developing safe, hands-on, inquiry-based science 
        activities in which science as a problem-solving endeavor is 
        placed within the societal context of the student, using 
        concrete examples of science and technology and various 
        technological resources.

        <bullet>  Using the computer for simulations, drills, access to 
        multimedia and Internet resources, and enhancing data 
        collection, but not eliminating laboratory experiences.

        <bullet>  Expanding efforts to integrate science with other 
        curricular areas such as reading, mathematics, and social 
        studies.

        <bullet>  Developing appropriate science experiences for very 
        young children working with their parents.

IV. Resources

    All schools at the K-8 level should consider science as an 
essential component of basic education. When the school administration, 
the school system, business and industry, and the local community 
(including parents) work in collaboration, effective elementary and 
middle school science instruction becomes more relevant. Adequate 
facilities and resources necessary to teach science at this level are 
essential. To ensure that adequate resources are available for teaching 
K-8 science, ACS urges:

        <bullet>  Restructuring the elementary and middle school 
        curriculum to allow time for daily, inquiry-based science 
        activities and for teacher preparation of these activities.

        <bullet>  Furnishing elementary classrooms to permit safe, 
        hands-on, inquiry-based science instruction (at a bare minimum, 
        a sink and running water) and, at the middle school level, 
        providing laboratory workstations. Access to adequate 
        educational technology, including calculators, computers, and 
        connection to the Internet, is a high priority. Of necessity, 
        hands-on, inquiry-based science must be supported by adequate 
        budgets for supplies, online access, and equipment and 
        equipment maintenance.

        <bullet>  Involving parents in their children's science 
        education by establishing both school- and community-based out-
        of-classroom science experiences for the family.

        <bullet>  Establishing school system/business/government/ACS 
        local section alliances to introduce current science and 
        technology information into the classroom on a regular basis. 
        Such partnerships could include sabbatical leave programs, 
        industrial and government laboratory summer employment, and 
        other arrangements that permit exchanges of personnel between 
        schools and the science-rich sectors.

SECONDARY SCHOOLS (9-12)

    For many students, high school represents the single most 
significant period in their science education and a time when tentative 
career choices are made. Developing both a scientifically literate 
public and the science specialists needed to advance our nation in an 
increasingly complex technological world, demands intellectually 
challenging yet developmentally appropriate curricula taught by well-
qualified teachers.
    The ACS strongly supports a variety of approaches to the structure 
and the continuous evaluation and improvement of high school science 
curricula. We call attention to the ongoing changes that are taking 
place in the sciences and we believe that all students, college-bound 
and otherwise, should be well educated in the sciences and in the 
mathematics that are the driving engines of 21st century society 
throughout the world. We are cognizant of the national standards in 
science and mathematics that are providing models for state standards. 
Therefore, we strongly support developing new science curricula that 
are based upon a core three-year science program that:

        <bullet>  Presents science in a logical and coherent sequence 
        that reflects the connections among the disciplines,

        <bullet>  Stresses the relationships between mathematics and 
        science,

        <bullet>  Strives for a balance between content and process, 
        and

        <bullet>  Emphasizes inquiry and laboratory experience.

    Teachers need to be comfortable teaching science through 
interactive and inquiry-based modern courses, and they need to be 
appropriately recognized and rewarded for their successes.

I. Teacher Supply

    Many of our nation's teachers are reaching retirement age, and some 
are leaving teaching for other careers. Attracting well-prepared 
graduates into teaching careers will be a challenge. To encourage the 
brightest of our students among our diverse population to consider 
careers in teaching, ACS supports:

        <bullet>  Establishing state and federally supported 
        scholarships to assist undergraduates interested in teaching 
        secondary school science or mathematics. These scholarships 
        should be renewable for up to four years and include support of 
        education-related, paid professional activities during the 
        summers. After graduation, the students should be required to 
        teach one year for every year of scholarship support.

        <bullet>  Establishing state and federally funded scholarships 
        to support individuals holding a discipline-centered academic 
        degree who need pedagogical courses for secondary school 
        teacher certification. Scholarship recipients should be 
        required to spend at least one year teaching science or 
        mathematics in a secondary school.

        <bullet>  Modifying existing teacher certification programs to 
        permit experienced scientists to teach in secondary schools 
        after completing a suitable teaching internship, with the 
        understanding that education course credits would be required 
        for permanent certification.

lI. Teacher Development

    The ability to deliver quality instruction, and the professional 
status of secondary school science teachers, may be undermined by heavy 
teaching loads and limited opportunities for teachers' professional 
growth, especially in acquiring a stronger scientific background. The 
release of the National Science Education Standards and the Project 
2061 Benchmarks challenges current teachers, and those preparing to 
teach, to achieve new levels of excellence in their teaching. To help 
meet these challenges, ACS advocates:

        <bullet>  Requiring teachers to meet content area 
        qualifications for the courses they are required to teach by 
        taking appropriate undergraduate courses. Enhanced cooperation 
        between departments of different disciplines and schools of 
        education will be essential to ensure that teachers are well 
        prepared in science content, pedagogy, and standards-based 
        assessment techniques.

        <bullet>  Encouraging college and university education and 
        science departments to develop programs that include content 
        and pedagogy, to allow potential teachers to complete their 
        certification requirements within a typical Bachelor's degree 
        program.

        <bullet>  Enhancing federal, State, and local funding of 
        professional development to ensure that secondary school 
        science teachers have access to programs that allow them to 
        expand and update their science knowledge base. These programs 
        could take many forms, including technology-based remote 
        learning. They must be designed to enhance teacher content 
        knowledge in the sciences through the perspectives and methods 
        of inquiry and hands-on experience.

        <bullet>  Requiring high school science teachers to take 
        education courses that emphasize pedagogical content knowledge, 
        peer-reviewed science education research, new knowledge on 
        human cognition, and ways of reaching students with different 
        learning styles, including the use of technology.

        <bullet>  Changing state requirements for continuing education 
        of teachers to include more content-area subject matter. At 
        present, teachers may be required to take graduate-level 
        courses in pedagogy to maintain their certification, when 
        undergraduate courses in the sciences might be more effective 
        in enhancing classroom performance. College and university 
        science departments should develop and offer appropriate 
        classroom and/or distance learning courses for practicing 
        teachers throughout the calendar year.

        <bullet>  Improving the work conditions of science teachers to 
        reduce attrition from the profession, to help improve the 
        quality of instruction, and to ensure that safety concerns are 
        met. Conditions for chemistry teaching should be consistent 
        with the recommendations in the ACS documents Safety in 
        Academic Chemistry Laboratories and Model Chemical Hygiene Plan 
        for High Schools and with the National Science Education 
        Standards.

        <bullet>  Providing financial incentives to encourage the 
        participation of teachers in summer research and other 
        educational activities at college, university, industrial, and 
        government laboratories.

        <bullet>  Providing mechanisms for more experienced teachers to 
        mentor new teachers.

III. Curricula

    Science curricula need to be challenging to the students, and based 
on the ``real world'' of student interactions with nature. The National 
Science Education Standards and the Project 2061 Benchmarks, together 
with State and local frameworks, present a consensus on which to build 
such curricula. The 2002 NRC report on improving advanced study of 
mathematics and science in U.S. high schools provides appropriate 
guidance on higher-level chemistry courses for second-year instruction. 
Inquiry-based learning and laboratory experiences are essential 
components of chemistry instruction at all levels (see addendum). To 
help meet consensus standards of excellence, ACS supports:

        <bullet>  Developing science courses based upon inquiry-based 
        learning, as defined in the National Science Education 
        Standards and evaluating performance using standards-based 
        assessment techniques. Classroom evaluation should assess not 
        only fact recall and concept comprehension, but also higher-
        level cognitive skills, including the ability to apply science 
        knowledge in new situations.

        <bullet>  Redesigning chemistry courses to present a broad view 
        of the scope of modern chemistry by including such topics as 
        organic, polymer, biochemistry, and materials science. The 
        courses should include numerous examples of the interactions of 
        science, technology, and society at all grade levels. They 
        should also reinforce the role of the computer and laboratory 
        instrumentation as scientific tools.

        <bullet>  Integrating within the laboratory experience an 
        emphasis on environmental protection (including green 
        chemistry) and laboratory safety.

        <bullet>  Integrating coverage of scientific ethics into the 
        curriculum.

        <bullet>  Mandating at least three years of laboratory-based 
        science for all secondary school students.

        <bullet>  Enrolling in Advanced Placement, the International 
        Baccalaureate, or similar advanced programs as a second-year 
        chemistry option.

        <bullet>  Exploring other logical sequences of science courses, 
        for example, physics, then chemistry, then biology), organized 
        in a manner that recognizes the dependence of each course in 
        the proposed sequence on the content and concepts presented in 
        the previous one.

        <bullet>  Integrating science content across disciplines and 
        throughout the years of the secondary school experience.

        <bullet>  Enhancing articulation between high schools and two-
        year colleges, especially for students entering vocational 
        training programs for technician level jobs in science and 
        engineering.

        <bullet>  Increasing the availability of out-of-school science 
        activities for young people to reinforce interest in science 
        and mathematics achievement and careers. Especially needed are 
        out-of-school programs to attract under-represented groups into 
        the quantitative disciplines.

        <bullet>  Providing incentives such as scholarships to 
        encourage the participation of all students in summer research 
        activities at college, university, industrial, and government 
        laboratories.

IV. Resources

    All high schools should consider science as an essential component 
of basic education. When the school administration, the school system, 
business and industry, and the local community (including parents) work 
in collaboration, high school science instruction becomes more 
effective. Adequate facilities and resources are essential to teach 
high school science effectively. Business and industry in particular 
have a stake in ensuring that the educational system produces both 
scientifically literate citizens and technically trained/trainable 
personnel. To ensure that adequate resources are available for high 
school science, ACS urges:

        <bullet>  Providing laboratory workstations that permit safe, 
        hands-on, inquiry-based science instruction. Access to adequate 
        educational technology, including calculators, computers, and 
        connection to the Internet, is a high priority. Of necessity, 
        hands-on, inquiry-based science must be supported by adequate 
        budgets for supplies, equipment, online access, and 
        maintenance.

        <bullet>  Establishing school/business/government/ACS local 
        section alliances to introduce current science and technology 
        information into the classroom on a regular basis. Such 
        partnerships could include teacher sabbatical leave programs, 
        industrial and government laboratory summer employment 
        opportunities, and other arrangements that permit exchanges of 
        personnel between schools and the educational and business 
        sectors.

        <bullet>  Using tax incentives to encourage business and 
        industry to become more involved in high school science 
        education.

        <bullet>  Providing broad experiential programs for students 
        during the academic year and summer, for example, ecological 
        field experiences, participation in science fairs and science 
        Olympiad events, science mentorship programs, and summer 
        research programs like Project SEED.

TWO-YEAR COLLEGES

    The Nation's two-year colleges play an important role in providing 
access to careers in science, engineering, and technology, especially 
for students from groups currently under-represented in the sciences. 
Two-year colleges provide the curricular paths for students who will 
transfer to baccalaureate programs in four-year colleges and 
universities. They also prepare technicians and technologists to assume 
active roles in research and development in industry, government, and 
academia.

I. Faculty Development

    Faculties at two-year colleges have heavy teaching responsibilities 
that include lecture sections, laboratory teaching, and recitations. 
They need adequate time and opportunities for professional growth. Two-
year college faculties need an understanding of both modern chemistry 
and new pedagogical techniques to ensure that students are exposed to 
the most stimulating and effective learning environments. Therefore, 
ACS supports:

        <bullet>  Making teaching responsibilities and working 
        conditions in two-year colleges consistent with ACS guidelines 
        for two-year programs.

        <bullet>  Providing two-year college chemistry teachers with 
        ready access to professional development opportunities, 
        including summer institutes, workshops, and conferences; 
        weekend seminars; satellite broadcasts; and short courses. 
        Faculties also need opportunities to develop networks and 
        mentoring systems and to participate in faculty-faculty and 
        faculty-industry exchanges.

        <bullet>  Establishing school/industry/government/ACS local 
        section alliances to introduce current science information into 
        the classroom and laboratory on a continuing basis. Such 
        alliances could include sabbatical leave programs, industrial 
        and government laboratory summer employment opportunities, and 
        both formal and informal arrangements. The alliances should 
        also participate in curriculum revision and development as well 
        as implementation activities.

        <bullet>  Limiting the use of part-time or adjunct faculty in 
        two-year colleges, but providing those faculty members with 
        appropriate professional benefits as outlined in the ACS 
        Academic Professional Guidelines.

        <bullet>  Allocating government and institutional resources to 
        develop a dialogue, and establish cooperative activities, with 
        faculty at other institutions of higher learning. Joint 
        activities could involve fostering collaboration on research 
        and demonstration grants, planning seminars, resolving 
        articulation issues, and developing and implementing curricula.

II. Facilities and Instrumentation

    Although some two-year colleges (especially those that offer 
chemistry-based technology programs) have the equipment and resources 
needed to provide outstanding instruction, many lack the necessary 
equipment and resources for modern laboratory-based instruction in 
chemistry. To ensure that all two-year institutions have the resources 
they need to teach chemistry, ACS recommends:

        <bullet>  Expanding federal and State funding of instructional 
        laboratory equipment and instrumentation, including faculty 
        training, for two-year college chemistry programs. This will 
        assist those institutions with a strong technology focus to 
        maintain their state-of-the-art programs and help needy 
        institutions upgrade equipment and instrumentation.

        <bullet>  Sharing resources and instrumentation locally through 
        the establishment of alliances between two-year colleges and 
        business, industry, and government, as well as between two-year 
        and four-year colleges and high schools.

        <bullet>  Increasing the availability of funds to provide 
        undergraduate instructional courses and research laboratories 
        with modern equipment, maintain that equipment, and train 
        faculty in their use and pedagogical applications.

        <bullet>  Increasing the resources available for faculty 
        training so that they can acquire, adapt, maintain, and update 
        educational technologies, including computers, CD-ROMs, and 
        Internet access, for classroom and laboratory use. The 
        appropriate use of educational technology should enhance, 
        rather than supplant, the laboratory experience.

        <bullet>  Establishing and maintaining the growth of on-line 
        library resources and information retrieval services, which 
        will permit access to current developments in chemistry at all 
        campuses within a given college system.

        <bullet>  Making funds available to needy institutions to 
        support consultant review of their chemistry programs to 
        improve chemistry instruction.

III. Curricula

    Two-year colleges accommodate a large, diverse population of 
students who enter with varying educational backgrounds. As home to 
many ``nontraditional'' students, including older and working students, 
two-year colleges need to maintain flexible schedules and multiple 
levels of introductory chemistry. To meet the special needs of students 
in two-year colleges, ACS supports:

        <bullet>  Developing, through consensus building, articulation 
        agreements and other mechanisms at the local, regional, and 
        statewide levels to facilitate the efficient transfer of 
        students between two- and four-year institutions.

        <bullet>  Improving articulation between high schools and two-
        year colleges for both college-transfer courses and technician 
        or other terminal degree programs. This can be best 
        accomplished through local alliances, ``tech prep'' 
        initiatives, and similar activities that help increase the 
        level of mutual understanding between two-year colleges and 
        secondary schools. It is critical that articulation ensure that 
        students transferring from two-year colleges can compete 
        effectively at the four-year college/university level.

        <bullet>  Using alternative approaches to teaching and 
        appropriate assessment of introductory chemistry tailored to 
        the specific needs of students, especially under-prepared 
        students, groups under-represented in the sciences, working 
        students, older students, non-science majors, and students 
        preparing for the technician fields. All such approaches must 
        include a strong laboratory component as described in ACS 
        Guidelines for Chemistry in Two-Year Colleges.

        <bullet>  Integrating into the laboratory curriculum concepts 
        of environmental protection (including green chemistry) and 
        laboratory safety.

        <bullet>  Integrating coverage of scientific ethics into the 
        curriculum.

        <bullet>  Ensuring that continuing education courses for 
        elementary and secondary school teachers provided by two- and 
        four-year institutions are equivalent and receive similar 
        recognition by the school districts.

        <bullet>  Developing programs of content review and pedagogy to 
        involve mid-career and retired scientists in the service of 
        science, engineering, and technology education (see also 
        Secondary Schools).

        <bullet>  Providing programs to heighten the public 
        understanding of science targeted not only toward students, but 
        also toward the public at large.

IV. Undergraduate Research

    Research can provide significant and stimulating experiences within 
the undergraduate curriculum and may influence career choices. To 
support a high-quality experience in the experimental component of the 
curricula at all levels, ACS recommends:

        <bullet>  Expanding available funding for undergraduate 
        research to summer as well as academic-year projects, to 
        support the involvement of as many chemistry majors as possible 
        in research, at as early a stage as feasible.

        <bullet>  Recognizing that creditable research can involve work 
        other than classical laboratory projects, including, for 
        example, research in chemistry education. This would be 
        appropriate for those who already have a strong basis in the 
        discipline and plan to pursue a career in teaching.

        <bullet>  Developing opportunities for undergraduate students 
        to participate in external experiential research programs.

V. Under-represented Populations

    A number of groups are under-represented in science, engineering, 
and technology careers. These include women, African Americans, Native 
Americans, Hispanics, and persons with disabilities. Proportionately 
more minorities are enrolled in two-year institutions than in four-year 
institutions. To ensure that all under-represented groups have access 
to careers in science, engineering, and technology, ACS urges:

        <bullet>  Targeting public funds to develop, within two-year 
        colleges, model projects and activities designed to attract and 
        retain students from under-represented groups in the science 
        disciplines. This will involve interactions with local pre-high 
        and secondary school systems as well as four-year institutions, 
        the wider public, and local business and industry.

        <bullet>  Developing incentives to foster the establishment of 
        active partnerships between two-year colleges and surrounding 
        schools, to identify at risk youth, and to provide them with 
        enrichment programs to facilitate their transfer into four-year 
        institutions.

        <bullet>  Providing incentives to foster partnerships with 
        employers for the training and retraining of the community's 
        workforce.

FOUR-YEAR COLLEGES AND UNIVERSITIES

    The study of chemistry is central to an understanding of the 
natural world and is essential for understanding a range of sciences 
other than classical chemistry and biochemistry. Advances in 
biotechnology, materials science, and engineering, as well as the 
applied sciences such as health care, nutrition, aviation, and 
environmental studies, have expanded the borders of chemistry. It has 
never been more important that chemistry be taken by all undergraduates 
to complete a liberal education or to begin a lifelong study. Thus, 
faculty must get involved in curriculum innovation that will excite and 
stimulate a broad spectrum of students, recognizing the importance of a 
multi-disciplinary approach to chemistry, the enabling science, while 
still maintaining the rigor of the discipline.

I. Faculty Development

    Undergraduate faculty members need an understanding of both modern 
chemistry and new pedagogical techniques to ensure that students are 
exposed to the most stimulating and effective learning environments. 
Guidance and mentoring are an important aspect of the overall 
instructional mission. Institutional recognition and rewards for these 
kinds of professional activities must be a part of faculty evaluation. 
To encourage high-quality teaching in four-year colleges and 
universities, ACS supports:

        <bullet>  Developing tangible institutional rewards for high-
        quality undergraduate instruction. Current rewards for 
        instruction have too little impact on faculty prestige, 
        particularly at research universities.

        <bullet>  Requiring professional development programs for 
        teaching assistants and new faculty. These programs should 
        include assignment of a mentor, frequent (at least quarterly) 
        performance feedback from the appropriate senior faculty 
        member(s), and preparation of a development plan. The focus 
        should be on improvement and development rather than weeding 
        out.

        <bullet>  Providing support, through institutional and outside 
        funding, for continuing faculty development, including 
        appropriate professional development for temporary, adjunct, 
        and part-time faculty. This should include providing faculty 
        with the tools necessary to address assessment issues related 
        to student learning outcomes, faculty effectiveness, and the 
        curriculum.

        <bullet>  Developing policies to promote a balance between 
        teaching and research activities, including research in 
        chemistry education. Possible programs include the funding of 
        joint research and teaching activities, or supporting young 
        scholar-educators as post-doctoral students and new faculty 
        members.

        <bullet>  Providing opportunities for faculty development in 
        industry and in government agencies, and integrating those 
        experiences into the curriculum. Since the majority of 
        baccalaureate and doctoral students will be employed by 
        industry, faculty need a broad exposure to chemistry in an 
        industrial setting to prepare their students for the workplace.

        <bullet>  Ensuring that those part-time, adjunct, and temporary 
        faculty members receive reasonable compensation, including 
        benefits outlined in the ACS Academic Professional Guidelines 
        and opportunities to participate in activities that foster 
        continued professional growth.

II. Curricula

    Curricula must be thoughtfully designed for the intended audience 
of students, which may include chemistry majors, other science majors, 
applied science majors, or non-science majors. The course content must 
reflect the breadth and vitality of chemistry--the central and enabling 
science. The pedagogy employed must utilize knowledge from cognitive 
science research on how students best learn chemistry. To support high-
quality curricula in colleges and universities, ACS recommends:

        <bullet>  Adopting the most appropriate pedagogical and 
        assessment techniques to enhance and evaluate student learning.

        <bullet>  Modifying and developing current courses to reflect 
        modern chemistry and cutting-edge developments in our 
        broadening discipline. This should include industrial and 
        business components within courses since most chemistry 
        graduates will enter business and industry.

        <bullet>  Reflecting the interdisciplinary character of 
        chemistry within all courses, as the centrality of chemistry 
        provides a valuable basis for understanding other areas of 
        study.

        <bullet>  Integrating oral, written, and other appropriate 
        methods of communication, as well as information management and 
        retrieval technologies into all aspects of the curricula.

        <bullet>  Integrating within the laboratory component concepts 
        of environmental protection (including green chemistry) and 
        laboratory safety.

        <bullet>  Integrating coverage of scientific ethics into the 
        curriculum.

        <bullet>  Developing courses for non-science majors, strong in 
        content and high in appeal to the non-major, to reflect the 
        relevance of science to solving social problems, and the 
        science knowledge needs of the general population.

        <bullet>  Developing degree programs in chemistry for those who 
        will become pre-college teachers. Teachers in the K-12 sector 
        must be educated in both basic science principles and pedagogy. 
        A well-designed chemistry education program would permit 
        students to acquire the necessary science and educational 
        background within a four-year degree program. The ACS Committee 
        on Professional Training has defined one such program through 
        its offering of an ACS-approved degree in chemistry/chemistry 
        education, and now also offers a minor in chemistry education.

        <bullet>  Ensuring that students' course articulation between 
        two- and four-year colleges can be accomplished with a minimum 
        of disruption and time loss, and without sacrificing academic 
        credit.

        <bullet>  Developing asynchronous programs, for example, 
        Internet based distance learning) to serve those unable to 
        participate in regular campus courses. Education must be 
        available to those who wish to benefit from it, even when they 
        are not able to attend a traditional college campus.

        <bullet>  Providing funding to faculty for curricular 
        development, implementation, and assessment.

III. Facilities and Instrumentation

    New or remodeled facilities provide the basis for the most 
effective learning, which includes modern technology and the latest in 
safety considerations. Modern instrumentation is required to expose 
students to the methods and equipment that they will use as working 
chemists and to carry out meaningful undergraduate laboratory research. 
To ensure the necessary physical infrastructure for modern chemistry 
instruction, ACS supports:

        <bullet>  Increasing funds for the construction of new, and 
        remodeling of existing, chemistry facilities.

        <bullet>  Increasing the availability of funds to provide 
        undergraduate instructional courses and research laboratories 
        with modern equipment, maintain that equipment, and train 
        faculty in their use and pedagogical applications.

        <bullet>  Designing new laboratory experiences that include the 
        use of appropriate instrumentation, even at the freshman level. 
        While it is important to use sophisticated instrumentation 
        relevant to the instructional goals of a given laboratory 
        course, the development and use of cost-effective 
        instrumentation may also be pedagogically sound.

        <bullet>  Including the use of modern computer equipment and 
        appropriate Internet access in the lecture and laboratory 
        curricula. Computer simulation of experimentation must be used 
        as a supplement to and extension of, not as a replacement for, 
        hands-on experiences in chemistry.

        <bullet>  Developing partnerships between colleges and local 
        industry, government, and other organizations to maximize 
        utilization and availability of sophisticated instrumentation.

IV. Undergraduate Research and Experiential Learning Opportunities

    Research can provide significant and stimulating experiences within 
the undergraduate curriculum and may influence career choices. To 
support a high-quality experience in the experimental component of the 
curricula at all levels, ACS recommends:

        <bullet>  Expanding available funding for undergraduate 
        research to summer as well as academic-year projects, to 
        support the involvement of as many chemistry majors as possible 
        in research, at as early a stage as feasible.

        <bullet>  Developing programs that allow majors in other 
        sciences and non-science majors to experience first-hand 
        research in the chemical sciences.

        <bullet>  Recognizing that creditable research can involve work 
        other than classical laboratory projects, including, for 
        example, research in chemistry education. This would be 
        appropriate for those who already have a strong basis in the 
        discipline and plan to pursue a career in teaching.

        <bullet>  Developing opportunities for undergraduate students 
        to participate in external experiential research programs, as 
        well as the understanding by students that this is a valuable 
        and important part of their educational experience.

V. Under-represented Populations

    A major resource of our country is the talent of our citizens. 
Every effort must be made to encourage and provide opportunities for 
the education of all those who are qualified and willing to benefit 
from this experience. To support the maximum use of our personnel 
resources, ACS recommends:

        <bullet>  Developing and supporting programs designed to 
        attract and retain women, African Americans, Native Americans, 
        Hispanics, and disabled students into undergraduate programs in 
        chemistry. Many in these groups are unaware of career options 
        in chemistry and of funding opportunities for undergraduate and 
        graduate study in chemistry.

        <bullet>  Providing connections for these students to work with 
        the community and local schools to bring the message of the 
        excitement of science and career opportunities to their 
        populations.

        <bullet>  Providing guidance and support for newly hired 
        faculty from under-represented groups. These faculty members 
        are often under special pressure in their early academic years 
        since they are often serving as mentors themselves.

POST BACCALAUREATE EDUCATION

    Post baccalaureate (graduate) education in the chemical sciences 
includes the doctoral and Master's level of formal education and, for 
some, a subsequent postdoctoral experience. There is strong support 
that graduate education, particularly at the doctoral level, continues 
to stress original research as the basis of the graduate experience. In 
addition to the problem solving skills students develop through focused 
research, they should be encouraged to recognize the broader 
applicability of these skills, particularly with respect to the 
interdisciplinarity of science, and topics such as economics, 
management, ethics, and oral and written communication. Mentoring by 
the graduate faculty must be an integral part of the education 
sequence. Recruiting to attract and retain under-represented 
populations will provide the broadest possible resource of professional 
chemists. The diverse objectives of programs at the post-baccalaureate 
level call for caution in prescribing educational practices, but with 
this caveat, the ACS recommends:

        <bullet>  Ensuring that graduate education at the doctoral 
        level continue to provide students with the opportunity to 
        engage in creative research, pure or applied, in the chemical 
        sciences.

        <bullet>  Broadening the graduate experience to include more 
        specific training in, for example, communication, ethics, 
        safety, and functioning in team and multi-disciplinary 
        projects.

        <bullet>  Providing mentoring and career guidance programs for 
        students throughout their graduate experience.

        <bullet>  Expanding funding for graduate student support 
        through traineeships and fellowships, in addition to direct 
        faculty research funding.

        <bullet>  Developing special programs to recruit and retain 
        under-represented minorities and women in graduate school.

        <bullet>  Encouraging federal and State support to improve the 
        infrastructure for graduate chemistry education through grants 
        for instrumentation, as well as funds for building new, and 
        remodeling existing, facilities.

        <bullet>  Providing incentives for industry to contribute 
        research support to colleges and universities and to develop 
        university--industry research partnerships. The participation 
        of industry in graduate education can enhance the interactions 
        between these two sectors and provide enhanced employment 
        opportunities for students.

        <bullet>  Recognizing that a variety of approaches to research 
        support can encourage greater creativity, a healthy balance 
        between individual investigator grants, small and large group 
        grants, and research centers should be maintained.

        <bullet>  Developing opportunities for graduate students to 
        participate in external experiential programs in government and 
        industry.

        <bullet>  Developing opportunities that include appropriate 
        pedagogical components and practice for those students who will 
        become college and university faculty.

        <bullet>  Promoting programs for professional Master's degrees, 
        including professional degrees such as for those who are, or 
        will become, teachers.

        <bullet>  Ensuring that graduate teaching assistants and 
        postdoctoral fellows are accorded appropriate compensation and 
        recognition as outlined in ACS Academic Professional 
        Guidelines.

CONTINUING EDUCATION

    The strong technology base of the United States economy depends on 
the continuing education of its entire workforce, including those 
currently under-represented in chemistry such as women, African 
Americans, Native Americans, Hispanics, and persons with disabilities. 
ACS recommends:

        <bullet>  Establishing tax incentives to encourage individuals 
        to enhance their technical competence through continuing 
        education.

        <bullet>  Developing and supporting programs to reach segments 
        of the workforce that do not have access to classical education 
        institutions. This might include developing courses and 
        instruction at industrial sites or fording other ways to reach 
        a broad audience.

        <bullet>  Tailoring the content and scheduling of appropriate 
        chemistry courses to the continuing education needs of the 
        local workforce.

        <bullet>  Encouraging the direct participation of the 
        industrial sector in continuing education in chemistry.

        <bullet>  Designing programs to retrain individuals whose 
        livelihoods have been disrupted by the economic restructuring 
        and outsourcing of business and industry.

</pre></body></html>
